<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, APRIL 7, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Bond, Burns, 
Inouye, Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                         National Guard Bureau

STATEMENT OF LIEUTENANT GENERAL H. STEVEN BLUM, CHIEF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Generals. I am sorry 
to be a little late. We welcome you all so we can review the 
National Guard and Reserve programs.
    There are two panels scheduled this morning, I would say to 
the members of the committee. First, we will hear from the 
National Guard leadership, followed by the leadership of the 
four Reserve forces. Our first panel, obviously, is General 
Steven Blum, the Chief of the National Guard Bureau; Lieutenant 
General Roger Schultz, Director of the Army National Guard; 
Lieutenant General Daniel James, Director of the Air National 
Guard. We thank you gentlemen for joining us this morning.
    There is no question that the Guard and Reserve have been 
asked to perform beyond the normal call of duty and you have 
taken on your missions in Iraq and Afghanistan and elsewhere 
around the world in great fashion. Despite the burden and 
stresses that each of the Guard and Reserve service members 
have had to assume since 9/11, they continue to make 
extraordinary contributions to our Nation's security and we 
thank all of the citizen soldiers that are under your command.
    We have had visits to Iraq, Kuwait, Pakistan, and 
Afghanistan, and we have seen your people in action. We 
congratulate you for what you have done and pledge to you our 
support for what you are going to do in the future.
    Does any member have an opening statement?
    Senator Bond. Mr. Chairman?
    Senator Stevens. Sir.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Mr. Chairman, I join with you in welcoming 
the generals and all of the men and women from the National 
Guard. Senator Leahy and I are very proud to be able to work 
with the members of the Guard Caucus and particularly this 
committee in supporting the Guard, whether it is an allocation 
in the National Guard and Reserve Equipment Appropriations 
(NGREA) account or full-time support, additional rotor wing 
aircraft, Army aviation, additional civil support teams, the 
Youth Challenge program, just a few of the important things the 
Guard is doing.
    We understand there are over 170,000 Guard and Reserve 
forces currently activated and almost 40 percent of the force 
in Iraq is composed of Guard and Reserve. I think we have to 
remain diligent to follow up to see that we support the Guard 
and the Reserve as they support us.
    That is why Senator Leahy and I investigated concerns about 
medical holds and housing at Fort Stewart, Georgia. We got the 
response we needed. Soldiers on medical hold are getting better 
care and housing and the Army does not want a repeat of what 
went on at Fort Stewart.
    Right now I am working with a number of people to make sure 
that we get the mail system modernized so that mail can get to 
deployed troops overseas. Majority Leader Frist asked for a 
General Accounting Office (GAO) investigation of the mail 
system and that report is due out the end of April. We are 
hearing that it is going to have some very, very deep concerns 
about the ability to get mail to deployed troops which is very 
important for morale.
    Those of us in the political realm know that it is very 
important that Guard and Reserve who are deployed be able to 
vote. Twenty-nine States, including my State of Missouri and a 
number of other States here, require voting by mail, and if we 
cannot get the absentee ballots to our deployed troops and get 
them back, then they are disenfranchised. In Missouri last 
year, the Secretary of State checked on the 2002 election and 
found that 40 percent--40 percent--of the Missouri military 
deployed abroad who applied for absentee ballots did not get 
their ballots counted. And with much larger numbers deployed 
now, I think it is absolutely imperative. I have spoken to the 
Secretary of Defense, and I hope that the bureaucracy will get 
off its duff and make sure that we develop a mail system that 
can get the mail that our deployed troops deserve to see on a 
regular basis from home and also be able to participate in the 
political process.
    I thank all the members of the Guard. I want specifically 
to recognize Sergeant 1st Class Stephanie Leonard. She is a 
citizen soldier committed to supporting the community and the 
Nation's military, an excellent example, the first Bronze Star 
female winner in the Missouri National Guard. Sergeant, thank 
you very much for being with us.
    Thank you, Mr. Chairman.
    Senator Stevens. While we are recognizing constituents, 
Senator, let me point out that the students in the back of the 
room are from the Colony High School Closeup group from Palmer, 
Alaska. They have come 4,500 miles to be with you this morning.
    That is where they grow all those big pumpkins and big 
squash and things like that.
    Does any other Senator wish to make an opening statement?
    Senator Cochran. I would just ask, Mr. Chairman, to have my 
statement printed in the record. I join you in welcoming our 
witnesses and thank them for their service and their 
leadership.
    Senator Stevens. Thank you very much, Senator.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming our 
witnesses this morning.
    This year has been a huge challenge for our National Guard 
and Reserve forces and their response has been very impressive. 
An unprecedented number of Guard and Reserve are on active 
duty, serving in Iraq, Afghanistan and in the Global War on 
terrorism. Two Army reservists from my state of Mississippi 
have paid the ultimate price in Iraq. Today, as the Guard and 
Reserve serve in the air, on land and sea throughout the 
spectrum of warfare they can be assured we are committed to 
ensuring they have all the equipment and training necessary to 
succeed, and to return home safely as soon as possible.
    I would like to thank the witnesses, and the men and women 
they represent, for their service and their leadership. I look 
forward to hearing their testimony.

    Senator Burns. Mr. Chairman, could I have my statement also 
admitted to the record? We would like to hear from our 
witnesses this morning. Also, congratulations on a great job 
done by our citizen soldiers. Thank you very much.
    Senator Stevens. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank all of you 
for being here today to discuss the status of your respective 
National Guard and Reserve Components.
    Our men and women of the Guard and Reserve have performed 
nobly since 9/11 and in their current operations in Iraq and 
Afghanistan--the Global War on Terrorism and Operation Iraqi 
Freedom. The Guard and Reserve have certainly seen an increased 
operations tempo over the past few years and have been working 
side-by-side with the Active Component regularly. I worry that 
their equipment may be behind the current technologies or may 
not be compatible. Older equipment is expensive to operate and 
maintain, due to lack of availability of spares and increased 
failure rates. We must make sure the outdated cold war policy 
of fielding the newest equipment to our active forces first, 
and cascading the older equipment to the Guard and Reserve 
forces has changed.
    The Guard and Reserve force represents one that is 
extremely skilled and capable, responding to various missions 
across this nation and across the world. They show flexibility 
and rapid response as they continue to play very important 
roles in the protection of our homeland and warfighting 
operations overseas.
    Ensuring that our Guard and Reserve Components have the 
proper training, equipment and facilities necessary to carry 
out their duties is essential. I pledge to do what I can to 
make sure that our Guardsmen and Reservists have the support 
they need to get the job done, then come home to their loved 
ones safely.
    Again, thank you for coming this morning. I look forward to 
today's testimony today and the discussion that takes place.
    Thank you.

    Senator Stevens. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I want to welcome 
the witnesses here too, General Schultz and General Blum and 
General James. I have worked with all three of them. I know 
what a superb job they do. I think we have a great leadership 
team in place at the Guard Bureau.
    But, Mr. Chairman, you and Senator Inouye have been a great 
help. Senator Bond mentioned the fact that we lead the National 
Guard Caucus. This has been a joy not only because of my 
personal friendship and admiration of Senator Bond, but because 
of the men and women we represent. I think all the members of 
the caucus would agree in thanking you for the leadership you 
have given. Your subcommittee, yours and Senator Inouye's 
subcommittee, was the engine for launching two major 
initiatives that will significantly strengthen the Guard, 
including the TRICARE program and a significant increase in 
equipment funding. It made the Guard a priority. You have 
marshalled help through critical appropriations. Your own staff 
is superb in these areas.
    While we are mentioning folks from home, I would like to 
mention Sergeant Cara Krauss, who is sitting behind the 
Generals. The sergeant is a member of the Vermont National 
Guard. She just returned from Afghanistan. And, Sergeant, we 
are delighted to have you here.
    I am very proud of her. I am very proud of all the members 
of the Vermont Guard who served with great distinction in 
Bosnia, Iraq, and Afghanistan, along with the Texas Guard and 
along with the Missouri Guard and all the others.
    Not surprisingly, Mr. Chairman, she was telling me this 
morning that there are a couple big differences here. One, it 
is a lot easier walking around without having to wear all the 
body armor that is necessary in those places, and it is kind of 
nice to walk into stores and be back in the United States of 
America where things are a lot more familiar.
    But we have three Guard members here, and of course, so 
many others throughout the place. If it was not for our Guard 
and Reserves, we could not be carrying out our missions around 
the world and we would not have the United States well 
represented. So thank you, and thank you and Senator Inouye 
again for all the support you have given.
    Senator Stevens. Thank you, Senator.
    I have been out to Bethesda and to Walter Reed, and each 
time I was out there visiting with some of the military who 
have come back, I think you would be surprised to know each 
time I was asked, will you help me go back. That is a spirit 
that just grabs me. It just grabs me. It is really wonderful to 
be with those people.
    Our co-chairman has arrived. Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. If I may, I would like to join all of you 
in welcoming our Reserves and their chiefs and to thank and 
commend them and their men and women for their demonstration of 
citizenship and courage. We admire them, sir. Thank you very 
much.
    May I ask that the rest of my statement be made part of the 
record?
    Senator Stevens. All of your statements will be printed in 
the record in full.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I want to join you in welcoming our witnesses 
today, General Blum, General Schultz, and General James of the 
National Guard who will be followed by General Helmly, Admiral 
Cotton, General McCarthy, and General Sherrard of the Reserves.
    Since this will be General Sherrard's last appearance 
before this Committee, I would like to take the opportunity to 
thank him for his dedicated service to the Air Force.
    General, as chief, you commanded the Air Force Reserve 
during a time of unprecedented mobilizations, including Kosovo, 
Operation Noble Eagle, Operation Enduring Freedom, and 
Operation Iraqi Freedom.
    During your tenure in the Reserves you have also had a 
distinguished career as a command pilot with more than 5,000 
flying hours, commander of an Air Force Reserve group, two 
wings and two numbered air forces, and finally five years as 
chief of the Air Force Reserve.
    General, we thank you for your loyal service.
    Gentlemen, when I think of our Reserves, I think about your 
long history as citizen soldiers, the minutemen in the 
Revolutionary War, the militia that put down riots when our 
nation was in infancy, and our Guard that responds to natural 
disasters and emergencies, and ensured minority children were 
safely admitted into public schools. But things are different 
now. Today our Guard and Reserves make up 38 percent of our 
force in Operation Iraqi Freedom.
    Since September 11th, 282,896 of our Guard and Reserve 
personnel have been called to active duty, and 25,151 have been 
called upon more than once.
    I would like to commend everyone that has played a role in 
these operations. Time and time again, the extraordinary 
ability of our men and women in uniform and all the people that 
work to support them has been demonstrated.
    But, these ongoing operations have strained our troops. 
Numerous concerns such as recruiting and retention, benefits, 
pay equity, and force structure requirements continue to be 
raised by our military forces in the field. This committee also 
remains concerned over the longstanding issues of procuring 
sufficient weapons and equipment to support our Guard and 
Reserve forces.
    Gentlemen, the challenge you face is how to separate the 
identities of our Active and Reserve components, but ensuring 
equity in their treatment.
    I hope you will be able to address some of these concerns 
that are so important to our Guardsmen and Reservists and their 
families today.
    Mr. Chairman, I commend you for holding this hearing and 
look forward to hearing the testimony of our witnesses.

    Senator Stevens. All of your statements and the statements 
of the next panel will be printed in the record in full. I 
would appreciate it if you would summarize it. We would call on 
you first, General Blum.
    General Blum. Well, thank you, Mr. Chairman, and thank you, 
other members of the committee, for the opportunity to appear 
here this morning.
    As was stated in some of your opening remarks, as we sit 
here this morning, there are 144,000-plus citizen soldiers and 
airmen deployed all around the world that are engaged in the 
global war on terrorism and defending our homeland both here at 
home and abroad.
    Your National Guard has become critically essential to the 
defense, security and safety of our States and of our Nation. 
The National Guard has always been an operational reserve when 
it has answered the calls of the Governors and the President 
here at home. As a Federal reserve component of our Army and 
Air Force, we are transitioning from a strategic reserve that 
was once held in reserve for World War III to an operational 
force that is needed each and every day as our Army and our Air 
Force execute their missions around the world.
    This is a resource, manpower, and organizationally 
intensive undertaking that will have to happen on a very 
compressed time line if we are going to make it happen to meet 
the needs of our Nation. The National Guard and Reserve 
equipment account has been and will remain extraordinarily 
useful and vital in these initiatives.
    I am proud to report to you that your National Guard has 
answered every call, met every requirement, and accomplished 
every mission it has been asked to do.
    We are committed to transformation. We are transforming the 
Guard into a more joint and effective organization from top to 
bottom. We are improving readiness across the full spectrum of 
requirements from the full scale warfight overseas to the 
myriad homeland defense, support to homeland security 
operations and State traditional missions.
    We are providing better predictability to our soldiers, to 
our airmen, to their families, and to our employers. We are 
meeting the needs of our elected leaders and our uniformed and 
State and Federal leaders, and we are meeting the mandate to 
seamlessly operate in a State and Federal intergovernmental, 
interagency, joint and multinational role. Your National Guard 
is focusing on the right force mix with the right kinds of 
units, with the right kinds of capabilities distributed to each 
State and territory.
    We are transforming, along with the Army and the Air Force, 
and we are full partners in that transformation. It is now 
recognized that there are 18 divisions in the United States 
Army, 8 of which are assigned to the Army National Guard. There 
will be 82 brigade combat teams in the United States Army; 34 
of these will be assigned to the Army National Guard. The 
National Guard will convert units overtaken by technology or 
strategic and tactical needs to those capabilities that our 
country needs for today and tomorrow. We will eliminate 
nonessential and under-resourced force structure because it 
does not provide us the capabilities we need today or that 
which we will need in the future. We will move to a more 
modular, plug-and-play capabilities-based force which is 
manned, equipped, trained, and resourced like its active 
component.
    Partnering with our active components and the Reserves, we 
will create a true total force. Nationwide, we are rebalancing 
and leveraging the Army and Air National Guard formations. 
Transformation and modularity are both very good for the 
National Guard. It will enhance our readiness. It will increase 
our flexibility, agility and our ability to respond to today's 
reality and tomorrow's threats both here at home and abroad. We 
are taking on these transformations with the assistance and the 
full collaboration and inclusion of all stakeholders, the 
Governors, their Adjutants General, the services, the 
Department of Defense, and you, sir, and the United States 
Congress. Your National Guard is committed to doing what is 
right for America.

                          PREPARED STATEMENTS

    I look forward to your questions. Thank you.
    Senator Stevens. Thank you very much, General.
    [The statements follow:]
         Prepared Statement of Lieutenant General H Steven Blum
                 national guard 2005 posture statement
                 protecting america at home and abroad

    ----------------------------------------------------------------

                              IN MEMORIAM
    A Dedication to the men and women of the Army and the Air National 
Guard who made the ultimate sacrifice while serving the United States 
of America.

    ----------------------------------------------------------------

                                overview
    At no time in our history has America depended more on its Citizen-
Soldiers. The strength of our National Guard, as always, is derived 
from the caliber of our Soldiers and Airmen. When we think about what 
our nation asks these young Citizen-Soldiers and Airmen to do for their 
communities, their states, and their nation, and how magnificently they 
have performed here at home and abroad, our hearts are filled with 
pride.
    Our priorities and our vision focuses on leveraging the talents, 
the abilities, the selfless commitment and the enthusiasm of these 
Soldiers and Airmen. As Chief of the National Guard Bureau, my mission 
is to ensure that they receive the latest training, complete and modern 
equipment, and an organizational and command structure worthy of their 
mission and their service.
    The National Guard will remain, first and foremost, a provider of 
ready, trained, and equipped warfighting units to combatant commanders 
through the Army and the Air Force. Notably, the Guard has always been, 
throughout its history, a force that spanned the continuum of what we 
define today as ``Homeland Security,'' ``Homeland Defense,'' and 
``Warfighting.'' September 11, 2001 has refocused us on our fundamental 
responsibility to defend the homeland--the original mission of the 
militia--and revealed the present day efficacy that the founders 
understood so well--that a citizen-based militia is the best force to 
protect the citizenry from which it is drawn.
    The Guard is uniquely suited, like no other entity in the Defense 
Department, or indeed in the entire nation, to carry out that mission. 
No other organization has our combination of size, skills, training and 
experience, dispersion across the nation, command and communications 
infrastructure, and the legal flexibility to support civil authorities 
at a moment's notice. In nearly 3,000 communities around the nation, 
the Guard stands ready today--as it has since Jamestown was settled 
nearly 400 years ago.
                         support the war fight
Anytime, Anywhere
    We, the Guard, must provide the kind of forces that America needs, 
when America needs them.
    One of Secretary Rumsfeld's key mandates to the Services is to find 
ways to make the National Guard more ready and accessible in its 
federal warfighting role. Working in conjunction with the Army and 
Joint Forces Command, our goal is to dramatically improve the current 
mobilization and demobilization process. Under current guidelines, it 
can take several weeks to months to prepare an Army National Guard unit 
to mobilize and deploy--compared to the Air Guard model where units 
deploy in a matter of hours or days.
    We need to study and adapt the Air Guard model where possible.
    We are working with the Army to change its go-to-war protocols. It 
is no longer practical to follow cold war regimens of train, alert, 
mobilize, train, certify, deploy. We must move to train, alert, deploy. 
By updating home station facilities, taking advantage of new 
technologies, and funding units at a higher level of readiness, we hope 
to create a new 21st century minuteman. The Guard must and will 
continue to operate across the full spectrum of national security 
missions. But, new asymmetrical threats call for a different kind of 
warfighter and different mission systems. We need to be smarter, 
lighter, more agile, and more lethal.
    The National Guard force structure does not stand alone unto 
itself, but rather represents a 38 percent slice of the total Army and 
approximately 34 percent of the total Air Force. As ongoing operations 
abroad reveal the need to rebalance the types of units in the Army and 
the Air Force, the Guard will be a leader in embracing this change. 
Likewise, if studies indicate that Army divisions or Air Force wings 
are no longer needed, it is our view that we, like the active component 
and reserves, must change. We are working closely with the Army as we 
move to a balanced, modular force. Similarly, through Vanguard, we are 
working with the Air Force to meet the aerospace needs of the future.
                            homeland defense
Here and Abroad for over 365 Years
    We are this country's longest lasting, longest serving military 
organization; we predate our nation. Today, the National Guard is ready 
to write a brand new page in its long and heroic history, and get the 
mission accomplished.
    When you call out the National Guard, you call out America's joint 
home team.
    The Guard was there when it was needed, demonstrating the flexible 
accessibility inherent in the unique multi-status roles of the Guard. 
Our Homeland Defense and Security roles mandate that we be capable of 
seamlessly operating in federal and state intergovernmental and 
interagency roles. September 11th and its aftermath are illustrative of 
the Guard's new operating environment and its unique flexibility to 
respond to our nation's needs.
    Within 24 hours of the attack on the World Trade Center, 8,500 New 
York Army and Air National Guardmembers were on the streets of New York 
in State Active Duty status. Within 72 hours of President Bush's 
request to the Governors, Guardmembers were assisting civil authorities 
in protecting U.S. airports (USC Title 32 status). As security of our 
skies became paramount after September 11th, the Air National Guard 
logged more than 30,000 incident free, fully armed combat air patrol 
missions (USC Title 10 status) over the United States.
    Congress funded the formation of joint Weapons of Mass Destruction 
Civil Support Teams within the National Guard beginning in 1999. These 
units were designed to provide direct assistance to civilian emergency 
responders in the event of a chemical, biological, nuclear or 
radiological attack upon the homeland. Few in numbers and still in 
their operational infancy in 2001, nevertheless it was one of these 
units--New York's 2nd Civil Support Team--that became the first 
organized unit of any military service or component to arrive on Ground 
Zero on the morning of September 11th, sampling the air to ensure that 
no biological or chemical contaminants were present.
    Since September 11th, National Guard Weapons of Mass Destruction 
Civil Support Teams operate daily in communities throughout the nation. 
They are in a unique position to provide emergency community response 
with full communications capability to the local, state and federal 
levels. Moreover, they are actively involved in planning and 
integration of Guard assets in local and state emergency plans.
    Currently, we have 32 fully certified Weapons of Mass Destruction 
Civil Support Teams. Congress recognized the urgent need to expand that 
number, and 23 teams are scheduled to stand up in the next four years, 
beginning with 12 this year alone. The Guard has initiated several 
dramatic new programs that will further increase and improve our 
Homeland Defense capability, while at the same time enhancing our 
ability as warfighters.
    We are actively pursuing the following initiatives:
  --Organizing 12 Enhanced Response Force Packages. These forces will 
        consist of a National Guard Civil Support Team, an enhanced 
        division medical company with a 150-person per hour 
        decontamination and treatment capability, an enhanced engineer 
        company with specialized search and recovery equipment, and a 
        task-trained combat unit capable of supporting law enforcement. 
        These force packages will meet a previously identified Northern 
        Command request for capabilities.
  --Expanding National Guard involvement in Ground-based Mid-course 
        Missile Defense, Cyber and Information Operations, Space, and 
        Intelligence Operations for both the Army and Air Guard. One 
        model we hope to emulate is the Guard's highly successful 
        experience in manning Nike missile batteries in the 1960s and 
        1970s. At that time, traditional and full-time Guardsmen served 
        together in units under State control, with self-activating 
        orders that automatically brought them into a Federal status 
        when the enemy attacked.
  --Creating National Guard Reaction Forces through dual missioning and 
        training of existing units. These units will be immediately 
        available to State and Federal governments and for Homeland 
        Security purposes. They are already forward deployed throughout 
        the United States. The units will retain full war fight and 
        homeland security capabilities. These forces will also meet a 
        previously identified Northern Command request for forces 
        requirement.
    We are expanding our interagency and intergovernmental efforts and 
look forward to increased cooperation between the National Guard, the 
states and the Departments of Homeland Security and Defense. We are 
participating in exercises and planning at state and local levels, and 
we have shared our Automated Exercise and Assessment System with them. 
We are working with the national emergency responder and management 
associations as well.
    The National Guard has a significant number of units capable of 
``dual-use''--that is to say, the combat skill sets in these units are 
directly applicable to peacetime domestic support operations. We have 
developed a force management model that will help us to ensure that 
sufficient appropriate forces, properly resourced are available to the 
Governors for State, Homeland Defense and support to Homeland Security 
missions.
    We will leverage the units, training and resources in our existing 
war fight capabilities to expand and enhance the roles we can perform 
in homeland security. We will make smarter use of force structure and 
make minor modifications to mission essential task lists to 
geometrically increase capabilities. We will provide homeland defense 
capabilities in force packages, built from standardized warfighting 
units. By doing this in our role as a state military force, we will 
raise the threshold at which commitment of federal military resources 
to non-warfighting tasks becomes necessary.
                  transformation for the 21st century
Relevant, Reliable, Ready and Accessible
    Transformation is a state of mind. It is about how we think, 
organize and approach the future. We are transforming our headquarters 
and our capabilities to shape our future. We reorganized the National 
Guard Bureau from three separate organizations into a joint 
organization effective July 1, 2003. We streamlined and flattened the 
organization, making it more efficient, capable, and aligned its staff 
functions and responsibilities with those of the Joint Staff and the 
combatant commanders.
    We have undertaken aggressive employer and family programs. The 
three-legged stool of the Guard and Reserve--Service member, family, 
and employer--is only as sturdy as the weakest leg. We are talking with 
the nation's major employers and the states are aggressively doing the 
same with employers in their area. Our family program was the model on 
which the entire Department of Defense program was based, and we 
continue to work to address the information, emotional and support 
needs of our families. To that end, I have authorized a position in 
each state to specifically deal with employer support.
    The State Adjutants General consolidated 162 State headquarters 
organizations into 54 doctrinally aligned Standing Joint Force 
Headquarters--creating, effective in October 2003, a single joint force 
headquarters in each state for all Army and Air Guard activities. This 
will ensure a rapid and coordinated response to any emergency, making 
the National Guard more versatile, relevant, and able to meet our 
national security challenges.
    Our joint team will become seamless with the other five services--
the Army, Navy, Air Force, Marine Corps, and the Coast Guard--and their 
reserve components as well. It will be capable of meeting active 
component requirements and serving as an integrator for active 
component and reserve component consequence management operations. 
Together with our sister services, we will fight and win this war on 
terrorism both here at home and abroad.
    Readiness is a product of resources and training. We must focus our 
training on the myriad missions we will be asked to perform, and we--
the National Guard Bureau--must obtain the resources necessary for the 
Soldiers and Airmen to accomplish the mission.
    Some of the changes contemplated will require the cooperation of 
Congress in amending existing law.
    Because of its increased relevance, the National Guard Bureau 
should be organized so that the senior officer of the Army and the Air 
National Guard of the United States on duty with the National Guard 
Bureau should become the Acting Chief if the office is vacant or if the 
Chief is absent or disabled. This change is necessary because of the 
elevation of the Directors of the Army and Air National Guard to 
Lieutenant General, without a concomitant promotion of the Vice Chief 
of the National Guard Bureau. Similarly, the Vice Chief of the National 
Guard Bureau should become the Director of the Joint Staff of the 
National Guard Bureau. This designation reflects the roles and 
functions of this individual within the National Guard Bureau's joint 
organization.
                               conclusion
    We are transforming the Guard in all domains--the way we fight, the 
way we do business, and the way we work with others--to provide the 
Guard America needs today and tomorrow.
    Training must produce enhanced readiness, immediate accessibility, 
and individual and unit capability to conduct operations at home and 
abroad.
    We have approached our transformation in an open, collegial manner, 
talking with all affected stakeholders including the Governors and 
working as a team--Adjutants General, National Guard Bureau, Army, Air 
Force, Office of the Secretary of Defense, the Joint Staff and others--
to do what is right for America.
    As we look forward to the new fiscal year, the National Guard is 
enthusiastically engaged in planning, programming, and executing the 
extraordinary changes that are ahead. We are evolving in ways that will 
allow us to accomplish our state and federal missions more efficiently 
than ever before, as we design mechanisms to seamlessly operate in the 
Defense Department, interagency, and intergovernmental environments.
    The National Guard will continue to defend our nation, both at home 
and abroad, in both its state and federal capacities, as it has for 367 
years. It will continue to serve as the reserve component without peer 
in the world. This is our birthright--it is the legacy of the 
Minuteman.
                                 ______
                                 
       Prepared Statement of Lieutenant General Roger C. Schultz
                                overview
    The Army National Guard stands with the Active Component as we wage 
war against the purveyors of global terrorism. Today, Soldiers in the 
Army National Guard have answered the call of the nation and are 
serving across the nation and the world. The Army National Guard, as an 
integral part of the U.S. Army, is transforming itself to better 
prosecute the Global War on Terrorism while remaining a ready and 
relevant force that is prepared to defend our homeland.
    The Posture Statement provides the Army National Guard an 
opportunity to share with Congress what we have done in the past year 
and where we are heading in the future. The Army Directorate in the 
National Guard Bureau is responsible for how the Army National Guard 
supports the Soldiers, their families, and their employers in 
communities throughout the United States. Our Soldiers come from every 
state, territory, and segment of society, and we recognize that we 
support and are supported by those around us. The Army National Guard 
is a community-based military organization and, as such, we are 
prepared to assist our cities and towns in times of natural or man-made 
disaster. Army National Guard Soldiers are Citizen-Soldiers, and we 
recognize that we must fulfill dual roles as ordinary citizens and as 
members of the Armed Forces of the United States.
    As the Army National Guard continues to protect our nation, the 
Chief, National Guard Bureau, has identified three priorities for the 
Army National Guard that will nurture this responsibility: Support the 
War Fight, Homeland Defense, and Transformation for the 21st Century. 
As our enemies seek ways to wage their war of terrorism in the United 
States and around the world, we are and must remain ready. The Army 
National Guard has proven itself capable of securing our borders while 
simultaneously carrying out a variety of missions across the globe. Our 
goals are to maximize our ability to support our Soldiers, protect our 
nation, and support the warfighters by providing a trained and ready 
force.
    It cannot be stressed enough that the Army National Guard has an 
increased and more vital role in the U.S. Army than ever before. The 
U.S. Army is at the forefront of the conflict in Afghanistan and Iraq. 
As Reserve Components of the Army continue to deploy at increasing 
rates, the Army National Guard joins the Army in its objectives to 
remain ready and relevant in the midst of a war where our enemy is 
elusive. We are transforming ourselves into a more flexible, 
responsive, and capabilities-based force that is able to seamlessly 
integrate into the larger Army. As the Army transforms itself from the 
Current Force to the Future Force, so will the Army National Guard.
    The Army National Guard is ready for every challenge both here at 
home and abroad. We are not and cannot be complacent. The support we 
receive from our citizens, families, employers, and legislatures is 
invaluable. Our Constitution charges us to defend America, and we will 
do this with the same dedication and steadfast purpose as we have done 
for nearly 400 years.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         support the war fight
The Guard Overseas
    Not since World War II have so many Soldiers been activated for 
wars. The Army National Guard demonstrated its responsiveness by 
providing ready units in support of numerous overseas missions 
throughout 2003. These missions ranged from combat operations to Post-
Hostility and Stability Operations. At the close of the year, 75,000 
National Guardsmen were on active duty serving overseas. The year began 
with our Soldiers fighting in Afghanistan and ended with Soldiers from 
the Vermont and Oklahoma National Guard training the Afghanistan 
National Army. There are just over 4,000 Soldiers in Afghanistan today. 
The war in Iraq required the activation of 69,380 Soldiers and there 
are just under 60,000 serving there today. The war in Iraq and in 
Afghanistan exacted a toll on our most precious resource, the Soldier. 
Understandably and regrettably there have been 60 Soldiers who have 
lost their lives fighting these two campaigns. The war in Iraq saw the 
activation of brigade size units, Attack Aviation Battalions, Combat 
Engineers, and Military Police. The Army has plans to schedule several 
more brigades and potentially a Division Headquarters for future 
rotations. Most Soldiers that were activated for the war served an 
average of 18 months, with 12 months of duty in Iraq. Related to the 
two overseas wars has been a demand on our Military Police units to 
guard the enemy Prisoners of War in Cuba. In addition to the direct 
role in the overseas wars, the National Guard remains the Army's 
primary force conducting operations in Kosovo, Bosnia, and the Sinai. 
Just under 6,000 National Guardsmen are there today. What were once 
active duty missions are now principally missions of the Guard.
    There are two other noteworthy events for the Guard's overseas 
duty. The Army National Guard was given the mission to protect ships in 
transit to the Persian Gulf, and we also provided 9,000 Soldiers to the 
Air Force to protect their bases abroad and at home. These unplanned 
missions simply demonstrate the accessibility, reliability, and 
capability of the National Guard. Our overseas presence today is 
supporting missions on five continents, and the future demands a level 
of commitment similar to previous years. Not since World War II has our 
call to duty been so great. It is important to note that our total 
commitment since 9/11 has been a call to federal duty for 175,734 
Soldiers. That represents just over 50 percent of our force of 350,000.
Readiness of the Force
    Well before the attacks of September 11th, Army National Guard 
units were being mobilized more frequently. The Total Force Policy in 
the Army worked. During the Cold War period of our Army, the 
expectation of readiness for the Reserve Components was to be 
``generally ready for war.'' There were plans with TPFDDs and windows 
of time for expected deployment. The plan was to move to an active duty 
installation and then provide units with additional equipment and extra 
training. Since 9/11, that level of readiness and window of time have 
changed. Today our units are required to deploy at the highest level of 
readiness, and the time from notification to deployment is sometimes a 
matter of hours. In 2003, our units did extensive exchanging of 
Soldiers and equipment as they prepared for war in Iraq. We 
demonstrated flexibility, but placed unnecessary hardships on our 
Soldiers in the process. Soldiers went to war with equipment they had 
not previously trained upon. Thousands went to war with units other 
than their own. This method of exchanging resources after a unit 
mobilizes is not conducive to long-term success. Units must be manned, 
trained, and equipped before they get the call to go to war. Train--
Mobilize--Deploy! The Army National Guard's level of readiness in the 
future should be C1, the highest level. The Army National Guard must 
modernize when the Army modernizes. We must raise the Full-Time Manning 
levels to 100 percent of Requirements. Our failure to resource Army 
National Guard units for any mission will place undue hardship on 
Soldiers as they go to war.
Medical and Dental Readiness
    The Army and the Army National Guard have a vested interest in the 
care of Soldiers. The Army requires physical fitness prior to deploying 
to a war. Today's deployment timelines are shorter, and there have been 
some delays in our ability to respond to war because of the medical 
readiness of our Soldiers. Most, but not all, Soldiers have medical and 
dental plans. There are limits on the Army's ability to fix medical 
shortcomings after the Soldier is mobilized for war. We have 
experienced medical backlogs at some of the Army's installations 
responsible for providing medical treatment.
    The future of medical readiness rests in providing complete medical 
evaluations prior to being alerted for war. We envision that each of 
our State's Joint Force Headquarters provide support in the initial 
care for Soldiers and refer Soldiers for medical support beyond their 
capacity.
    The National Guard plans to provide periodic physicals to its 
Soldiers. This will enable our units to transition faster from a state 
of peace to war. We also envision leveraging the medical capabilities 
of our communities to offset the shortages in military medical 
providers. Medical readiness and health care for our Soldiers are key 
variants to our ability to train, mobilize, and deploy in the fashion 
of a Minuteman.
Training Soldiers and Growing Leaders
    Supporting the Warfighter will be best accomplished by training the 
force with an integrated training strategy for individuals, leaders, 
and units through live, virtual, and constructive training.
    Throughout 2003, the Army National Guard prepared units and 
Soldiers for wars and responded to the nation's call for contingency 
operations. Our units trained at the Army National Guard Training 
Centers and the Army's Combat Training Centers. They participated in 
joint exercises and conducted training deployments overseas.
    The key to training Brigades is to have them participate in the 
Brigade Command and Battle Staff training. Five brigades participated 
in this training in 2003. Seven of the eight Army National Guard 
divisions participated in the Battle Command Training Program at the 
Joint Readiness Training Center at Fort Polk in Louisiana in 2003.
    The Army National Guard is committed to producing the best 
Soldiers. An excellent training venue is the Army National Guard 
training centers. These centers train Soldiers, simulate real-world 
conditions, and provide training enablers for the commanders.
    Another way the Army National Guard achieves training excellence is 
through Distributed Learning. The Army National Guard's emphasis on 
Distributed Learning reduces the time Soldiers are away from their home 
stations, eliminates excess travel time and costs, and takes less time 
than training in a formal school setting. The goal of this program is 
to maximize training time by providing more local access to training 
and education at any time and at any location.
    The Army National Guard's limited training time, training dollars, 
and sometimes access to training ranges has generated an increased 
reliance on low-cost, small-footprint training technologies. We have 
invested in a virtual training infrastructure to meet or exceed the 
Army's training requirements. As more missions such as homeland defense 
and weapons of mass destruction are required of the National Guard, the 
ability of our forces to respond requires that we are ready at all 
times. The following new virtual technologies are tools critical to 
achieving these readiness objectives:
  --Advanced Bradley Full Crew Interactive Skills Trainer.--The Bradley 
        Fighting Vehicle, an armored personnel carrier, is the primary 
        weapon system of the U.S. Army Mechanized Infantry, as well as 
        a critical system for the cavalry. The current force structure 
        plans have the Army National Guard providing more than half of 
        the U.S. military's Bradley Fighting Vehicle force. The Army 
        Infantry School approved the Advanced Bradley Full Crew 
        Interactive Skills Trainer as a precision gunnery trainer. This 
        is a low-cost, deployable training system that attaches 
        directly to the Bradley and therefore does not require a 
        simulated vehicle mockup, thereby better preparing the crew for 
        live fire gunnery.
  --Abrams Full Crew Interactive Skills Trainer.--The Army National 
        Guard provides 54 percent of the armor force in the U.S. 
        military. This equates to nearly 2,500 Abrams tanks with the 
        vast majority being the M1A1 configuration. The Abrams Full 
        Crew Interactive Skills Trainer is approved by U.S. Army Armor 
        School as a precision gunnery trainer. This, too, is a low-
        cost, deployable training system that attaches directly to the 
        Abrams tank and therefore does not require a simulated vehicle 
        mockup, thereby better preparing the crew for live fire 
        gunnery.
  --Simulations Network Rehost.--In the mid-1980s, the Defense Advanced 
        Research Projects Agency developed a new concept in simulation 
        training called the Network. The goal of this trainer is to 
        expose mounted combat forces to mock battles in an effort to 
        develop tactical maneuver skills and improve situation 
        awareness of commanders. This program provides a highly cost-
        effective means of providing basic tactical platoon-level 
        training capability to a highly dispersed force. The 
        Simulations Network units are platoon sets for the Abrams Main 
        Battle Tank and the Bradley Fighting Vehicles. The National 
        Guard's force structure accounts for approximately 50 percent 
        of these mounted combat forces.
  --Table Top Trainers (M1A1 and M2).--The Table Top Trainer program is 
        the linchpin of the National Guard's virtual training strategy. 
        The ammunition and operational tempo cost to train this fleet 
        exceeds $1 billion annually. The virtual training systems have 
        been introduced to offset costs that were even higher in 
        previous years. A single low-fidelity Table Top Trainer can be 
        reconfigured to supply 60 to 70 percent of the associated 
        skills training for Abrams Tanks, Bradley Fighting Vehicles, 
        and Stryker Light Armor Vehicles. The remaining skills tasks 
        can be trained in the available 25 percent training time in the 
        high-fidelity trainers or through live fire events.
Combat Training Centers and National Training Center
    In 2003, the Army National Guard sent over 28,000 Soldiers to 
participate in training at the Army's two Combat Training Centers. This 
training program cost $23 million but produced the most significant 
increase to training readiness for those units and Soldiers.
    North Carolina's 30th Brigade formed the core of a 34-unit, 15-
state task force comprising the 5,545 Army National Guard Soldiers who 
deployed to the National Training Center at Fort Irwin, California, in 
May and June 2003. This training rotation was the culminating exercise 
in an intensive four-year train-up. The North Carolina Joint Force 
Headquarters formed Task Force Tar Heel that served as the division 
headquarters throughout the train-up and at the National Training 
Center. The 30th and North Carolina's Joint Force Headquarters executed 
wartime mobilization tasks by deploying the entire task force's 
equipment and personnel from facilities across the country to Fort 
Irwin's desert environment.
    During 2003, additional Engineer, Field Artillery, and Infantry 
units representing 3,732 Soldiers deployed to the National Training 
Center in support of Active Component rotations. These units served 
both as friendly and opposing force units integrated side by side with 
their active military counterparts. An additional 1,123 Soldiers 
assigned to Direct Support and General Support Maintenance Companies 
were sent to Fort Irwin to supplement maintenance and reconstitution 
operations.
Joint Readiness Training Center
    In 2003, the majority of Florida's 53rd Brigade was mobilized and 
deployed to Iraq. In preparation for this mission, they underwent 
training at the Joint Readiness Training Center. While there, they 
supported the training of the 10th Mountain Division, 7th Special 
Forces Group, and the 3rd Brigade (Stryker), 2nd Infantry Division.
Combined Arms Center
    Through the Army National Guard's Battle Command Training Center, 
the U.S. Army's Combined Arms Center at Fort Leavenworth, Kansas, 
supported the 29th Infantry Division and 49th Armored Division during 
their Battle Command Training Program rotation in 2003. The training 
center also conducted twelve Brigade Command and Battle Staff Training 
Program seminars. Over 15,500 Army National Guard Soldiers participated 
in these training events.
Force-on-Force Training
    The Army National Guard Force-on-Force Training Program supports 
the readiness of the National Guard's ground combat units. This program 
simulates battles that are fought using laser-targeting systems to 
replicate live ammunition. Some 2,080 Soldiers from Army National Guard 
divisions participated in Force-on-Force events in 2003.
    In 2003, Army National Guard brigades participated in Battle 
Command Training Program staff exchanges, train-up exercises at the 
Combat Training Centers, and gunnery and divisional artillery training. 
A total of 30,034 Army National Guard Soldiers, 8 percent of the Army 
National Guard's endstrength, conducted training at or in association 
with the Army's training facilities at a cost of approximately $26 
million. The payoff of this relationship is obvious. Three of these 
brigades, the 30th, the 39th, and the 81st were directed to prepare for 
war in Iraq. They will deploy there early in 2004.
Recruiting and Retention
    The Army National Guard ended 2003 with 1,091 Soldiers above its 
endstrength goal of 350,000, a result of surpassing retention goals and 
retaining quality Soldiers. Despite the unprecedented challenges at 
home and abroad, the Army National Guard validated the three-tenet 
Strength Maintenance philosophy of recruiting, attrition management, 
and retention. The ``Oath to Expiration of Term of Service'' philosophy 
has helped to create a partnership with the units by building greater 
trust and cooperation between the recruiting force, the full-time 
support force, and unit leadership. The Army National Guard has 
developed numerous tools to ensure continued success:
  --Highly successful advertising campaigns and recruiting initiatives 
        that integrate the recruiting and retention force with 
        traditional unit members.
  --Dynamic recruiting and retention programs to highlight the 
        relevance, features, and benefits of Army National Guard 
        service to current and potential Soldiers.
  --Soldier and family member feedback programs that assess unit 
        environments and determine Soldier motivations for joining and 
        remaining in the Army National Guard.
  --Post-mobilization surveys and retention initiatives to facilitate 
        the re-integration of the unit and its members following 
        deployment.
  --Post-mobilization ``Freedom Salute'' campaign to recognize Soldier, 
        family member, and employer support of extensive overseas 
        deployments.
  --Development of Recruit Sustainment Programs to better prepare new 
        Soldiers for initial active duty training and promote unit 
        strength readiness.
  --Attrition management/retention programs to educate leaders on 
        caring for and mentoring Soldiers in the high operations tempo 
        environment of the Global War on Terror.
  --Resource allocation that optimizes the effectiveness of the 
        Strength Maintenance Philosophy and the teaming of the 
        Recruiting and Retention Force and traditional Army National 
        Guard Soldiers.

    ----------------------------------------------------------------

                  Selected Reserve Incentives Program
    Up to $8,000 Enlistment Bonus for Non-Prior Service enlistees
  --$3,000 for critical skill
  --$3,000 for non-prior service bonus
  --$2,000 for Off-Peak ship to training
    $3,000 Civilian Acquired Skills Program for NPS enlistees
    $2,500 for a first 3-Year Re-enlistment/Extension Bonus
    $2,000 for a second 3-Year Re-enlistment/Extension Bonus
    $2,500 for a first 3-year prior service Enlistment Bonus
    $2,000 for a second 3-year prior service Enlistment Bonus
    $50 per month for Affiliation Bonus (72-month maximum)
    $10,000 Student Loan Repayment Program
    $50,000 Health Professional Loan Repayment Program

    ----------------------------------------------------------------

    Army National Guard Incentive Programs are currently undergoing 
review by program managers for potential adjustments to both the 
monetary amounts and the payment schedules of the various incentives. 
We believe these improvements are necessary to compensate our Soldiers, 
who are contributing to our nation's defense and deploying overseas on 
a continuous rotational basis. Our goal is to retain our Soldiers when 
they return.
Army National Guard Full-Time Support
    Dedicated men and women who provide Full-Time Support to Army 
National Guard Soldiers are a critical part of the Army National Guard. 
They enhance readiness by assisting Unit Commanders in managing day-to-
day requirements. In recent years, the Army National Guard has begun to 
expand its Full-Time Support force in order to better serve its 
Soldiers and the units to which they are assigned. To meet readiness 
requirements, the Chief of the National Guard Bureau, in concert with 
the state Adjutants General, has placed increasing Full-Time Support 
authorizations as one of the top priorities for the Army National 
Guard.
    The National Guard Bureau will place new Full-Time Support manpower 
into our units or into positions that directly impact unit readiness. 
An example is the Military Technicians that will be directly placed 
into organizational maintenance shops. Junior enlisted grades will 
increase through fiscal year 2012 and will be applied to the unit level 
to accomplish many of the missions where it is not uncommon to find 
single Active Guard Reserve Soldiers working today.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Army National Guard Well-Being
    The Army National Guard Well-Being Team works in concert with the 
Active Army and the Reserve as part of a holistic initiative to address 
various issues affecting Soldiers, families, retirees, veterans, and 
civilians. The initiative uses various methods to measure success, 
weakness, or failure in programs that affect the total Army force. 
Based on the outcomes of these measures, policies and programs are 
modified or assets are re-allocated to impact the total Army force.
Diversity Initiatives and Equal Opportunity
    The Army National Guard Diversity Initiatives Team addresses 
demographic realities impacting the Army National Guard as a community-
based force. The role of women in American society continues to evolve. 
More positions in the Army National Guard are open to women based on 
changes in force structure. With the rapid advance in technology and 
changes in society, diversity also hinges on generational, technical, 
and cultural differences.
    The Army National Guard Equal Opportunity Team proactively 
addresses team development and cultural exchanges to foster more 
productive units and Soldiers. Fundamental to the mission of the Army 
National Guard, the Equal Opportunity Office addresses issues that 
arise relating to race, color, gender, sexual harassment, national 
origin, and religion. The Army National Guard is steadfast in 
maintaining zero tolerance for all forms and types of discrimination. 
The Army National Guard will guarantee that all are treated with 
dignity and respect.
                            homeland defense
Domestic Operations
    In 2003, the Army National Guard provided 419,463 mandays in 42 
states, two territories, and the District of Columbia to state-level 
emergency support missions. The year began with Tropical Storm Lilli 
along the Gulf Coast that required 9,835 mandays for cleanup and 
security. Super-typhoon Pongsona hit Guam and required 18,822 mandays 
to provide traffic control, water, debris removal, and security.
    The Army National Guard provided 318,131 mandays to Key Asset 
Protection, the most significant category of Emergency Support 
Missions. The Space Shuttle Columbia disaster demonstrated how quickly 
the National Guard responds from a ``standing start.'' On the day of 
the disaster, thousands of Army National Guard Soldiers from five 
states were on duty, recovering and safeguarding debris. This mission 
required 18,816 mandays of support.
    The Army National Guard also provided support to special events, 
including assistance to law enforcement for the Super Bowl and the 
Kentucky Derby. Support to governors in response to Hurricane Isabel 
ended a busy year.
    The Army National Guard routinely performs training missions that 
simultaneously support and assist our communities. The Innovative 
Readiness Training Program required 205,000 mandays of support in 2003. 
Programs included improving schools and parks, building and repairing 
roads, administering immunizations, and providing medical care to 
under-served areas.
    The California Army National Guard is leading an effort to 
construct access roads to the United States-Mexican border to assist 
the Border Patrol in dealing with the growing tide of illegal 
immigrants and narcotics. In Alaska, the Guard is leading a five-year 
project that will result in a 15-mile road connecting two villages on 
Annette Island, a trip that currently can only be made by boat. The 
Army National Guard in Maine, Colorado, Arizona, Illinois, North 
Carolina, Texas, and Alaska conducted medical training exercises to 
provide inoculations, physician contacts, dental care, and optometrist 
services to under-served populations. Innovative Readiness Training 
projects benefit both the Army National Guard and the communities.
Missile Defense
    Defense against ballistic missile attack is a key component of the 
National Security Strategy in providing for Homeland Security. The 
National Guard will play a major role in this mission as the force 
provider for the Ground-based Midcourse Defense system in the initial 
defensive operations/defensive operations phase per National Security 
Presidential Directive 23, dated December 16, 2002.
    The National Guard received an increase of 100 in Active Guard and 
Reserve authorizations in the fiscal year 2004 President's Budget 
request to support this mission. Ground-based Midcourse Missile Defense 
is a critical element of the Administration's National Security 
Strategy and defense of the homeland. This program is continually 
evolving and undergoing refinement.
Continuity of Operations
    The National Guard's Continuity of Operations Program was 
conceptualized in 1988 and took on added importance after September 11, 
2001. In support of homeland defense, the Guard is utilizing this 
program as a means to ensure continuous command and control in case of 
emergency.
    Executive orders, Department of Defense directives, Chairman of the 
Joint Chiefs of Staff directives, and Army Regulations require a 
Continuity of Operations Program. This protects key leaders; allows for 
the continuity of essential missions; provides for relocation sites; 
protects vital records and operating files; and ensures survivability, 
recoverability, and the ability to reconstitute. The National Guard has 
taken a three-level approach to achieving this end:
  --The first level is the Headquarters Department of the Army 
        Continuity of Operations Program that provides the active 
        component with the Army National Guard leadership to support 
        the War fight.
  --The second level is the National Guard Continuity of Operations 
        Program that allows both the Army National Guard and the Air 
        National Guard to continue supporting the states and 
        territories in the event of a national disaster.
  --Finally, the National Guard is also providing the platform for the 
        54 states, territories, and the District of Columbia to develop 
        their own Continuity of Operations Program initiatives to 
        support both homeland defense and the War fight at the state 
        and local level.
    The National Guard plans to exercise the Continuity of Operations 
Program at all three levels to ensure readiness and preparedness for 
any situation. Ultimately, Continuity of Operations Programs will 
ensure that no matter the situation, the National Guard will be ready 
to continue its essential missions.
                  transformation for the 21st century
    The Army National Guard is changing. Although our forces continue 
to meet today's missions, tomorrow's force must be more versatile, 
ready, and accessible than ever before. They must continue to be 
capable of full-spectrum operations, but must be better equipped and 
trained to defend the nation. Future Army National Guard forces must be 
more interoperable with the Active Component and must be fully capable 
of operating in a joint or interagency environment. Finally, Guard 
forces must be postured to support long-term Stability and Support 
Operations, Peacekeeping Operations, and the missions of the newest 
Combatant Command, NORTHCOM.
    In order to achieve these objectives, the Army National Guard must 
attract and retain quality Soldiers. We must train and equip them to 
accomplish the missions of tomorrow.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Force Balance and Restructure
    The Department of the Army is revising priorities to better support 
the National Military Strategy. Under the direction of the Secretary of 
Defense, the Army is exchanging some formations from the Active 
Component and the National Guard. These realignments will better align 
the Army National Guard and the Army in supporting the warfighting and 
Homeland Defense missions.
    Another significant aspect of this force balance analysis is an 
initiative by the Director of the Army National Guard to reduce the 
Army National Guard's force structure with its congressionally 
authorized personnel endstrength. This rebalancing effort will enable 
the Army National Guard to deploy units within five to 30 days because 
their readiness will be improved.
    The results of force balance adjustments, coupled with the 
alignment of force structure and personnel endstrength, will allow the 
Army National Guard to provide divisions, brigade combat teams, and 
supporting forces that are ready and capable of supporting the full 
spectrum of military operations required by the National Military 
Strategy.
High Demand Units
    Since 1995, the Army has placed a high demand on the Military 
Police in the National Guard. Beginning with missions to the Balkans, 
the rate of work for these units has only increased. Today they are 
used extensively in the Global War on Terrorism, principally in 
guarding prisoners. To reduce the stress on Military Police units, we 
have started to convert Field Artillery units into Military Police. 
Eighteen additional Military Police units will be organized in the next 
two years.
Modular Units
    The Chief of Staff, Army, has directed a comprehensive reevaluation 
of the Army's corps, divisions, and brigade structures with the intent 
of making these units more expeditionary through modular design. 
Modular units will allow for a ``plug and play'' capability, which will 
enable the Army to provide the flexible mix of capabilities needed by 
the warfighter. The Army National Guard will adapt existing force 
structure to the new design envisioned by the leadership of the Army. 
Over the next few years, we will reconfigure existing brigades, 
including the 15 enhanced Separate Brigades, to the new Brigade Combat 
Team design. We will have 34 Brigade Combat Teams and 8 Divisional 
Headquarters that will be designed in an infantry and armored mix 
identical to the Active Component's. This modular capability will 
provide a new level of flexibility to our organizations as they support 
the full spectrum of military operations. Distribution of new 
capabilities will be equitable across the states.

    ----------------------------------------------------------------

Fiscal Year 2005 Army National Guard Equipment Modernization Shortfall 
                                  List
    High-Mobility Multi-Purpose Wheeled Vehicles (HMMWV)
    Single-Channel Ground and Airborne Radios (SINC-GARS)
    Night Vision devices
    Black Hawk utility helicopter
    Heavy Expanded Mobility Tactical Trucks (HEMTT)
    Small Arms
    Family of Medium Tactical Vehicles (FMTV)
    Javelin Anti-Armor Missiles
    Thermal Crew-Served Weapon Sight
    Movement Tracking System
    Enhanced Position Location Reporting System (EPLRS)
    Warlock Electronic Jamming Device
    Tactical Unmanned Air Vehicle (TUAV)
    M-22 Automatic Chemical Detector Alarm
    Prophet Signal Intelligence System
    Line Haul Tractor (M915A3)
    22\1/2\-ton Trailer (M871A3)
    Dump Truck (M917A1)
    34-ton Trailer (M872A4)
    Tactical Quiet Generators
    Secure Mobile Anti-Jam Reliable Tactical Terminal (SMART-T)
    Sentinel air defense radar system
    Howitzer (LW 155)
    Bradley Infantry Fighting Vehicle (M2A2)
    Hercules (M88A2 [heavy tank recovery vehicle])

    ----------------------------------------------------------------

Force Modernization
    The Army's highest priority remains maintaining warfighting 
readiness. In support of this priority, the Army National Guard is 
pursuing a modernization strategy that will provide the nation with 
compatible, interoperable, and strategically relevant forces well into 
the future.
    In the near term, we will ensure our Soldiers are equipped with 
essential force protection items such as the latest body armor with 
Small Arms Protective Insert plates for the outer tactical vests, the 
latest Night Vision Devices, and small arms. To enhance near-term 
readiness, the Army National Guard will focus on Army procurement of 
the Black Hawk utility helicopter, High-Mobility Multi-Purpose Wheeled 
Vehicles, Single-Channel Ground and Airborne Radios, Family of Medium 
Tactical Vehicles, and M-22 Automatic Chemical Detector Alarm.
    In the midterm, the Army National Guard will ensure the Army 
earmarks sufficient funding to refurbish or recapitalize its current 
forces to ensure fleets viability over the next several decades and for 
future readiness and relevance. The Army National Guard will focus on 
Current Force systems to include our primary aircraft, the Black Hawk, 
CH-47 Chinook, and the Apache; the M1A1 Abrams Main Battle Tank; M2A2 
Bradley Fighting Vehicle; M109A6 Paladin Howitzer; Heavy Expanded 
Mobility Tactical Trucks; and the 5-ton truck fleet. The Army National 
Guard will continue working with the Army to ensure program managers 
bring systems cascaded to the Army National Guard's Divisional and 
Corps troop units up to the required standard.
Army National Guard Aviation Modernization & Transformation
    Throughout 2003, the focus of the Army National Guard aviation 
modernization and transformation efforts was directed toward completion 
of sweeping changes to unit organizational designs. Accompanying these 
widespread conversions to the Army Aviation Transformation designs was 
the continued turn-in of obsolete UH-1H/V ``Huey'' (Iroquois) and OH-
58A/C Kiowa series aircraft, and the fielding of the additional modern 
UH-60A/L Black Hawk and AH-64A/D Apache series aircraft. Unfortunately, 
while the Army National Guard net inventory of modernized aircraft 
increased by 8 Black Hawk and 17 Apache aircraft during fiscal year 
2003, the resulting Army National Guard levels for these aircraft did 
not meet Army goals. In addition, most of the supporting or corrective 
actions scheduled and funded for 2003, such as increased quantities of 
special tools and spare parts, were effectively negated by the 
increased requirements for contingency operations in Afghanistan and 
Iraq. Based upon current projections, it is uncertain whether the 
originally scheduled fiscal year 2002 figures for the Black Hawk and 
Apache inventory in the Army National Guard will be reached by end of 
fiscal year 2004. Army fixed-wing aviation modernization efforts are 
underway to replace the Army National Guard's C-23 Sherpa cargo 
aircraft with a more robust and capable airplane.
Information Operations
    Army National Guard Information Operations Field Support Teams 
assist the Brigade, Division, Corps, Joint Task Force, and Combatant 
Commanders in integrating full-spectrum offensive and defensive 
information operations, planning, execution, and assessment into their 
operations. Additionally, Army National Guard full-spectrum Information 
Operation Vulnerability Assessment Teams, Computer Emergency Response 
Teams, and Joint Web Risk Assessment Cells contribute to national and 
homeland security through the protection of information infrastructure. 
The teams deploy domestically and globally to provide their specialized 
service to the Combatant Commanders.
    In fiscal year 2003, the Army National Guard's Information 
Operations program continued to develop technically and tactically 
focused units that supported the warfighting commanders and provided 
protection of the nation's critical information infrastructure across 
the operational continuum. During the same period, the Army National 
Guard Information Operations section for the Pennsylvania Guard's 28th 
Infantry Division and Minnesota's 34th Infantry Division deployed in 
support of peacekeeping operations in Bosnia and Kosovo. Seven 
Information Operations Field Support Teams and one Computer Emergency 
Response Team were mobilized in support of Operation Iraqi Freedom. The 
Army National Guard Information Operations program also provided 
operational support to all major commands and several Army divisions.
    This program has trained over 2,400 Reserve and Active Component 
Soldiers since fiscal year 2000. The program is scheduled to expand its 
training capability, doubling its capacity in fiscal year 2004.
Logistics and Equipment
    The Army National Guard is deployed all over the world in support 
of the Global War on Terrorism and operations taking place in 
Afghanistan and Iraq. Army National Guard personnel, in many cases, 
train on and use older generation equipment to help support these 
critical operations. This equipment is far behind the current 
technologies, making much of what is used by the National Guard 
incompatible with current Army equipment. And in many cases this older 
equipment is more expensive to operate and maintain. An additional 
challenge is that operational costs of older equipment are higher than 
the new versions due to increased failure rates and decreased 
availability of spare parts.
    The Army National Guard has faced modernization challenges in 
previous years for such systems as the High-Mobility Multi-Purpose 
Wheeled Vehicles, Single-Channel Ground and Airborne Radios, chemical 
and biological detection equipment, and Night Vision Devices. Many of 
these challenges have had an adverse impact on units preparing for 
overseas deployment.
    The Army National Guard is making significant progress in 
modernizing its heavy force and bridging its equipment to the digital 
force. Emerging technologies will dramatically lower the logistics 
impacts of these systems and substantially reduce repair times, 
increase operational readiness rates, and eliminate obsolete and 
unsustainable test equipment. This will allow the Army National Guard 
to operate its heavy equipment at a higher operational rate while 
reducing the overall costs for these systems.

    ----------------------------------------------------------------

     Equipment Modernization Challenges in the Army National Guard
    High-Mobility Multi-Purpose Wheeled Vehicles
    Single-Channel Ground and Airborne Radios
    Chemical and biological detection equipment
    Night Vision Devices

    ----------------------------------------------------------------

    The Army National Guard currently has a significant portion of the 
Army's maintenance infrastructure. This Cold War vestige is too 
expensive and redundant. Under the Army's new maintenance strategy, the 
Guard and other Army elements are transforming their maintenance 
capabilities from a four-level system to a two-level system. This two-
level maintenance system will cut redundancy in the system and allow 
Army maintenance personnel to more efficiently diagnose and maintain 
equipment at the forward level.
    Another focus area for the Army National Guard is the agility and 
flexibility provided as a full partner in the Army Acquisition 
Community. Whether it is grooming expert contingency contracting 
personnel, facilitating Rapid Fielding activities, and/or participating 
in major Army Program/Project Executive Offices, Army National Guard 
Acquisition professionals are engaged in depth. The Army National Guard 
is aggressively analyzing the task organization of Contingency Support 
Contracting Teams. The members of these teams, task-organized from the 
existing Modified Table of Organization and Equipment structure, are 
identified and trained in advance to support specific deployment 
requirements, giving deploying commanders the flexibility necessary to 
accomplish their missions without relying on supporting unit 
assistance.
Environmental Programs
    Training the best force in the world requires the world's best 
training areas. The Army National Guard's environmental programs 
support the war-fighter and homeland defense by sustaining healthy 
training lands. By reducing training restrictions, the Army National 
Guard is able to be a good steward of the land it uses, while operating 
top training facilities. The first Army Compatible Use Buffer under 
Title 10, U.S. Code 2684A was recently implemented at Camp Blanding, 
Florida. Within the designated buffer, and in collaboration with other 
agencies, the National Guard has formed land-use agreements to ensure 
land-use is compatible with military operations.
    In addition, Integrated Natural Resource Management Plans will now 
be used in lieu of critical habitat designation to ensure training 
lands will continue to be used for training while simultaneously 
protecting habitat. Also, the Army National Guard has instituted 
restoration programs to clean and restore contaminated sites. 
Initiatives at seven sites were recently completed and efforts at five 
additional sites will be conducted through fiscal year 2005.
    The Army National Guard is also improving its business practices as 
they relate to the environment. Environmental program management will 
be improved through the implementation of mission-focused Environmental 
Management Systems. The Army National Guard will change its 
environmental program from one of compliance to one that is proactive 
and oriented toward the strategic goal of sustainable installations. 
This will enhance the ability of warfighting units while minimizing 
environmental impacts. Our organization is utilizing tools such as the 
Environmental Performance Assessment System's Compliance Site 
Inventory, a web-based module that allows environmental managers to 
track, manage, and query a wide array of compliance data. Recent 
program developments include a series of protocols to assess the 
progress of the Environmental Management Systems.
    A top priority for the Army National Guard is preparation for 
fiscal year 2005 base realignment and closure actions and the effect 
these will have on the environment. The Army National Guard expects to 
have a complete inventory of training lands by 2006 through its 
Geographic Information System program. These technologies are critical 
to the battlefield intelligence component of transformation.
Part of the Joint Force
    During the past year, the Chief of the National Guard Bureau 
directed the most profound organizational change to the National Guard 
since the end of World War II. The heart of this transformation effort 
was to combine the separate Army and Air National Guard Headquarters 
that existed in each state and territory into a Joint Force 
Headquarters, State. The vision was to make the National Guard more 
responsive to regional Combatant Commanders and better enable the Guard 
to defend the nation as part of the Joint Team.
    The Army National Guard is capable of fighting as part of the Joint 
Team. Today, operations in both peace and war are conducted by Joint 
Forces. Army National Guard leaders must be trained and capable of 
operating in a joint environment.
    To ensure that its leaders are capable of this, the Army National 
Guard is developing the means to expose them to joint operations at 
various stages in their careers, and facilitate the opportunity for 
them to receive Joint Professional Military Education. These 
opportunities and experiences with the realities of joint operations 
will better assure prepared leadership in the Army National Guard.
Predictability for Our Soldiers
    The National Guard has manned units from local communities since 
the first muster in the Massachusetts Bay Colony in 1636. The National 
Guard is a community-based force where a Soldier may spend an entire 
career in the same battalion, company, battery, or troop. This provides 
for unit cohesion, stability, continuity, and the bonds of camaraderie 
that come from shared hardships and experiences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although we remain a ``Minuteman'' force, predictability is an 
important factor in retaining our Citizen-Soldier. Since 1996, our 
force has been consistently called to federal active duty. Our Soldiers 
have and will continue to muster for any mission in the fine tradition 
of the National Guard. However, the Global War on Terrorism is 
projected to last several years. Feedback from the Soldiers, their 
families, and their employers is consistent: they simply wish to know 
when they are needed and for how long. Soldiers are asking for 
predictability. When possible, mobilizations and deployments should be 
forecasted in advance, potentially years ahead of a unit's deployment. 
The Army National Guard is working towards instituting a Predictable 
Deployment Cycle that will provide units a forecast on overseas 
deployments. This predictable cycle looks at using a unit only one time 
in a six-year period. This is a benchmark. While the National Guard 
stands ready for any mission at any time, this concept will help 
alleviate the magnitude of the unknown.
Home Station Mobilization
    Home Station Mobilization is a National Guard initiative that 
empowers the Joint Force Headquarters, State, with greater 
responsibilities for the mobilization of units deploying to war. The 
Joint Force Headquarters, State, assume responsibility for all 
mobilization processing activities that are currently done at active 
duty installations. This expedites the mobilization of the National 
Guard and their employment into theaters of operation. Improved 
efficiencies in mobilization allow the Army to maximize the operational 
capability of the force. Three units successfully conducted Home 
Station Mobilization and demobilization in fiscal year 2003.
Strategic Readiness System
    The Army National Guard implemented the Strategic Readiness System 
in 2003 to more accurately capture unit readiness. This is an 
integrated strategic management and measurement system that ensures 
that all levels of the Army recognize and align their operations to the 
vision, objectives, and initiatives of the Army Plan. It measures each 
element's success in achieving these goals. The Strategic Readiness 
System has assisted Army transformation by changing the way the Army 
National Guard approaches and reports readiness data.
Personnel and Human Resources
    Continuing Army National Guard participation in the Department of 
Defense Personnel Transformation includes immediate movement towards 
the implementation of the Defense Integrated Military Human Resources 
System during 2005-2006. This human resource system aligns the Army 
National Guard with a Defense vision and goal of a Joint Service 
integrated personnel and pay system. It will provide support throughout 
the life cycle of a service member's career. Development and 
implementation are proceeding under the direction of the Under 
Secretary of Defense for Personnel and Readiness in coordination with 
all services and components. This human resource system will streamline 
the Guardsman transition from a non-federal to federal active duty 
status.
    The Army National Guard's Permanent Electronic Records Management 
System is a web-based system utilizing digital imagery to store and 
retrieve personnel records. Its importance lies in its seamless records 
management capability throughout the Army, enhancing both mobilization 
and personnel readiness.
    By consolidating the administrative operation of human resources in 
one place, the Permanent Electronic Records Management System allows 
personnel records to follow a Soldier regardless of component. Army 
National Guard enlisted records, currently in hard copy, will be 
converted to an electronic form in fiscal years 2004 and 2005. It will 
also adopt an Automated Selection Board System to support and improve 
the process under which information and votes regarding personnel 
actions are processed by military personnel boards.
    Moving from a paper system to a digital system is a time-consuming 
process. However, once the Automated Selection Board System is adopted, 
it will save the Army National Guard more than $150,000 per year in 
microfiche production and postage costs. This system is essential to 
achieve and fully support Personnel Transformation and programmed for 
fielding in fiscal year 2005.
                               conclusion
    The Army National Guard remains a unique capability with its State 
and Federal mission. As a community-based force, we are entrusted with 
the responsibility to protect our citizens' liberties and our nation's 
freedoms. Army National Guardsmen have a warrior's ethos and a loyalty 
to respond to any Governor or Presidential call to duty.
    Our Soldiers have been called upon more than ever to provide 
security to our nation. We are a ready and relevant force, but we will 
continue to raise our readiness level to C1, the highest level. We are 
committed to obtain the necessary resources in the areas of 
modernization, training, and equipping. Our Soldiers will not reach 
their fullest potential readiness with outdated equipment, limited 
health care, and unpredictable deployment cycles. In all areas, 
however, we remain dedicated to using our resources efficiently and 
prudently.
    The Army National Guard continues its transformation into a leaner, 
more agile and ready force. As the Army National Guard continues to 
operate in concert with the U.S. Army, it will fight wars and ensure 
the safety and well-being of the American people.
                                 ______
                                 
       Prepared Statement of Lieutenant General Daniel James, III
                                overview
    What an incredible year this has been for the nation and the Air 
National Guard. We've continued to make great strides in securing peace 
for the nation in the Global War on Terrorism. We have validated 
everything we've said about our capabilities: we train to fight and can 
accomplish the mission professionally and, most importantly, bring the 
will of the American people to the conflict.
    Our contributions over the past two years and specifically in 
Operation Iraqi Freedom have been tremendous. Since September 11th, 
we've mobilized over 36,000 members and have flown over 111,000 sorties 
for over 340,000 hours. One-third of the Air Force aircraft in 
Operation Iraqi Freedom was from the Air Guard. We flew 100 percent of 
the Operation Enduring Freedom A-10 missions and 66 percent of the 
Iraqi Freedom A-10 taskings. We accomplished 45 percent of the F-16 
taskings. The A-10s flew more combat missions in the Iraqi war than any 
other weapon system. Thanks to our innovative culture, we modernized A-
10 and F-16 Block 52 aircraft with LITENING II targeting pods in just 
three months, giving them precision guided munitions capability. 
Because of this capability, we were 100 percent successful in stopping 
SCUD missile launches in the Western Iraqi desert.
    We flew 86 percent of the Operation Iraqi Freedom tanker sorties. 
We accomplished this primarily through the Northeast Tanker Task Force 
which was operating within 24 hours of initial call from Air Mobility 
Command. In line with our militia spirit, that task force was initially 
manned through volunteerism. A total of 18 units supported it; 15 were 
from the Air Guard.
    Iraqi Freedom was also the first employment of the integrated 116th 
Air Control Wing flying with the Joint Surveillance and Target Attack 
Radar System (JSTARS). Wing leadership and the Guard and Active crews 
worked together superbly. While there is still work to do to fix some 
administrative issues, we have validated the concept of blended or 
integrated units.
    Our Expeditionary Combat Support has been providing outstanding 
service to the warfighter. Air National Guard maintenance quickly 
rewired our A-10s and F-16s with LITENING II in minimum time. They've 
kept our aircraft flying despite the challenging operating conditions.
    Security Forces personnel were mobilized for two years and have 
provided an incredible service. It was Air National Guard Security 
Forces that were the first Security Forces on the ground in Iraq. 
Intelligence personnel have been providing unique capabilities for 
Central Command and organizational support for the U-2, Predator, and 
Global Hawk. Medical personnel have been utilizing the new 
Expeditionary Medical Service capability, providing critical care to 
the warfighter. Civil Engineers built bare bases out of the desert and 
trained Iraqi firefighters while Weather personnel worldwide provided 
over 50 percent of the Army's weather support. Financial Management 
personnel have been diligently working to keep benefits flowing to our 
members despite complex systems. Air National Guard Command, Control, 
Communications and Computer personnel have kept vital information 
flowing on one end of the spectrum and provided Ground Theater Air 
Control System Personnel on the other. Our chaplains, too, have been 
providing outstanding spiritual aid out in the field. We have been able 
to participate at these levels because we provide Expeditionary and 
Homeland Defense capabilities that are relevant to the nation.
    Today as we look toward our future relevancy, as indispensable and 
equal Total Force partners, we have to be prepared to transform with 
the Total Force. We are now in a position to make the decisions that 
will influence our next evolution--transforming the Air National Guard. 
We are fully committed to the transformation of the National Guard 
Bureau and Joint State Headquarters.
    Some of today's capabilities may not be required in the future. The 
future Air Force will rely heavily on technological advances in space, 
command and control, intelligence and reconnaissance systems, 
information warfare, unmanned aerial vehicles, and the ability to 
conduct high volume and highly accurate attacks with significantly 
fewer platforms. For the Air Guard to remain Total Force partners, we 
have carved out our own strategy in those areas and will explore new 
organizational constructs. Among those constructs are various forms of 
integrated units where we can combine individual units with other Air 
Guard units or with another service component. We have to expand our 
capabilities as joint warfighters and make the necessary changes to 
integrate seamlessly into the joint warfighting force. To remain 
relevant we must continue to listen to the messages that are being sent 
today.
    The ``VANGUARD'' Engagement Strategy is our vision for transforming 
the Air National Guard to remain ``out in front'' as the Department of 
Defense addresses current realities and plans for an uncertain future. 
Our Air National Guard of tomorrow will be molded by our 
transformational approach and actions of today. The Engagement Strategy 
highlights several Transformation Focus Areas where we can concentrate 
our continuing transformational efforts.
    We must continue to lean on the strengths of our people, core 
values, core competencies, community connections and unique culture 
while participating in Air Force and Department of Defense 
Transformation, Jointness and Capabilities-Based Relevance.
    Now is the time for us to lead the way by considering, selecting 
and implementing new concepts and missions that leverage our unique 
strengths to improve Total Force capabilities in support of 
Expeditionary roles and defense of the homeland. This can only be 
accomplished by involving all Air National Guard stakeholders, working 
toward a common goal--enhanced future relevance for the entire Air 
National Guard. Vanguard seeks the optimum synergy resulting from 
melding the right concepts and missions at the right times and places 
for the right reasons without jeopardizing our core values and historic 
traditional militia heritage and culture.
    By together addressing the complex issues that face us, we will 
keep the Air National Guard ``Ready, Reliable, Relevant--Needed Now and 
in the Future.''
                         support the war fight
    In the continuing tradition of the Citizen-Airmen, members of the 
Air National Guard have been contributing to the Global War on 
Terrorism across the full spectrum of operations. During the peak of 
Operation Iraqi Freedom, we had over 22,000 members mobilized or on 
volunteer status supporting the Global War on Terrorism worldwide. In 
Operation Iraqi Freedom we flew 43 percent of the fighter sorties, 86 
percent of the tanker sorties and 39 percent of the airlift sorties. At 
the same time we were flying almost 25 percent of the Operation 
Enduring Freedom fighter sorties and over 20 percent of the tanker 
sorties. True to our heritage, Air National Guard members were hard at 
work protecting our shores at home by flying over 70 percent of the 
fighter sorties, over 50 percent of the tanker sorties and 35 percent 
of the airlift sorties.
    But our capabilities do not reside only in aircraft; 15 percent of 
our expeditionary combat support were engaged during this same period. 
This includes 60 percent of Security Forces, many of whom were 
mobilized for the longest duration. Additionally, about 25 percent of 
our Intelligence, Services and Weather personnel were mobilized.
    Air National Guard men and women are proud to defend and protect 
our nation at home and abroad. Often, however, support equipment 
requirements overseas necessitate that equipment remain in place, 
causing a shortage of equipment for training at home. We are working 
with Air Force and Defense Department leaders to develop a solution.
Medical Service Transformation--Expeditionary Combat Support, Homeland 
        Defense, and Wing Support
    In 2002, the Air National Guard's Surgeon General led the Air 
National Guard Medical Service through its most revolutionary 
transformation in history by reconfiguring its medical capabilities 
into Expeditionary Medical Support systems. These systems provide 
highly mobile, integrated and multifunctional medical response 
capabilities. They are the lightest, leanest and most rapidly 
deployable medical platforms available to the Air National Guard today. 
This system is capable of simultaneously providing Expeditionary Combat 
Support to the warfighter for Air and Space Expeditionary Force 
missions, Homeland Defense emergency response capabilities to the 
states and support to the Air National Guard Wings.
    During Operation Iraqi Freedom, Air National Guard medical units 
provided Expeditionary Combat Support to the warfighter. The 
Expeditionary Medical Support capability allowed 10 percent of Air 
National Guard medical unit personnel to deploy for Operation Iraqi 
Freedom, compared to only 3 percent in the early 1990s for deployments 
for Operations Desert Shield and Desert Storm. The United States 
Central Command has validated that the Expeditionary Medical Support 
system is a perfect fit for the Chief of Staff, U.S. Air Force Global 
Strike Task Force and Concept of Operations.
    Homeland Defense capabilities are provided by the Expeditionary 
Medical Support system through its Military Support to Civil 
Authorities. The Air National Guard Medical Service plays a vital role 
in the development and implementation of the National Guard's Chemical, 
Biological, Radiological, Nuclear, and High-Yield Explosive Enhanced 
Response Force Package. This package will provide support to state and 
local emergency responders and improve Weapons of Mass Destruction 
response capabilities in support of the Civil Support Teams. The Air 
National Guard will have 12 trained teams by late 2004 and will build 
toward an anticipated 54 teams by 2007. The Air Combat Command Surgeon 
General has committed to providing 39 mass decontamination equipment 
sets to 39 Wings for installation-to-installation support, which will 
ensure that the Chemical, Biological, Radiological, Nuclear, and High-
Yield Explosive Enhanced Response Force package's decontamination teams 
remain trained. The National Guard's short-term objective is to obtain 
10 Small Portable Expeditionary Aerospace Rapid Response equipment 
sets, one for each Federal Emergency Management Agency Region.
    The Air National Guard Medical Service's new Force Structure 
provided by the Expeditionary Medical Support system provides 
standardized and much improved Force Health Protection, Public Health, 
Agent Detection, and Health Surveillance capabilities to better support 
all Air National Guard Wings. This will enhance the protection of the 
Wings' resources and improve the medical readiness of its personnel.
    Thus the modular ``building block'' capability of Expeditionary 
Medical Support provides an advanced technology and an essential, 
tailored medical capability in a small forward footprint expandable to 
meet situational needs.
    The Air National Guard Surgeon General has pursued and will 
continue to develop the Air National Guard Medical Service's technology 
and modernization plans to support the warfighter's, state's, and 
Wing's requirements.
Eyes and Ears in the Sky: Air National Guard Intelligence, 
        Surveillance, and Reconnaissance Systems and Support
    The Air National Guard's Intelligence Surveillance and 
Reconnaissance personnel and systems play an increasingly important 
role in the defense of our nation. Air National Guard men and women are 
essential to Air Force tasking, processing, exploitation, and 
dissemination missions to support Global Hawk, Predator, and U-2 
collection missions.
    Due to a significant increase in Air Force mission requirements, 
the Air National Guard continues to expand its intelligence collection 
and production capability. The Air National Guard has also expanded its 
imagery intelligence capability through the use of Eagle Vision, which 
is a deployable commercial imagery downlink and exploitation system. 
This system provides valuable support to aircrew mission planning and 
targeting, as well as imagery support to natural disasters and 
terrorism.
    Other developing Air Force capabilities that are entrusted to the 
Air National Guard include the F-16 Theater Airborne Reconnaissance 
System and the C-130 SCATHE VIEW tactical imagery collection system. 
The Theater Airborne Reconnaissance System will be improved to provide 
near-real-time support to warfighter ``kill-chain'' operations in day-
night, all weather conditions. SCATHE VIEW provides a near-real-time 
imaging capability to support humanitarian relief and non-combatant 
evacuation operations. To support signal intelligence collection 
requirements, the Air National Guard continues to aggressively upgrade 
the SENIOR SCOUT platform. SENIOR SCOUT remains the primary collection 
asset to support the nation's war on drugs and the Global War on 
Terrorism in the Southern Hemisphere. Finally, the Air National Guard 
established a new unit to support RC/OC/WC-135 flying operations at 
Offutt AFB, Nebraska. This unique future Total Force organizational 
construct is transformational and serves as a successful example for 
future operationally integrated units. The Air National Guard is 
transforming its force structure to meet escalating Intelligence 
Surveillance and Reconnaissance mission requirements and an ever-
increasing demand for Air Guard capabilities.
Managing Force Finances
    Financial Management experienced an unprecedented deployment tempo 
during 2003. For the first time ever, an Air National Guard Comptroller 
was assigned exclusive command and fiduciary responsibility for the 
establishment and sustainment of financial operations in direct support 
of combat missions. The challenge was to create a financial 
infrastructure from scratch. This Comptroller and subordinate staff of 
5 Air National Guard financial management professionals ``financed the 
fight'' with distinction.
    As locations overseas were vacated, our financial management 
expertise was noticeably acknowledged. Our finance personnel were 
specifically chosen and assigned the significant responsibility for 
final reconciliation and settlement of accounts. The importance of 
departing the local economy with balanced books and completely 
liquidated fiscal obligations cannot be understated. The Air Guard 
delivered remarkable stewardship in this demanding role.
    The Operational Tempo at home generated another Financial 
Management ``first''. One hundred seventy-six Air National Guard 
finance personnel were mobilized as part of an innovative home station 
support package. This was a transformational approach to the surge in 
processing workload that tripled as hundreds of Airmen at each unit 
were called to duty and follow-on overseas deployment.
The Air National Guard: Using the Stars to Serve the Community
    For the Air Guard, Space Operations provide a critical 
communications link to communities throughout the nation in the form of 
satellite support for everyday uses, television, computers, and 
wireless phones, but also serve as an important military deterrence 
from external threats. Currently, the 137th Space Warning Squadron in 
Colorado provides mobile survivable and endurable missile warning 
capability to U.S. Strategic Command. Recently, two Air National Guard 
units in Wyoming and California have come out of conversion to provide 
operational command and control support to Northern Command and to 
provide round-the-clock support to the Milstar satellite constellation.
    Additionally, the Air Force has approved space missions for the 
119th Command and Control Squadron in Tennessee to support the U.S. 
Strategic Command, and the 114th Range Flight in Florida is partnered 
with an active Air Force unit performing the Launch Range safety 
mission. There are future plans by the Air Force to transition 
additional space program missions and assets in Alaska and other states 
to Air National Guard control.
Comprehensive and Realistic Combat Training--An Asymmetric Advantage
    The National Guard Bureau has a fundamental responsibility to 
ensure that the men and women of the Air Guard are properly trained to 
meet the challenges they will face to protect and defend this country. 
This can be done through the effective development and management of 
special use airspace and ranges. To support this requirement of the 
warfighter, the Air Guard is responsible for 14 air-to-ground bombing 
ranges, four Combat Readiness Training Centers, and the Air Guard 
Special Use Airspace infrastructure.
    To ensure that our units remain ready and relevant, they must have 
access to adequate training airspace and ranges that meet the demands 
of evolving operational requirements. The National and Regional 
Airspace and Range Councils, co-chaired by both the Air Guard and the 
Air Force, continue to identify and work airspace and range issues that 
affect combat capability and are engaged with the Federal Aviation 
Administration in the redesign of the National Airspace System.
    Transformation efforts to improve realistic training at our ranges 
have been identified by several units as instrumental in preparation 
for Operation Iraqi Freedom. For example, the recently deployed Joint 
Modular Ground Targets, Urban Area Targets and Time Sensitive Targets 
provide training that reflects today's combat realities. Ranges are 
being equipped with modernized scoring and instrumentation and data-
link equipment necessary to support precision-guided weapons training. 
Critical training is provided to ground Forward Air Controllers as well 
as aircrews. Range residual cleanup and associated environmental issues 
remain a major challenge.
    The four Combat Readiness Training Centers provide an integrated, 
year-round, realistic training environment (airspace, ranges, systems, 
facilities, and equipment), which enables military units to enhance 
their combat capability at a deployed, combat-oriented operating base 
and provide training opportunities that cannot be effectively 
accomplished at the home station. As such, these centers are ideal 
assets for the Joint National Training Capability. The centers offer an 
effective mix of live, virtual and constructive simulation training. 
The Air National Guard continues to pursue National Training Capability 
certification for these centers and ranges.
    It is imperative to the warfighter that the Air Guard maintain its 
training superiority. As the warfighting transformation and joint 
operational requirements evolve, it is essential that the airspace and 
range infrastructure be available to support that training.
                            homeland defense
Air Sovereignty Alert
    Since September 11, 2001, thousands of National Guardsmen have been 
mobilized to operate alert sites and alert support sites for Operation 
Noble Eagle (ONE) in support of Homeland Defense. Our Air National 
Guard has partnered with Active Duty and Reserve forces to provide 
Combat Air Patrol, random patrols, and aircraft intercept protection 
for large cities and high-valued assets in response to the increased 
threat of terrorist groups. By the end of fiscal year 2003, Air 
National Guard units had assumed 16 of 16 North American Air Defense 
and Northern Command-directed ground alert sites in the Continental 
United States and 1 of 2 alert site locations outside the United 
States. While the Air National Guard has assumed the responsibility of 
all ground alert sites and some irregular Combat Air Patrol periods, 
Active Duty units have shouldered the burden of all regular ``steady-
state'' Combat Air Patrols. This partnering agreement maximizes our 
nation's current basing locations and capitalizes on the high 
experience levels within the Air National Guard and its professional 
history in Air Defense operations.
    To continue operations at this indefinite pace has posed some 
unique funding and manning challenges for both the field and 
headquarters staffs, especially with the looming two-year mobilization 
limitation and Secretary of Defense's desire to normalize operations. 
Beginning mid-November 2003, many Air National Guard personnel began to 
reach their two years on active duty, causing much concern as to the 
participation of Air National Guard personnel. With the release of the 
fiscal year 2004 President's Budget, the Air National Guard received 
temporary funds to begin transitioning from a mobilized to a ``steady 
state'' force for fiscal years 2004 and 2005. This funding allowed for 
supporting the ASA mission in a new Continuum of Service active duty or 
technician status while at the same time it funded many of our 
facilities, equipment, and MILCON requirements to support the mission 
long-term. Our goal is to have all alert personnel transitioned from 
contingency/mobilized to ``steady state'' Continuum of Service status 
by March of 2004. As we move into the fiscal year 2006 Program 
Objective Memoranda exercise, the active Air Force and Air National 
Guard will continue to work towards a permanent solution for our alert 
force and advocate with the Office of the Secretary of Defense to 
incorporate these temporary Continuum of Service tours into steady 
state programs.
                  transformation for the 21st century
Supporting a ``Capabilities Based'' Military Force
    The Air National Guard is a solid partner with the Air Force, the 
Air Force Reserve, and all collective units of the Department of 
Defense designed to protect national security and maintain 
international peace. The Defense Department's priority is 
Transformation--and therefore it is the priority of the active services 
and the reserve components. Transformation as ``relevancy'' is 
dependent on the Air National Guard readiness, in both state and 
federal missions, being able to support service-apportioned, Joint 
Chiefs-validated, and Combatant Commander-required ``-capabilities.''
    The Air Force is pursuing innovative organizational constructs and 
personnel policies to meld the various components into a single, 
unified force. Ongoing shifts in global conflict and U.S. strategy 
suggest an increasing attention to activities such as homeland defense, 
nation-building, and others that may require different mixes of 
capability that are not necessarily resident at sufficient levels in 
the Active Component alone. This ``Future Total Force'' integration 
will create efficiencies, cut costs, ensure stability, retain 
invaluable human capital, and, above all, increase our combat 
capabilities. One example of this transformational initiative is the 
proposed movement of Air National Guard manpower to Langley AFB, an 
active duty base, from Richmond, an Air National Guard base, with the 
intent of leveraging the high experience of Guard personnel to improve 
the combat capability for the active force.
    Another transformation effort is to ``integrate,'' where sensible, 
units from two or more components into a single Wing with a single 
commander. Active, Guard, and Reserve personnel share the same 
facilities and equipment, and together, execute the same mission. This 
is a level of integration unprecedented in any of the Services.
    Potential future missions might include Unmanned Aerial Vehicles 
and their training programs, combining the Unmanned Aerial Vehicle 
squadrons with their manned fighter counterparts; and integrated 
fighter squadrons realizing the benefits of highly trained personnel 
flying legacy systems during the transition period to newer fighter 
aircraft such as the Joint Strike Fighter. The Air National Guard has 
been steadily increasing its participation in space operations over the 
years and already plays a vital role in missile warning, satellite 
command and control, and launch operations. These contributions will be 
significant during conflicts envisioned for the future.
    These changes confirm and continue the trend in which air and space 
forces carry a heavier share of the burden in the nation's wars. The 
new strategy and force-sizing standard point to an increase, not a 
decrease, in aerospace power.
Modernizing for the Future
    The Air National Guard modernization program is a capabilities-
based effort to keep the forces in the field relevant, reliable and 
ready for any missions tasked by the state or federal authorities. As a 
framework for prioritization, the modernization program is segmented 
into three time frames: short-term, the current and next year's Defense 
budget; medium-term, out to fiscal year 2015; and long-term, out to 
fiscal year 2025 and beyond.
    As the force structure continues to evolve, the Air Guard can 
anticipate a continuous process to ensure the forces provide an 
equivalent capability for Joint and Coalition Forces. The Air National 
Guard remains an equal partner with the Air and Space Expeditionary 
Forces that are tasked to meet the future challenges and missions. 
Because of budget constraints, it is incumbent upon the Air Guard to 
maximize combat capability for every dollar spent. The Air National 
Guard includes all aircraft, ground command and control systems, and 
training and simulation systems in this modernization effort. The 
requirements necessary to focus this effort must be grounded in clearly 
defined combat capabilities and missions. The foundation of our future 
efforts is relevance with reliability and readiness. It is increasingly 
difficult to keep the Air National Guard legacy systems relevant given 
the transformation of the Air Force to better, more effective 
technologies. Systems funding will be a continuous and serious 
challenge since funding levels continue to fall short of mission 
requirements. Over the foreseeable future, the Air Force will be 
stretched to simultaneously fund current operations, modernization, and 
future research and development projects.
    In the near-term, our Modernization Program focuses on the ongoing 
Global War on Terrorism. Theaters of operations range from domestic 
efforts, such as fire-fighting, to full partners in overseas efforts, 
such as Operation Iraqi Freedom and Operation Enduring Freedom. The 
demands of the modern battlefield require the Air Guard weapons systems 
and crews to have identical or equivalent capability as the joint and 
coalition forces. The results of the modernization program were 
graphically demonstrated in both Operation Iraqi Freedom and Operation 
Enduring Freedom as the Block 25/30/32 F-16s, with their laser 
designator LITENING II targeting pods, the Enhanced Position Reporting 
System and Situation Awareness data links became the weapons system of 
choice for the combatant commanders in both theaters. Once air 
supremacy was achieved, the Air National Guard, Air Force Reserve 
Command and active A-10 aircraft became the primary choice in both 
theaters. We fully expect that future threats will continue to evolve 
which will require continued modernization across all weapons systems.
    Here is a summary of the Air National Guard's force posture by 
weapons system:
    The A-10 demonstrated its continued relevance in today's 
battlefield as the Warthog was the dominant weapon when coalition 
forces raced for Baghdad during Operation Iraqi Freedom. Rapid 
integration and installation of the LITENING II laser targeting pod in 
only a few days and subsequent spectacular precision attacks served as 
a model for the future of the A-10. Several other limitations were 
identified to include the need to modernize the aircraft infrastructure 
through the Precision Engagement program. One particular limitation was 
the lack of a tactical data link. The leading candidate in the near-
term is the Joint Tactical Radio System, with installation scheduled to 
begin in fiscal year 2005. During 2003, the A-10 modernization program 
experienced, increased emphasis including an aircraft modification to 
house the personal locator system, further research into an adequate 
engine replacement, continued testing of the AN/ALR 69 Radar Warning 
Receiver, continued COMET infrared countermeasures pod testing, 
continued acquisition of targeting pods for precision guided munitions, 
and further work for the Precision Engagement program to upgrade the 
aircraft avionics continued development and integration.
    During 2003, the Air Guard F-16s provided crucial combat 
capabilities in Operation Noble Eagle, Operation Iraqi Freedom and 
Operation Enduring Freedom by using advanced targeting pods funded by 
the Air National Guard's Modernization Program for precision-guided 
munitions. The Commercial Central Interface Unit, Color Multifunctional 
Displays, the Heads Up Display Advanced Electrical Unit, the Radar 
Modernized Programmable Signal Processor, the AN/ALR-69 Radar Warning 
Receiver Antenna Optimization, Situational Awareness Data Link and the 
Electronic Attack Upgrade were all part of our successful modernization 
effort. Funding for the Advanced Identify Friend or Foe upgrade was 
secured along with funding for the final engine upgrade kits. The 
Theater Airborne Reconnaissance System continued its spiral development 
to bolster the manned tactical reconnaissance limitation identified by 
the combatant commanders in every after-action report.
    The HC-130 is completing installation of the Forward Looking 
Infrared system, an essential capability during combat rescue 
operations. The HC-130 starts integration and installation of the Large 
Aircraft Infrared Counter Measure system, increasing survivability in 
face of the ever-increasing threat from hand-held missiles.
    The HH-60 program started installation of the new M3M .50 caliber 
door gun, replaced personal equipment for the pararescue jumpers with 
state-of-the-art weapons and technologies. The initiation of the HH-60 
replacement program will begin to slow any further modernization.
    The Operational Support Aircraft Modernization Program leased two 
737 Boeing Business Jets that are supporting current VIP Special Air 
and Joint Operational Support Airlift operations to improve response 
for civilian and military senior leaders. A third aircraft will receive 
full modifications and begin service as the C-40C in September 2004.
    The training and simulation systems ensure the personnel on the 
front line are as ready and relevant as the equipment they use. Over 
the past year, the Air National Guard has begun the transition to the 
Distributed Mission Operations capability leveraging 21st century 
technology with realistic simulation. Useful at every level of 
training, crews acknowledged the edge they gained through mission 
rehearsal on the ground prior to some of the more complex missions. 
Starting with the A-10 and F-16 distributed mission training capable 
flight simulators, the Air National Guard has begun to transform their 
approach to combat training. The modernization of the F-15 includes the 
continued installation of the BOL Infrared countermeasures improvements 
system, continued delivery of upgraded engine kits and completion of 
the installation of the Multifunctional Information Distribution System 
Fighter Data Link. The next upgrades include the installation of the 
new 8 mm recorders, retrofit of a permanent night vision cockpit 
lighting system, continued integration and purchase of the Joint Helmet 
Mounted Cueing System, and the delivery of the replacement Identify 
Friend or Foe system. The conversion from the F-15A/B to F-15C/D begins 
in fiscal year 2005, thereby extending the relevance of the air 
superiority forces in the Air National Guard.
    C-130 enhancements included the multi-command Avionics 
Modernization Program which upgraded nearly 500 aircraft to a modern, 
more sustainable cockpit. Additionally, the Air National Guard 
continued acquisition of the AN/APN-241 Low Power Color Radar, 
continued installation of the Night Vision Imaging System, and the Air 
National Guard-driven development of Scathe View to include various 
technological spin-offs having application in a myriad of civilian and 
military efforts. Other Air Guard programs include the AN/AAQ-24 (V) 
Directional Infrared Counter-measures System, propeller upgrades like 
the Electronic Propeller Control System and NP2000 eight-bladed 
propeller, and a second generation, upgraded Modular Airborne Fire 
Fighting System. Additionally, the Air National Guard partnered with 
the Air Force for the first multiyear buy of the new C-130J aircraft to 
replace the aging C-130E fleet.
    The KC-135 weapons system completed the installation of the cockpit 
upgrade and continued the engine upgrades to the R-model. The KC-135 
continued to be the air bridge for the multiple combat deployments 
across the globe. Keeping the aging fleet modernized will continue to 
challenge the Air National Guard as the refueling operations evolve to 
meet the next mission. It is critical the aging tanker fleet be 
modernized.
    The Air National Guard Modernization Program is the key to 
continuing to field a relevant combat capability, ensuring dominance of 
American air power for the next 15 to 20 years. We must sustain an open 
and honest dialogue from the warfighter through Congress, in order to 
maximize the investment of precious tax dollars. The modernization 
program is a process, not a goal. Recent combat successes validate that 
process and serve as a model for future transformation of the United 
States Air Force.
Land Fleet Supports Air Operations
    The Air National Guard Vehicle Priority Buy program cannot keep 
pace with mission requirements associated with Homeland Security, new 
Alert sites, Security Force protection, medical evacuation teams and 
new aircraft conversions.
    At the present time, 35 percent of the Air National Guard vehicle 
fleet is due for replacement, at a cost of approximately $262 million.
    The Air National Guard vehicle fleet will continue to age and 
become more costly to maintain. The less-than-adequate replacement rate 
coupled with additional requirements to support newly emerging homeland 
security tasking will severely impact our vehicle readiness.
Military Personnel Transformation--30 Years After ``Total Force''
    The Air National Guard is partnered with the Air Force in multiple 
transformation initiatives that will affect the Total Force. These 
initiatives, tied with the Office of the Secretary of Defense's new 
paradigm--Continuum of Service--will necessitate simplifying the 
processes and rules that are now in place. Continuum of Service is a 
transformation for personnel management that is needed to acknowledge 
the changes that have occurred in the way Reserve Component members are 
now employed in the full range of operational worldwide missions. This 
transformation will require changes in legislation and the commitment 
of the military services. Although there is an increased spirit of 
volunteerism, and retention remains strong despite the increase in 
calls for federal and state service, a more integrated approach to 
military personnel management is imperative. The integration that is 
required presents a challenge in military personnel life cycle 
management. The Guard's Directorate of Diversity, Personnel, and 
Training, the stewards of the force, will ensure Continuum of Service 
policies have the flexibility to manage the force separately, so 
Guardmembers have a reasonable opportunity to compete for promotion.
    One of the business operations targeted by the Secretary of the Air 
Force for transformation is the manner in which the Air Force delivers 
human resource services to its customers. The transformation of these 
business operations will achieve the Air Force Secretary's objectives 
by shifting from the current labor-intensive, transaction-focused 
customer service delivery system to a ``strategic partner'' role. The 
ultimate goal is the creation of a customer-focused, mission-driven 
Total Force service-based delivery system. The system will be leveraged 
by technology that provides effective, efficient and timely services, 
while freeing human resource professionals to advise commanders on the 
development and management of their personnel. The Air Guard is 
committed to the Secretary's vision and goals for Customer Service 
Transformation while, at the same time, ensuring Air National Guard 
members have access to the human resource services which are vital to 
effective career management.
    The Air National Guard supports the transformational vision of the 
Chief of Staff of the Air Force for a more deliberate approach in 
developing a force development construct. This entails a Total Force 
concept that incorporates the way the Air Force trains, educates, 
promotes, and assigns the Total Force--Active, Guard, Reserve, and 
Civilians. The newly published Air Force Policy Directive 36-26 
represents a radical departure from the current educational and 
assignment culture. The newly published directive emphasizes a 
flexible, capabilities-based, Total Force approach that fulfills the 
professional and personal expectations of our Airmen, while still 
meeting mission requirements.
    One aspect of the Force Development construct is ensuring 
implementation of the Air National Guard's national diversity strategy. 
The purpose of the diversity strategy is to increase mission readiness 
in the organization by focusing on workforce diversity and assuring 
fair and equitable participation for all. Finally, the Air National 
Guard has developed a Formal Mentoring Initiative that is ready for a 
nation-wide rollout. This program will be a key component in the 
professional development of Air National Guard members.
Information Networking for the Total Force
    The Air National Guard Enterprise Network is critical to the 
successful transmission of information within a unit, between units, 
and among the various states. We are making progress towards 
modernizing our nationwide information technology network that serves a 
vital role in homeland security and national defense. A healthy and 
robust network for reliable, available and secure information 
technology is essential to federal and state authorities in their 
ability to exercise command and control of information resources that 
potentially could impact their various constituencies. The effective 
functioning of the Air National Guard relies upon a strong interface 
and interaction within the network to share information at all levels.
    The Air National Guard continues to make significant progress in 
procuring network hardware and personal computer and server software 
that decreases complexity and increases network communication with Air 
Force and Department of Defense partners.
    The Air National Guard has completed a nationwide consolidation of 
network servers by consolidating core network services to regional 
operations centers, and we continue to provide high quality Information 
Technology services. At the same time, we continue to reduce redundant 
and obsolete systems and programs.
    The current initiative to provide better communications to our 
warfighters is our initial roll-out of Microsoft's Active Directory 
Services. These services will provide enhanced security and broader 
communications capabilities to our users, and more closely integrate 
our network with Air Force and other Service networks, thereby 
increasing both security and communications capability. We hope to fund 
the remaining roll-out in fiscal year 2004 and begin follow-on programs 
that will reduce the time required to maintain server and desktop 
hardware, as well as help manage the software upgrades and security 
patches so critical to our network's security.
    Greater emphasis must be placed on maturing the Air National Guard 
Enterprise Network. The rapidly changing hardware and software 
requirements of our warfighting and combat support functions come with 
a significant cost to upgrade and maintain a fully capable Information 
Technology network. The Air Guard network has typically been supported 
at the same level it was during the 1990s. Without a significant 
infusion of new technology, all other Air National Guard mission areas 
will be less than fully capable of executing their missions. This 
modernization initiative will certainly enhance the Air National 
Guard's interoperability with other federal and state agencies.
Preserving Facility Operations
    Air National Guard Civil Engineering is proud of its management 
record of constraining infrastructure and operating costs while 
providing quality installations responsive to the nation's needs. This 
focused business concept limits direct investment to core 
responsibilities to better balance component, service, and department 
resources with other risk areas.
    Civil Engineering demonstrates the balance between cost-effective 
and responsive infrastructure by operating a lean facility plant, 
relying on contractors for most facility work, and leveraging with the 
states and the traditional Guard member structure to reduce costs.
    Facility space at the typical Air National Guard installation 
averages only 350,000 square feet constrained to operational, training 
and administrative space on 150 acres of leased property. Air National 
Guard installations do not have the extensive support facilities 
typically present on active component bases, such as dormitories, golf 
courses, family housing, hospitals, child-care facilities, schools, 
youth centers, commissaries or main exchanges. Instead, Guard members 
leverage this quality of life support through the community. Additional 
cost containment is realized by the joint-use of runways and taxiways 
that are typically owned by the local civilian airport authority and by 
property leases at nominal or no cost.
    A small federal workforce of 7 to 10 predominantly civilian 
employees executes the facility operations and maintenance program 
through a contract and state employee workforce. This small full-time 
workforce is built around the Base Civil Engineer, an assistant, a 
facility manager and a production controller. About 15 state employees 
provide maintenance service for day-to-day requirements while larger 
non-routine maintenance, repair and construction, where most investment 
is made, are accomplished through contracts as needed. Twenty-four 
state employee firefighters provide crash, fire and rescue service when 
not provided by the local civilian airport authority.
    Base operational costs are further leveraged by state 
contributions. Specifically, states are required to provide matching 
funds for services such as utilities, custodial, trash, grounds 
maintenance and snow removal. This contribution typically ranges 
between 15 and 25 percent of the total cost of the requirement. 
Additionally, Civil Engineer and Services ``outsource'' its military 
capability, with personnel fulfilling traditional part-time roles, and 
thus avoiding full-time costs except when needed for wartime or 
deployment requirements. The Air National Guard Prime Base Engineer 
Emergency Force or PrimeBEEF force has been covering 30 percent of the 
total Air Force engineering wartime and deployment requirement, while 
the Prime Readiness in Base Services or Prime RIBS team has been 
covering 40 percent of these requirements.
    Civil Engineer management controls costs to help keep the Air 
National Guard and its military presence in the community. National 
Guard facilities and personnel assigned to local units are the primary 
connection most Americans have with the military since a large number 
of active duty bases were closed during the 1990s. This community 
presence provides cost-effective platforms for recruitment and 
retention by being close to where Guard members work and live. 
Correspondingly, the Air Guard's efficient infrastructure and 
management structure helps the National Guard and the Department of 
Defense to balance resources with other areas of risk as they continue 
to transform military capabilities.
Redesigning Financial Management Systems
    The Air National Guard Financial Management community is actively 
participating in the coordination of the Office of the Secretary of 
Defense Business Management Modernization Program and the Air Force 
Financial Management Transformation efforts.
    This will ensure our future systems and procedures comply with the 
Defense Business Enterprise Architecture. The Air Guard's efforts 
include: Adopting standard business practices and systems to enhance 
the accountability and accuracy of financial management transactions; 
and replacement of non-compliant financial management systems with web 
applications that fully support the defense architecture and the Chief 
Financial Officers Act of 1990.
    This is particularly evidenced by our efforts to transform and 
modernize the management of the Air National Guard Military Personnel 
Appropriation through the future implementation of the Reserve Order 
Writer System, a candidate to become a joint system that will bring the 
latest advances in technology and military orders information to 
Guards-members in the convenience of their homes around the clock.
                               conclusion
    The Air National Guard will continue to defend the nation in the 
War on Terrorism while transforming for the future. We will do this 
across the full spectrum of operations in both the Expeditionary and 
Homeland Defense missions. The Air National Guard will also continue to 
leverage our militia culture and linkage to the community that is vital 
to our nation. The men and women of the Air Guard are currently serving 
proudly in the far corners of the globe--and here at home--and will do 
so with distinction with the necessary tools to protect our freedoms.
                                 ______
                                 
   Prepared Statement of Major General Paul J. Sullivan, Vice Chief, 
                         National Guard Bureau
                                overview
    The most exciting changes occurring in the National Guard today are 
in the areas of Transformation, Jointness and Homeland Defense. The 
initiatives begun in 2003 to bring the National Guard fully into the 
Goldwater-Nichols era of jointness are already transforming the way we 
do business in the highest echelons of the Department of Defense, out 
in the states, and around the world where our Soldiers and Airmen are 
protecting our nation from harm.
    Transforming our headquarters to a joint structure provides greater 
interoperability with combatant commands, especially with U.S. Northern 
Command, U.S. Southern Command, and U.S. Pacific Command. It also 
increases our ability to interface with the Department of Defense and 
the Joint Staff on issues of Homeland Defense, Homeland Security, and 
Military Assistance to Civil Authorities. In summary, this will allow 
the Guard to operate on the same basis as the rest of the Defense 
Department.
    The year 2003 marked the beginning of our journey. There are many 
more tasks to accomplish before we have fully implemented our 
transformation campaign plan.
    The National Guard Bureau completed the initial stage of its 
transformation to a joint staff during the summer of 2003. In revising 
the staff structure, we attempted to mirror as closely as possible the 
structure of the Joint Staff in the Pentagon, thus facilitating closer 
coordination between the two to the maximum degree possible.
    The Bureau is extensively reorganizing its manpower to perform 
staff functions that had never been addressed outside of the single-
service focus of the Army National Guard and Air National Guard 
Directorates. The new joint Directorates of Logistics and Intelligence 
are prime examples of the Bureau expanding its vision and capabilities 
so that we can fully engage in interservice and intergovernmental 
efforts to protect the nation at home and abroad.
    The expansion of the National Guard Bureau's roles and missions in 
the joint arena must still be validated by the Secretary of Defense and 
the Joint Staff.
    The transformation to a joint Headquarters at the National Guard 
Bureau is being paralleled by a similar transformation in the states. 
The new Standing Joint Force Headquarters, State, are being designed to 
parallel the configurations of the National Guard Bureau, the Joint 
Staff, and the Combatant Commands. The States have been given 
flexibility to apply their human and financial resources to the joint 
configuration to address their unique needs, while centralizing each 
governor's ability to leverage both homeland security and state mission 
capabilities in the event of a local emergency.
    Every Joint Force Headquarters, State will provide a standing Joint 
Force Command and Control capability that will allow a combatant 
commander to accurately monitor an incident, provide supporting forces, 
or command federal forces, including federalized National Guard forces, 
in support of the civilian incident commander. This coordination 
between state and federal authorities will be aided by the creation of 
a robust command, control and communications backbone. We have proposed 
a Joint CONUS Communications Support Enterprise initiative that will 
provide a common, secure means through which they can coordinate their 
response for any domestic emergency. Upon completion of these 
transformational initiatives, the ability of both civil and military 
authorities to secure and defend the homeland will have increased 
exponentially.
    In 2003, under the direction of Lieutenant General H Steven Blum, 
the Bureau asserted that joint duty billets and joint educational 
opportunities should be extended to the National Guard. The Defense 
Department is currently considering plans that will allow members of 
the reserve components, for the first time in history, to benefit from 
the opportunities provided by Joint Professional Military Education. 
The broad-based implementation of this training in years to come will 
be critical to achieving our goal of fully integrating the National 
Guard system with the Department and the combatant commands.
    In organizing itself for the future, the National Guard Bureau, 
together with the National Guard headquarters in every state and 
territory, is transforming to become a member of the joint team. The 
War on Terror demands this capability from us; indeed, we are already 
serving in this capacity in our day-to-day interactions with the Office 
of the Secretary of Defense, with the Joint Staff, and with the 
combatant commanders. It is our responsibility to ensure that this 
transformation to jointness reaches full operating capability by 
October 2005.
                         support the war fight
State Partnership Program
    The National Guard State Partnership Program links states and 
countries for the purpose of improving bilateral relations with the 
United States. The value of this program is its ability to focus the 
attention of a small part of the Department of Defense--a state 
National Guard--with a single country or region in support of our 
government policies. The program's goals reflect an evolving 
international affairs mission for the National Guard. In addition, the 
National Guard promotes regional stability and civil-military 
relationships in support of U.S. policy objectives. The State Partners 
actively participate in a host of engagement activities including 
bilateral familiarization and training events, exercises, fellowship-
style internships, and civic leader visits. All activities are 
coordinated through the theater combatant commander and the U.S. 
ambassadors' country teams, and other agencies, as appropriate, to 
ensure that National Guard efforts are tailored to meet both U.S. and 
country objectives. This program increases exposure of Guard personnel 
to diverse cultures in regions where they may be deployed in the 
future.
    During 2003, nine new partnerships--Kansas-Armenia; Maryland-
Bosnia; Puerto Rico-Dominican Republic; New York-South Africa; 
Wisconsin-Nicaragua; Utah-Morocco; Alaska-Mongolia; Florida-Guyana; and 
Virginia-Tajikistan--were formed. The Colorado-Jordan partnership was 
announced in March 2004. Currently thirty-nine U.S. states, two 
territories, and the District of Columbia are partnered with forty-five 
countries around the world, and last year alone more than 300 events 
took place between the partners. In fiscal year 2004 and beyond, it is 
our goal to expand the program to include increased interaction at the 
action officer and troop level will enable the partners to develop more 
hands-on events.
    The State Partnership Program is also invaluable for our own 
homeland security. As we interface with countries that, on a daily 
basis, live with a terrorist threat in their own back yard, we learn 
the tactics and techniques that they employ to thwart attacks on their 
civilian population. Conversely, the countries learn some of the 
capabilities and techniques employed by not only the Department of 
Defense, but by our civilian organizations at both a federal and state 
level that are in use to protect our homeland. It is through this 
cooperative exchange of vital information that we ultimately protect 
our homeland by pushing our borders outwards and creating an atmosphere 
of mutual support and collaboration.
Full-Time Support
    The Active Guard and Reserve and Military Technician programs are a 
major asset for the National Guard and are essential to organizational 
readiness. Governed by USC Title 32, these full-time personnel are 
uniformed members who perform day-to-day responsibilities for a unit, 
who train with traditional Guardmembers in that unit, and who are 
available for mobilization or deployment when the unit is called to 
active duty.
    The heightened pace of operations, however, has put a strain on 
normal procedures, particularly for the military technician force. 
National Guard technician deployments in support of ongoing contingency 
operations involved approximately 16 percent of the technician 
workforce. This resulted in an increased demand for personnel actions 
to support technician separation and leave of absence actions, 
entitlements counseling, and backfill of positions in order to continue 
accomplishing essential full-time functions like payroll processing and 
equipment maintenance. In order to expedite the increased demand for 
backfill, the previously authorized emergency hiring flexibilities were 
expanded and extended for another year. These flexibilities provided 
streamlined hiring processes for affected states.
    The deployment of large numbers of military technicians with their 
units, while beneficial to the overall mission, created funding 
challenges for the program. Under current Uniformed Services Employment 
and Reemployment Rights laws, absence of technicians from their 
positions due to service in the armed forces does not result in absence 
of costs for agencies employing those technicians. The National Guard 
was still responsible for costs associated with stay-behind missions, 
such as maintaining armories and equipment, and the congressional 
legislation that employee and employer health benefit costs for 
technicians be paid for up to 18 months during mobilization. Therefore, 
residual costs incurred from health benefit costs, costs associated 
from backfilling mobilized technicians, outsourcing expenses, and other 
issues resulted in increased funding challenges during 2003.
National Guard Family Programs
    As the role of the National Guard becomes focused on the dual 
missions of Global War on Terrorism and Homeland Security, units will 
continue to maintain a high level of readiness for overseas and 
homeland operations.
    Not since World War II have so many Guardmembers been deployed to 
so many places for such extended periods of time. The role and support 
of the family is critical to success with these missions. The National 
Guard Family Program has developed an extensive infrastructure to 
support and assist families during all phases of the deployment 
process. There are more than 400 National Guard Family Assistance 
Centers located throughout the fifty-four states, territories and the 
District of Columbia. These centers provide information, referral, and 
assistance with anything that families experience during a deployment. 
Most importantly, these services are for any military family member 
from any branch or component of the Armed Forces.
    If family members are not prepared for deployments, a service 
member's readiness, morale, and eventually retention are affected. 
Family programs are currently in place to assist families during 
deployment, pre-mobilization, mobilization, and reunion. The Family 
Program office provides support to program coordinators through 
information-sharing, training, volunteer management, workshops, 
newsletters, family events, and youth development programs, among other 
services.
    The greatest challenge lies in awareness and communication. The 
feedback we receive indicates that many family members are unaware of 
the many resources available to them during a period of active duty or 
deployment. Our primary goals are to increase the level of awareness 
and participation with existing family resources, and to improve 
overall mission readiness and retention by giving our warfighters the 
peace-of-mind of knowing that their families are well cared for.
Employer Support of the Guard and Reserve
    The National Guard Bureau renewed its partnership with the National 
Committee, Employer Support of the Guard and Reserve. The Chief, 
National Guard Bureau, reinforced this commitment with his decision to 
authorize 54 positions for the states, District of Columbia, and 
territories to augment retention initiatives within all seven of the 
reserve components. A new initiative in fiscal year 2004 is a national 
level contract that provides the states with additional personnel and 
puts the Employer Support program on a parallel track with the National 
Guard's Family Program. These two programs are intended to dovetail, 
and reflect our increased efforts to address the impact of 
mobilizations on employers and families.
Youth ChalleNGe Program
    The award-winning National Guard ChalleNGe program is a community-
based program in twenty-nine sites that leads, trains, and mentors at-
risk youth to become productive citizens. The second largest mentoring 
program in the nation, the ChalleNGe program is coeducational and 
consists of a five-month ``quasi-military'' residential phase and a 
one-year post-residential phase. Corps members must be volunteers, 
between 16 and 18 years of age, not in trouble with the law, drug-free, 
unemployed, and high school dropouts.
    A national model since 1993, the twenty-five states and territories 
that offer the program have graduated more than 48,000 young men and 
women who leave equipped with the values, skills, education and self-
discipline necessary to succeed as adults in our society. 
Significantly, although many ChalleNGe candidates are from at-risk 
populations, over 70 percent of them have attained either a General 
Equivalency Diploma or a high school diploma. Furthermore, 
approximately 30 percent of all graduates choose to enter military 
service upon graduation. While the General Equivalency Diploma 
attainment is over 66 percent, and the graduation rate is above 90 
percent, the National Guard seeks to improve the results in both areas.
    The National Guard is ``Hometown America'' with deep roots in every 
community. The strong community ties make the National Guard a highly 
visible and effective entity in many towns and communities across the 
United States. National Guard units across the country have 
traditionally been involved in youth programs designed to help young 
people become positive and productive members of their community. The 
ChalleNGe program pays for itself with the savings realized from 
keeping young people out of jails and off welfare roles. In fact, these 
same young people are more prone to become productive, tax-paying 
members of their communities. The program saves $175 million in 
juvenile corrections costs, while lowering the percentage of youth who 
are on federal assistance from 24 percent to 10 percent. The results 
are that a ChalleNGe program actually makes money for the tax dollars 
spent.
Drug Interdiction and Counterdrug Activities
    In 1989, the Congress authorized the National Guard to perform drug 
interdiction and counterdrug activities under Section 112, Title 32 of 
the United States Code.
    This domestic counterdrug effort falls into two general areas: 
supporting community-based drug demand reduction programs and providing 
support to help law enforcement stop illegal drugs from being imported, 
manufactured and distributed. Approximately 2,600 personnel in Title 32 
status work with the programs, while at the same time maintaining their 
wartime military skills and unit readiness.
    The mission of the Drug Demand Reduction program organizes and 
expands community efforts to form coordinated and complementary systems 
to reduce substance abuse. The Guard's primary focus is on community 
mobilization and assistance to neighborhood groups. We assist these 
groups in setting goals and objectives and building neighborhood 
strength and resiliency that provide alternatives to drugs and drug-
related crime. In fiscal year 2003, National Guard members were able to 
reach an audience of over 4.7 million students and family members with 
an anti-drug message.
    Supply reduction activities stem the flow of illegal drugs into the 
United States. The National Guard performs a variety of counterdrug 
missions in direct support of local, state, and federal law 
enforcement. The types of support provided are diverse, but focus 
primarily on intelligence analysis and investigative case support. 
Activities also include linguist support, surface and aerial 
reconnaissance and observation, as well as communications and engineer 
support. We provide unique military-oriented skills so the program acts 
as a force-multiplier for law enforcement agencies.
    As part of the supply interdiction mission, the National Guard 
provides airborne support to the domestic effort through the 
Counterdrug Reconnaissance and Aerial Interdiction Detachment program 
and the C-26 Sherpa program. These programs employ Kiowa helicopters 
and Sherpa aircraft to detect and track targets identified by law 
enforcement agencies. These aircraft have been specially modified with 
thermal imaging equipment, night vision devices, and high-tech 
communications equipment. Currently, we operate 116 Kiowa helicopters 
distributed among thirty-seven states; while eleven states each have a 
single Sherpa aircraft for these efforts. Recently, several of the 
Sherpa assets have been tasked to support overseas missions in support 
of U.S. Southern Command.
    In fiscal year 2003, National Guard support efforts led to 66,395 
arrests and assisted law enforcement in seizing the following:

 
 
------------------------------------------------------------------------
Cocaine...............................  665,179 pounds
Crack Cocaine.........................  61,713 pounds
Marijuana eradicated..................  2,232,693 plants
Marijuana (processed).................  1,251,182 pounds
Methamphetamines......................  26,077 pounds
Heroin................................  6,475 pounds
Ecstasy...............................  387,616 pills
Other/Designer Drugs..................  14,600,274 pills
Weapons...............................  10,260
Vehicles..............................  76,349
Currency..............................  $192,607,004
------------------------------------------------------------------------

    Due to the tremendous successes of the Guard's training programs, 
and the growing need for more specialized training, the Guard operates 
five congressionally authorized training academies that provide 
counterdrug training for both law enforcement and community officials. 
These programs are open to both civilian and military personnel, and 
these no-cost courses provide training in both supply interdiction and 
drug demand reduction.
    Finally, to help ensure a drug-free workplace, the National Guard 
administers and oversees a Substance Abuse Prevention Program. All 
members of the National Guard are subject to random, unannounced 
testing throughout the year. Additionally, members in certain 
specialties or job categories are subject to mandatory testing each 
year. In fiscal year 2003, we performed more than 225,000 drug tests. 
This testing helps ensure that the National Guard force is fit and 
mission-ready.
                            homeland defense
National Guard Reaction Force
    The National Guard has nearly 368 years of experience in responding 
to both the federal government's warfighting requirements, and the 
needs of the states to protect critical infrastructure and to ensure 
the safety of local communities. In an effort to improve the capability 
of states to respond to threats against critical infrastructure within 
their borders, the Chief of the National Guard Bureau has asked each 
Adjutant General to develop a Quick Reaction Force capability. The goal 
is to have a trained and ready National Guard force available to the 
governor that can respond in support of local, state and, when 
required, federal agencies. The Guard Bureau has been coordinating with 
the states and territories to identify current response capabilities, 
as well as working with Northern and Pacific commands to ensure that 
these capabilities are understood and incorporated into their emergency 
response plans. Work is underway to identify additional requirements 
for force protection and interoperability with civil responders. This 
reaction force is not a new capability or concept. What is new is the 
standardized training and mission capabilities being shared by all 
states, territories, and the District of Columbia.
Full Spectrum Vulnerability Assessment
    The Full Spectrum Vulnerability Assessment program is a new 
National Guard Homeland Defense initiative in which each state and 
territory has a team of Soldiers or Airmen trained to conduct 
vulnerability assessments of critical infrastructure in order to 
prepare and plan emergency mission response in the event of a terrorist 
attack or natural disaster. This program is designed to execute the 
pre-planning needed for emergency response; to educate civilian 
agencies on basic force protection; to develop relationships between 
emergency responders, owners of critical infrastructure and National 
Guard planners in the states; and deploy traditional National Guard 
forces in a timely fashion to protect that infrastructure. In 
developing this concept, the Guard Bureau has worked with the office of 
the Assistant Secretary of Defense for Homeland Defense to establish 
policies and standards. During 2004, we plan to have six of these teams 
trained to conduct vulnerability assessments. Through this initiative, 
the National Guard continues its time-honored tradition of being 
prepared to respond at a moment's notice in defense of America.
Weapons of Mass Destruction Civil Support Teams
    The National Guard continues to strengthen its ability to respond 
to chemical, biological, radiological, nuclear, and high-yield 
explosive events. Since September 11, 2001, the existing thirty-two 
teams have been fully engaged in planning, training and operations in 
support of state and local emergency responders. Civil Support Teams 
are designed to provide specialized expertise and technical assistance 
to an incident commander by identifying chemical, biological, 
radiological, or nuclear substances; assessing the situation; advising 
the commander on potential courses of action; and assisting with 
cutting-edge technology and expertise. Operationally, these teams are 
under the command and control of the governors through their respective 
Adjutants General in a U.S.C. Title 32 status. The National Guard 
Bureau provides logistical support, standardized operational 
procedures, and operational coordination to facilitate the employment 
of the teams and to ensure back-up capability to states currently 
without a team.
    During fiscal year 2003, teams responded to seventy-four requests 
for support from civil authorities for actual or potential incidents. 
Teams from Texas, Louisiana, Oklahoma, Arkansas, and New Mexico also 
provided valuable support in response to the Columbia space shuttle 
disaster during February 2003.
    In accordance with Congressional and Defense Department direction, 
the National Guard will add twenty-three new teams, beginning with 
twelve in 2004, so that each state, territory, and the District of 
Columbia will have at least one team. Another four teams will be added 
in 2005, with four more in 2006, and the remaining three in 2007.
    In order to continue to be the best possible resource to the 
emergency responders they assist, it is vital that these teams continue 
to be equipped with state-of-the-art technology and trained to the 
highest possible level. To accomplish this, the teams must remain a 
high priority for resourcing at all levels of the Department of 
Defense.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Enhanced Response Force Package
    After the terrorist events of September 11th, the protection of 
personnel and resources has greater urgency and the potential for 
response to civil authority is greater than ever. Local, state and 
federal agencies are applying tremendous resources to improve their 
Weapons of Mass Destruction response capabilities. To enhance the 
National Guard capability, the National Guard Bureau has developed an 
initiative to equip and train units in twelve states to provide a 
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
regional response. This force will augment the Civil Support Teams and 
will provide emergency responders with a follow-on, task force-oriented 
structure that will help secure the incident site, support mass 
casualty decontamination operations in or near contaminated 
environments, and provide for casualty search and extraction. Included 
in this response force package is platoon-sized security, medical, 
decontamination, and technical search and extraction teams. These 
personnel are expected to respond to an incident on short notice in 
either state active duty or U.S.C. Title 32 status. The new teams are 
expected to be trained and ready to respond by October 2004.
Intelligence for Homeland Security
    During the 2003 transformation to a joint staff structure, the 
Guard Bureau broke new ground by organizing for the first time in its 
history an Intelligence Directorate. The draft mission statement 
designates the directorate as the primary advisor to the Chief, 
National Guard Bureau, Deputy Chiefs, and the Adjutants General of the 
fifty-four states and territories for all intelligence-related matters. 
With the focus on improving threat awareness for the Guard's Homeland 
Security mission, the immediate goal has been to efficiently maximize 
information-sharing between the Guard and Defense Department, the 
combatant commands, particularly U.S. Northern Command and U.S. Pacific 
Command, the Department of Homeland Security, and national-level 
intelligence agencies. Concurrently, this new directorate is taking the 
lead in establishing a common operating system for intelligence that 
will provide a standardized intelligence picture that gives each 
participant the same level of situational awareness and allows sharing 
of information and intelligence across a single system, thus aiding the 
decision-making process.
                  transformation for the 21st century
Transformation to a Joint National Guard Bureau
    In May 2003, the Chief, National Guard Bureau, announced his vision 
to transform the Bureau into a Joint National Guard Bureau that 
encompasses both its federal and state missions. In July 2003, the 
Chief provisionally organized the Bureau's manpower resources into a 
joint staff.
    In late July 2003, the Office of the Secretary of Defense 
recognized the changing roles of the National Guard, both in its 
federal and state relationship, and indicated support of the Bureau as 
the national strategic focal point for National Guard matters. 
Secretary of Defense Rumsfeld further suggested greater ties with his 
office, the Joint Staff, and the Departments of the Army and Air Force 
in support of combatant commanders. The Secretary encouraged the 
development of proposals to forge a new relationship, one which would 
improve his office's access to National Guard capabilities and improve 
the ability of the National Guard to operate in the joint environment 
and other military matters. The primary interest for the Chief, 
National Guard Bureau is the Area of Responsibility of all combatant 
commanders whose plans include or affect, or will likely include or 
affect, federalized or non-federalized National Guard units or 
personnel. As such, the Bureau supports U.S. Northern Command, U.S. 
Pacific Command, U.S. Strategic Command, and the states and territories 
in developing military strategy and contingency plans for homeland 
defense and civil support operations. It further supports all of the 
combatant commanders in developing joint operational requirements for 
Theater Security Cooperation, and War and Contingency Plans.
    The Bureau is recommending its recognition, in both law and policy, 
as a joint activity of the Department of Defense, as well as a joint 
bureau of the Departments of the Army and the Air Force, with both 
joint and Service responsibilities. This joint initiative is projected 
to achieve full operational capability and validation from the 
Secretary of Defense and the Joint Staff by fiscal year 2005.
Joint Force Headquarters, State
    On October 1, 2003, the Chief approved provisional operation of the 
Joint Force Headquarters in each of the fifty-four states, territories, 
and the District of Columbia. Transformation of the previously separate 
Air and Army National Guard Headquarters will continue through fiscal 
year 2006.
    The Joint Force Headquarters of each state, territory, Puerto Rico 
and the District of Columbia exercises command and/or control over all 
assigned, attached or operationally aligned forces. It acts as a 
standing, deployed joint force headquarters, within the geographic 
confines of the state/territory/commonwealth or district; it provides 
situational awareness of developing or on-going emergencies and 
activities to federal and state authority. As ordered, the Joint Force 
Headquarters, State provides trained and equipped forces and 
capabilities to the services and the Combatant Commanders for federal 
missions. The Joint Force Headquarters, State supports civil authority 
with capabilities and forces for homeland security and/or domestic 
emergencies.
    The Bureau is working to obtain Joint Staff approval for 
integration of this headquarters organization into the joint manpower 
process, specifically through submission of a Joint Table of 
Distribution, along with supporting documentation, by September 30, 
2004.
Joint Professional Military Education
    Joint Professional Military Education is the key to integrating the 
staffs of the fifty-four newly-created and the National Guard Joint 
Staff with the rest of the Defense Department. Credit for performance 
of joint duty is also a key factor in determining promotions in the 
active component, and increasingly within the reserve components as 
well. For this reason, in order to make the Bureau competitive with 
other joint duty assignments, ceilings for Joint Specialty Officer 
billets must be raised and billets must be allotted to the Guard. Guard 
officers also need increased access to resident Phase 2 Joint 
Professional Military Education. We are actively working with the Joint 
Staff in the Pentagon to explore ways of using the Guard's extensive 
Distance Learning facilities to expand Joint Professional Military 
Education opportunities to members of the military, regardless of 
service or component.
Reserve Joint Staff Duty at National Guard Bureau
    One of the Chief's early initiatives while meeting with the other 
reserve component chiefs was to obtain input and support for exchanging 
officers to serve on each other's staffs. This added capability is 
intended to assist in planning for the homeland security mission by 
sharing at an early stage a better understanding of the roles and 
specific security missions assigned to each component. For the first 
time in its 100-year history, Navy and Marine Corps Reserve officers 
are now serving as part of the Bureau staff, and Guard officers, in 
turn, have been assigned to their staffs. Similar exchanges are planned 
with the Coast Guard Reserve. These pioneers in the reserve joint staff 
arena are field grade officers currently assigned to the Operations and 
Plans and Policy equivalent directorates for a two-year period.
Joint Continental U.S. Communications Support Enterprise
    Under Section 10501(b), U.S.C. Title 10, one of the purposes of the 
National Guard Bureau is ``the channel of communications on all matters 
pertaining to the National Guard, the Army National Guard of the United 
States, and the Air National Guard of the United States, between the 
Department of the Army and the Department of the Air Force, and the 
several states.'' Therefore, an obvious role for the National Guard is 
to provide an interface for communications between federal and state 
agencies with regard to incidents involving homeland security. There is 
a requirement for U.S. Northern Command, as well as other federal 
agencies, to have ``continuous situational awareness'' of incidents 
occurring in the states related to homeland security and the associated 
activities of the National Guard while acting under the states' 
control.
    To meet these requirements, the Bureau has established a 
communications enterprise concept that meets the new homeland defense 
challenges and leverages the advantages of the National Guard's 
constitutional dual status under the state and federal governments. The 
proposed communications enterprise is the state-federal network 
connectivity concept named the Joint Continental United States 
Communications Support Enterprise.
    This enterprise will involve national level management and 
integration by the Bureau of long haul, tactical, and other service 
capabilities to provide U.S. Northern Command, Pacific Command and the 
Joint Force Headquarters, State with connectivity to and through state 
networks to an incident site. The enterprise includes the establishment 
of a National Guard Bureau Joint Operations Center; a state joint 
headquarters communications element; net-centric connectivity state-to-
state; vertical connectivity to incident sites, including a wireless 
capability; and a National Guard Homeland Security Communications 
Capability.
    In 2003, the Bureau took the first step by establishing a Joint 
Operations Center, and the Standing Joint Force Headquarters in each 
state are in the process of establishing a dedicated communications 
element. Planning and resourcing for the remaining program phases are 
ongoing.
National Guard Enterprise Information Technology Initiatives
    The National Guard continues to move aggressively in using 
information technology to support our warfighters and our missions at 
all levels, including Homeland Security and Homeland Defense. These 
initiatives are being implemented with an approach that is geared 
towards the National Guard Enterprise. Some examples of these 
initiatives from the past year include using Guard telecommunications 
resources, specifically distributed learning classrooms and video 
teleconferencing assets, to link Civil Support Teams in thirteen 
states. These resources have been used to provide critical pre-
deployment support for warfighters and their families. For example, at 
Indiana's Camp Atterbury mobilization site, readiness training was 
conducted for Soldiers during the day, and in the evenings, a ``Cyber 
Cafe'' was established where Soldiers checked e-mail and military 
accounts, took care of personal matters, and communicated with family 
members. During March and April 2003, nearly 10,000 Soldiers logged 
more than 327,000 minutes at this facility, providing substantial 
training efficiencies, but just as importantly, it was a great boost to 
Soldier and family morale. These same assets are currently being used 
throughout the organization to facilitate command and control for 
readiness of operating forces at levels never before available. Other 
examples are spread across the country, where Guardsmen are using newly 
provided capabilities to improve efficiency, effectiveness and morale.
    Another initiative is the development of the Virtual Mission 
Preparation capability. This is being used as a prototype to provide a 
web-based, portal technology that delivers the capability to portray 
real-time status of units and their overall mobilization readiness down 
to the individual Soldier level. It was developed in Pennsylvania in 
support of the 28th Division's rotation to Bosnia, and is now being 
applied to Operation Iraqi Freedom, and to the 56th Stryker Brigade of 
the Pennsylvania Army National Guard. Virtual Mission Preparation 
provides functionality that has application across the Army National 
Guard to improve deployability, as well as the capability to meet Army, 
Defense Department and emergency response mission requirements.
    The Bureau, through initiatives managed by the Communications 
directorate and the Chief Information Officer, is ensuring that the 
vision of supporting the warfighter and transforming the Guard is 
supported through an approach that casts off the old lock-step, stove-
pipe method to Information Technology and moves to a truly 
interconnected, net-centric information sharing capability.
Transforming the Mobilization and Demobilization Process
    Today's global environment does not allow for the luxury of time 
that our current Cold War era-mobilization process requires. The 
modern, smaller, all volunteer military needs access to the reserve 
components within days or weeks--not months.
    The U.S. Joint Forces Command was tasked by the Secretary of 
Defense to coordinate the development of a more agile and responsive 
process to mobilize units and individuals within the reserve 
components. As a result of this tasking, the command established 
``Tiger Teams'' that consisted of subject matter experts from the 
reserve and active components, defense agencies, and the Joint Staff to 
study the mobilization process and make recommendations.
    The Bureau fully participated in the workshops, endorsed the 
recommendations of these teams, and is working closely with the U.S. 
Joint Forces Command to improve the readiness and accessibility of the 
National Guard for its federal mission. In order for this to occur, the 
reserve components must be funded at a higher level of readiness and 
the mobilization process must be updated so that the efficiencies of 
automation and training during the course of the year can be 
capitalized upon.
    The lead agency within the Bureau for this effort is the newly-
organized Directorate of Logistics. They are the point of contact for 
all coordination and inquiries by the Office of the Secretary of 
Defense and combatant commands regarding logistical and mobilization 
matters as they relate to the National Guard. In the past, the Army and 
the Air National Guard had no Bureau-level counterpart to interface 
with the Office of the Secretary of Defense or with joint commands. The 
joint Directorate of Logistics fills this void and is designed to 
strengthen the interoperability of the Bureau with the other services 
and components.
    In addition to spearheading our efforts to reform the mobilization 
and demobilization process, the directorate is an active member of a 
newly formed multi-government agency committee of senior logisticians 
that is chartered to develop a National Logistics Strategy to support 
the National Response Plan. The group is working with U.S. Northern 
Command to identify all logistics sources to support Homeland Defense 
and Homeland Security needs. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Stevens. General Schultz.
STATEMENT OF LIEUTENANT GENERAL ROGER C. SCHULTZ, 
            DIRECTOR, ARMY NATIONAL GUARD
    General Schultz. Thanks, Mr. Chairman. I am honored to be 
before this committee.
    As you think about our soldiers--you already mentioned the 
highlight--they make our units special. They make our units 
what they are, and collectively they develop our units' 
capabilities.
    As we talk about the Army National Guard, today we have 
94,000-plus soldiers currently deployed. We have already 
demobilized over 54,000 soldiers.
    So, Mr. Chairman, our bottom line is readiness, and you 
have clearly helped us deliver what I am now talking about in 
highlight terms. Our posture statement gets at the detail, but 
I do want to reinforce a point that General Blum has already 
made and it has to do with Guard and Reserve equipment 
appropriation. That is a readiness-enhancing initiative for us, 
and I reinforce the importance of that.
    Mr. Chairman, I know this is a 2005 hearing, but I need 
your help getting through 2004. I have enough total money. 
There will be a request coming to this committee for 
consideration of moving some money from personnel accounts to 
operations accounts. I will give you just a brief update of 
what is going on. With all the mobilization activity, we have, 
no doubt, changed our training plans from 1 October of last 
year. So I would ask favorable consideration to move some of 
our personnel accounts in a reprogramming action into the 
operations and maintenance accounts where I have clear need for 
some of our mobilization-related kinds of activity.
    Mr. Chairman, thank you.
    Senator Stevens. We will look forward to that request and 
act promptly on it. I understand what you are after and we will 
work with you closely on that.
    General James.
STATEMENT OF LIEUTENANT GENERAL DANIEL JAMES, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General James. Mr. Chairman and members of the committee, 
thank you on behalf of the more than 107,000 Air National Guard 
men and women. Thank you for this opportunity.
    Before I give my remarks, I would like to introduce to the 
committee, if possible, Kentucky Air National Guardsman, Master 
Sergeant David Strasinger. Master Sergeant Strasinger is here 
with us today. He is a 20-year veteran. He has flown more than 
1,000 sorties in his career. That is 2,500 hours of safe 
flying. He is a combat veteran of 30 combat missions in 
Operation Enduring Freedom. He has also participated in Iraqi 
Freedom and Noble Eagle. From the 123rd Operations Group, 
Master Sergeant David Strasinger.
    Senator Stevens. Sergeant, it is nice to see that A-2 
jacket. That brings back lots of memories.
    General James. Well, Mr. Chairman, as you know, this has 
been an incredible year for our Nation and it has also been an 
incredible year for our Air National Guard. We have continued 
to participate in the global war on terrorism with pride and 
determination, and we have validated everything we have always 
said about our capabilities. We have trained to Air Force 
standards and accomplished the mission professionally as full 
partners in the total Air Force.

                        OPERATION IRAQI FREEDOM

    Our contributions over the past 2 years since September 
11th: we have mobilized over 36,000 members, flown over 100,000 
flights for 340,000 hours. One-third of the Air Force aircraft 
in Operation Iraqi Freedom were from the Air National Guard. 
Today over 42,000 personnel, nearly 40 percent of the National 
Guard's force, is currently performing full-time duty.

                        RECRUITING AND RETENTION

    We constantly monitor our recruiting and retention numbers, 
and I am very pleased to report that the trends so far are 
positive. We will and do expect to make our end strength for 
this year. Because we have retained more of our people, our 
recruiting goals are higher than need be. We have not recruited 
to those goals, but we will retain enough people to make our 
end strength.
    We are currently working on a plan to posture the National 
Guard for the missions our Nation will need in the future. The 
plan, or Vanguard as I call it, is an examination of our 
current capabilities and those required for our future air and 
space force. We are already well into developing initiatives 
for establishing the units that are integrated with the active 
and reserve component in the Guard for the F/A-22 Raptor and 
the RQ-1 Predator remotely piloted vehicle. Both of these are 
groundbreaking opportunities for the Air Guard and we are 
excited about the prospect of being involved in these new 
missions and weapons systems.

                             C-17 AIRCRAFT

    In December of 2003, the first C-17 aircraft was delivered 
to the 172nd Air lift Wing in Jackson, Mississippi, the first 
operational wing of its kind ever in the Air National Guard. 
The final aircraft will be delivered in May and will be named 
the Spirit of Sonny Montgomery in honor of Congressman 
Montgomery who has done so much for not only the National 
Guard, but for the Nation, the military, and its veterans. We 
look forward to that event and to the great things to come from 
this distinguished unit.

                                 KC-135

    The KC-135 tanker continues to be the backbone of our air 
bridge for combat operations across the world. Modernizing this 
aging fleet is critical to the Air National Guard, the Air 
Force, and combatant commanders. This committee has helped make 
and keep us relevant and is directly responsible for our 
ability to participate as full partners with the Air Force. 
Your exceptional support in providing the miscellaneous NGREA 
funds has been absolutely critical in enabling us to leverage 
our limited resources in an effort to bring needed capabilities 
to the warfighter. The procurement of such items as the 
Litening II targeting pod, upgrading the F-15 engines, and the 
situational awareness data link, or SADL, are some examples of 
how this appropriations has assisted us. We cannot thank you 
enough for your continued support of this very important 
program. With your help, I am certain that we will continue to 
be ready, reliable, and relevant and needed now and in the 
future.
    I look forward to answering your questions. Thank you.
    Senator Stevens. Thank you, Generals.

                                TANKERS

    General James, in November 2001, we suggested a leasing 
program to replace the KC-135's. Members of Congress and others 
outside of Congress have criticized our suggestion, but they 
have taken over 2\1/2\ years to review it and they have not 
come up with anything else. The first time any one of those KC-
135's goes down and one of your people loses a life, I am going 
to take it to the floor and point it out. And each one of those 
people who are delaying that proposal are going to be 
responsible. Those tankers are now what? Forty-four years old 
on the average, General?
    General James. Yes, sir. I think the oldest is 47 years 
old.
    Senator Stevens. It is just impossible to believe that. As 
you say, the most critical portion of our operations today is 
the tanker. We are airborne for almost everything that is going 
on in Iraq and Afghanistan, and I cannot believe that this 
should be delayed by just petty foolishness. It is time for 
them to come up with a program and get it underway. It will 
take 3 years before it is initiated, and take 5 years before 
you get the replacement. Those tankers are going to be over 50 
years old by the time they are replaced. That is criminal, 
absolutely criminal.
    Senator, do you have any comments, questions?
    Senator Inouye. You have said everything I would have said, 
sir.
    Senator Stevens. I mean, it is your turn.
    Senator Inouye. Mr. Chairman, I would have said the same 
thing that you have said about the tanker. If we let this 
fester any longer, it would be criminal, and I would hate to be 
a witness to its first accident.
    Is it okay to ask questions?
    Senator Stevens. It is your turn. Yes, sir. I used my time 
to blow off.

                               RECRUITING

    Senator Inouye. General Blum, the major concern that this 
committee has can be said in two words, retention and 
recruiting. What is your situation, sir?
    General Blum. Senator Inouye, speaking for the three of us 
at this front table, our major concern right now is readiness 
which translates directly to our ability to recruit and retain 
trained and ready citizen soldiers and airmen. My intuition 
would tell you that that would be very, very difficult in the 
situation and environment we find ourselves. However, in some 
cases, the successes that we are experiencing, is that our 
soldiers and airmen are reenlisting at very solid rates. They 
are staying with us. After they deploy to very unpleasant 
places around the world and put themselves in harm's way, they 
are staying with their formations, which brings a great sense 
of pride and satisfaction to the three of us at this table 
because our citizen soldiers and airmen are answering the call 
to colors and are remaining with us. This means we will have a 
veteran force of combat veterans which the Guard has not had 
since World War II. So in about 2 years, 8 out of 10 citizen-
soldiers and citizen-airmen in our formations will have pulled 
a tour somewhere around the world in harm's way and will be 
veterans of either a combat operation overseas in the away game 
or a homeland defense operation here at home. And that vast 
operational experience will make us an even more capable and 
ready force.
    I hope those young men and women from the high school in 
Alaska are listening because we are getting non-prior service, 
first-term enlistments out of high schools and colleges at an 
unprecedented rate. We are doing very well and the quality of 
our young men and women coming in has never been better.
    So the good news is we are making our end strength and we 
are maintaining our end strength now that we are almost 3 years 
into a shooting war that is very, very difficult and putting a 
strain on the force. But the trends seem to be holding. We do 
not take them for granted. We monitor it very closely. We are 
watching for any signs that this may fail, but so far the young 
men and women of our Nation are answering the call to colors.
    Senator Inouye. How would you describe the attitude of 
employers and families?

                               EMPLOYERS

    General Blum. Senator Inouye, as you well know, the 
National Guard is really very similar to a three-legged stool. 
One leg of that stool is the citizen soldier or airman. One is 
their family members, and the third leg, equally important, is 
the employer. So far the American employers have been standing 
with us.
    What they have asked us for time and time again, either 
through contacting their elected officials or contacting the 
National Committee on Employer Support for the Guard and 
Reserve, or calling us directly, as happens in some of our 
outreach programs, they simply want predictability. When is my 
employee going to be called to active duty? How long will they 
be away? When will they return? And how frequently will they be 
called back? How soon again will I have to lose that employee?
    So what we are doing is trying to set up a predictability 
model that will give employers, families, and the citizen 
soldiers and airmen a much greater picture further out. Right 
now we are out to about 18 months with predictability in the 
Air Guard and almost 24 months out with predictability in most 
of the larger formations in the Army National Guard. So this 
gives the soldier, the family, and their employer the 
predictability they have asked for.
    And we are also, to aid this, our transformation, 
modularity and rebalancing efforts are trying to put a greater 
number of high-demand capabilities in our force so that we do 
not have to rotate the same units so frequently. We are aiming 
for about a 5- or 6-year recovery time from an extended 
overseas deployment.

                               READINESS

    Senator Inouye. In your response to the first question, you 
mentioned three R's: retention, recruiting, and readiness. How 
would you describe the readiness of the forces under your 
command?
    General Blum. Senator Inouye, the National Guard soldiers 
that have deployed most recently to Afghanistan and Iraq are 
among the best trained, best equipped, best prepared soldiers 
this Nation has ever sent out of any of its components. As a 
matter of fact, they are probably the best trained, best 
equipped, and best prepared soldiers any nation has ever sent 
to war. So that pre-deployment part of it is superb.
    But there are large parts of our force that are not ready 
because they were not resourced to be ready. Part of our 
rebalancing and restructuring of the National Guard will take 
us to a posture where we can apply increased resources to 
achieve enhanced readiness.
    Senator Inouye. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Stevens. Thank you, Senator.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                                  C-17

    General James, I wanted to thank you for coming to Jackson, 
Mississippi for the arrival of the first C-17 that is deployed 
there for the Air National Guard to operate and maintain. I 
hope you are as pleased as I am with the progress that is being 
made to train the pilots and the crews. I understand the plan 
is to ramp up to an increased level of flying once all of the 
crews are qualified in the C-17.
    I am curious to know if your budget request contains the 
resources that are necessary in order to make this unit an 
active participant and to fully utilize these new assets.
    General James. Well, Senator, it was a great honor for me 
to be there and see that airplane roll down the runway and come 
in behind the grandstand with you and other colleagues, your 
colleagues from Mississippi.
    I am very proud of the fact that the leadership of the 
172nd remains engaged with us and Air Mobility Command (AMC) to 
make sure that the conversion goes smoothly. I just spoke with 
the Adjutant General yesterday about some plans to try to keep 
the airplanes flying and the training going on while still 
taking some pressure off of the air mobility assets that AMC 
has.
    In terms of our budgeting, when you have a conversion like 
that that starts into the fiscal year, we agreed with the 
Adjutant General (TAG) and with the leadership of the 172nd to 
budget at 80 percent rather than 100 percent of the flying 
hours for this fiscal year that we are currently in. We are 
using the model that we talked about earlier that came over 
from the 141. Once we train the crews and get the crews up to 
speed and get everybody checked out, we intend to look at all 
the data that we get from this first year's experience and then 
make an adjustment there so that we gradually ramp up to what 
or hopefully near what the active component is flying in their 
C-17 programs.
    Senator Cochran. I appreciate your leadership and your 
staying personally in touch with the needs of that unit.
    General James. Well, thank you, Senator. I have to tell you 
that the new TAG knows the airlift business, air mobility 
business very well and he does not hesitate to call me if he 
has got an issue.
    Senator Cochran. General Schultz, we were talking before 
the hearing began about the fact that Camp Shelby in 
Mississippi has been designated as a mobilization center. I 
would like for you to let us know whether this means that we 
will need to appropriate any additional funds beyond what is 
requested in the budget to ensure that that mission is carried 
out successfully.
    General Schultz. Currently, Senator, the 278 Cav Regimen 
from Tennessee will be mobilizing at Camp Shelby. Requirements 
for the installation of upgrades and various things will be 
processed through the Army. So right now today, I do not have a 
line item for you on what that requirement would be.
    Senator Cochran. Up in Tupelo, Mississippi, we have a unit 
that had helicopters. It is an Army National Guard unit. Some 
of the pilots have been deployed to Iraq, as a matter of fact. 
These are Kiowa helicopter pilots. Maybe General Blum is the 
one to respond to this. The report from the soldiers up there 
was that no replacement aircraft had been identified. Maybe 
they have by the time this hearing is held, but I understand 
the Army National Guard aviation distribution plan will be 
announced soon.
    Can you speak to this issue or give us any indication of 
what the plans are?
    General Schultz. Senator, I am working that plan 
personally. We will have 10 Kiowa Warriors, which is the 
aircraft that the unit had before we sent all the pilots off to 
active duty, to war. When we are done, there will be 8 Apaches 
in Tupelo plus the 10 Kiowa Warriors.
    Now, we are going through, obviously, a transformation in 
the aviation community as well, so some of the numbers I am 
talking about will take a while to be rebuilt, redistributed, 
but the end state would be a 16-helicopter flight facility 
there.
    I might also say, Senator, that I talked with the brigade 
commander from the 101st Air Assault Division, and the pilots 
we took from Tupelo were recognized as outstanding, skilled 
aviators indeed.
    Senator Cochran. We appreciate that compliment. We have had 
a lot of National Guard and Reserve forces from our State 
deployed. As a matter of fact, I think two Army Reservists have 
been killed in Iraq, so we are fully aware of the dangers they 
face and we want to be sure that the equipment they have and 
the training that they receive will enable them to carry out 
their mission successfully and to return home safely as soon as 
possible. We appreciate your leadership in assuring that.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much, sir.
    Senator Leahy.

                            HEALTH INSURANCE

    Senator Leahy. Thank you, Mr. Chairman.
    Last year the subcommittee recognized that almost 20 
percent of the National Guard and Reserve did not have health 
insurance. We realized that this was damaging readiness. On the 
Iraq supplemental, we enacted legislation that allows 
unemployed members of the Guard to buy into the TRICARE program 
on a cost share basis, and we put that in the defense 
authorization bill. It was a bipartisan piece of legislation. 
But it has not been implemented. I joined my colleagues, 
Senators Graham and DeWine and Daschle, recently to write the 
Secretary of Defense to find out how we can speed this up, stop 
slowing down this critical legislation. I would ask consent 
that my letter be part of the record, Mr. Chairman.
    Senator Stevens. Without objection.
    [The letter follows:]
                                      United States Senate,
                                    Washington, DC, March 25, 2004.
The Honorable Donald Rumsfeld,
Secretary, U.S. Department of Defense, The Pentagon, Washington, DC 
        20301.
    Dear Mr. Secretary: We are writing to express our mounting 
frustration with the Defense Department's lethargic efforts to 
implement a pilot program to provide our reservists access to TRICARE.
    As you know, in both the Fiscal Year 2004 National Defense 
Authorization Act (NDAA) and the Emergency Supplemental Appropriations 
Act, Congress voted to expand reservists' access to TRICARE for one 
year. This legislation contained seven TRICARE-related provisions, 
ranging from medical and dental screening for reservists alerted for 
mobilization, to an extension of TRICARE eligibility before and after 
mobilization periods.
    We were pleased last week to see that the Defense Department has 
finally implemented the provisions to extend the post-mobilization 
TRICARE benefit to 180 days. But the same announcement said that 
implementation of a critical component of the TRICARE benefit--offering 
coverage to those without employer-provided health care--``cannot be 
completed for several months.'' We are very disturbed by the delay in 
the department's implementation of this key provision.
    We are also concerned that transitional benefits will not provide 
access to TRICARE Prime Remote. Many reservists, and perhaps most, live 
beyond a 50-mile radius of a military treatment facility and thus would 
be forced into TRICARE Standard. This plan charges a substantial annual 
deductible as well as copayments for every visit. This is not the 
transitional benefit that Congress sought to create.
    In recent days, the Administration has indicated that it supports 
improving health care benefits for our reservists. We applaud that 
decision and ask that you work with us, both to implement the existing 
one-year program and enact our proposal to provide reservists and their 
families permanent access to TRICARE.
            Sincerely,
                                   Mike DeWine,
                                   Tom Daschle,
                                   Lindsey O. Graham,
                                   Patrick Leahy,
                                             Members of the Senate.

    Senator Leahy. General Blum, can you tell me why this has 
not been put into place yet? I would think there would be some 
urgency on this.
    General Blum. Senator Leahy, there is definitely urgency on 
our part. We place nothing at a higher priority than taking 
care of our soldiers, our airmen, and their families. I do not 
view this TRICARE initiative or this health care initiative as 
an entitlement program. I really view it as a medical readiness 
enhancement. I too am anxiously awaiting the implementing 
instructions from the Department of Defense on how we are going 
to move forward in this area.
    Senator Leahy. Well, please pass the word back that an 
awful lot of us up here from both parties--this is not a 
partisan issue, and you certainly have not made it one--who are 
very, very concerned. As we call up more and more of our Guard 
and Reserves, we would like this TRICARE implemented. If they 
keep delaying it at the Pentagon, I think it is going to hurt 
your readiness. It is certainly going to hurt retention. I know 
you and I have had a lot of discussions and I know how 
concerned you are.
    We added, in this subcommittee, about $200 million divided 
almost equally between the Air and Army National Guard to 
increase equipment procurement. We also gave the Air and Army 
Guard a lot of discretion, an enormous amount of discretion in 
managing the account. I have received an update on how you used 
the funds. It appears you put them toward an urgent need like 
up-armored high mobility multi-purpose wheeled vehicle (HMMWV), 
M-4 carbines, combat identification friend or foe systems. Do 
you still have an equipment backlog and what are some of the 
most urgent needs?

                           EQUIPMENT BACKLOG

    General Blum. Yes, Senator, we always will have an 
equipment backlog as technology changes and as the requirements 
change on the battlefield. General James has an equipments 
needs list as does General Schultz. These are not wants; these 
are needs. Frankly, the Army and the Air Force are making every 
effort to finally make an honest effort to equip us like our 
active counterparts, but they too are going to fall short. We 
will welcome any assistance that we could get in that regard 
against our needs list, and those needs directly equate to 
readiness. If you want some detail on that, General Schultz can 
share that on the Army Guard side and General James can give 
you the detail, sir, for the Air Guard.
    Senator Leahy. General Schultz.
    General Schultz. Senator, in the case of the Army Guard, we 
bought trucks, machine guns, night vision devices, and radios. 
The equipment I am talking about now is as a result of 
Congress' action last year. It will be realized in the form of 
units going to the third rotation of Operation Iraqi Freedom 
(OIF)-3. In other words, we are buying new equipment and 
furnishing this equipment to units that are about to go to war. 
That is how critical this function is. We are still short the 
very things that I have just talked about as we now alert and 
mobilize follow-on units.
    Senator Leahy. General James.
    General James. Yes, Senator. In terms of fiscal year 2004, 
we have utilized those resources I mentioned in my opening 
remarks on targeting pods, engine upgrades, everything from 
night vision goggles to helmet-mounted cuing systems and large 
aircraft infrared countermeasures which is something we 
continue to press for. We have a large fleet of large airplanes 
and I really am concerned about their ability to protect 
themselves against infrared man-launched shoulder-mounted 
weapons in theater in particular.

                LARGE AIRCRAFT INFRARED COUNTERMEASURES

    As far as the unfunded areas, the top five for us for this 
coming fiscal year would be again the targeting pods, depot 
maintenance shortfalls, weapons of mass destruction equipment 
and training, primarily training. Again, the LAIRCM, the large 
aircraft infrared countermeasures, and the F-15, F-16 engines.
    Senator Leahy. Thank you.
    I will submit my other questions for the record, if I 
might.
    Senator Stevens. Thank you very much, Senator. I will 
remind members that we do have a second panel.
    Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman.
    Each time I go home, I am just standing in marvel of what 
we have accomplished in the last 3 years as far as upgrading 
our Reserves and our National Guard in our home States.
    A decision was made some 10 or 11 years ago that part of 
our overall military force structure was going to be moved to 
the ranks of the National Guard and Reserves. It became 
apparent to me that when you look at the infrastructure in our 
particular States, our infrastructure was not ready to really 
train hard and to have the facilities, the infrastructure to 
complete that mission.
    So in my State, I went to work trying to fix that because 
we were operating out of facilities that were built in World 
War II. Our communications and our ability to teach 
interactively and distance learning and everything that we had 
to do was woefully way behind the state of the art. But now we 
have done that.

                            TRAINING RANGES

    I just want to mention to you, General James, about a 
training tool that we use in Montana at the 120th wing there on 
the Litening II advance targeting pods. I keep hearing my 
people talk about them. They have probably been the most useful 
thing. As you know, we ran out of ranges, places to train, air 
space in which to train. By the way, if any of you all want 
some air space, you know the sky is bigger in Montana. We have 
got room for you and we are willing to host you. I just thought 
that I would throw that out there.
    Senator Stevens. The sky is only bigger in Montana if you 
are lying on your back.
    Senator Burns. I am not going to go there.

                       LITENING II TARGETING PODS

    Could you bring us up to date on the Litening II targeting 
pods, if you would please, your requirements? Give us some idea 
of the cost of the program because it appears to me these will 
become a very, very economical way to train our pilots. Can you 
bring us up to date on that and tell us more about them? 
Because I do not think a lot of people know a lot about them.
    General James. Well, the Litening II targeting pod was, I 
would say, the piece of equipment that got us involved in the 
last few contingencies. The warfighters, the combatant 
commanders, want precision-guided munitions capability that can 
be delivered very accurately. My predecessor pursued this 
strategy to acquire the Litening II and they used the NGREA 
funds to do so. That capability allowed us to be involved in 
the last two to three contingencies, especially Iraqi Freedom 
and Enduring Freedom.

                               SNIPER POD

    I have a list of different numbers here that I can pass on 
to the staff, but what I would say to you is our philosophy is 
that there is another pod that has come forward. It is called a 
Sniper pod and it is produced by another corporation. It was a 
little delayed getting into production but now they are 
starting to produce this pod, and it is supposed to be the 
Cadillac of all pods.
    We still are procuring our Litening II pods and we have 
developed a two-pod procurement philosophy. In other words, we 
will continue to procure some Litening pods, but we will also 
procure the Sniper pod as it becomes more and more available.
    Senator Burns. Well, I congratulate on that.
    General Schultz, we are trying to update our 155's in 
Montana. Can you give us an update? Is that possible? We want 
to go to the lighter weight Howitzers up there. Is that 
possible? What plans do you have for us on those 155's?
    General Schultz. Senator, I owe you a complete answer for 
the record. We are going through those reviews right now. We 
had some 155's in our long-range program. Some of those numbers 
have changed, and I will give you a full lay down and a 
detailed description of just how we are doing there. It is 
possible to do what you are describing.
    Senator Burns. Thank you very much.
    [The information follows:]

  Fielding of Lighter Weight Howitzers for Montana Army National Guard

    No force structure decisions have been made with respect to 
the unit level of detail for the fielding of LW 155 equipped 
Army National Guard Field Artillery units. Montana is part of a 
two-state coalition that is attempting to go after a 
congressional add for the LW 155 Howitzer. Montana Army 
National Guard is not currently on any fielding schedule for 
the LW 155.

    Senator Burns. I have some more questions. I will offer 
them in writing, Mr. Chairman. Again, I want to congratulate 
the leadership because I think you have been visionary because 
we know we are not just a weekend Boy Scout camp anymore. We 
are there to do business. You have caught the imagination of a 
lot of young people. They are staying with you to somewhat of a 
surprise because we hear a little rhetorical going on every now 
and again, but for the most part, they are very, very 
optimistic and they are doing a great job. I thank the 
Chairman.
    Senator Stevens. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    First of all, let me thank all of you for your service and 
for what the men and women under your command do for this 
country.
    General Schultz, this weekend a member of the 142nd 
battalion that just returned from Iraq told us that they did 
not have enough sets of body armor. The young man indicated 
that when one soldier came back from patrol in Iraq, he took 
off his body armor and gave it to the next soldier going on 
patrol. Can you give me any information about what is the 
supply of body armor? Is there sufficient body armor in Iraq at 
this point?
    General Schultz. Senator, the condition you described early 
on in the first rotation of Operation Iraqi Freedom was no 
doubt exactly as the soldier outlined it to you. The Army has 
(OIF-1) been working hard on the distribution of the body 
armor. In Afghanistan and Iraq, there are adequate quantities 
of the inventory. We followed the 142nd battalion and they 
performed a significant portion of their mission without every 
soldier having the full-up body armor issued. That is correct. 
That has since been adjusted in theater, though. So we have 
taken the action that he outlined the concern for.
    Senator Dorgan. I will ask him more about that later, but 
the question is how much is in the country relative to the 
number of soldiers in the country.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    Let me ask you a question about BRAC. What will be the role 
of the three of you with respect to making recommendations to 
the Defense Secretary? My understanding is that only a handful 
of Air Guard and Air Force Reserve facilities were evaluated, 
General James, in the 1995 BRAC round. My understanding is that 
this BRAC round intends to look at all facilities of the Guard 
and Reserve. Is that correct, or am I wrong about that?
    General Schultz. Senator, if I could. In terms of the Army 
Guard, all our facilities fall below the threshold that BRAC 
considers. What I have said, though--and I encourage Adjutants 
General to do the same thing here--is we ought to volunteer to 
be considered for the survey, for the review, for the analysis. 
And then States would participate on a voluntary kind of basis 
for a site by site and a reconfiguration and redesign, et 
cetera. So there are aspects of the BRAC program I think we 
ought to take a serious look at and see the value-added or the 
advantage of what BRAC might bring us. So I have said do not 
just discount the BRAC benefits by saying nothing qualifies in 
the Army Guard.
    What I am saying is we ought to take a serious look at 
facilities that could be joint, facilities that may have 
qualities where we can just simply share costs with other 
services. Now, that will not apply to every kind of armory 
across the country, but it might to some. So that is what I 
have encouraged States to do.
    Senator Dorgan. General James.
    General James. We will be full participants in the BRAC. We 
are already working with the committees from the Office of the 
Secretary of Defense (OSD) all the way to the Air Force 
committees. The Air National Guard will be full participants in 
having an input into BRAC. To answer your questions, are all 
installations being looked at for BRAC, my understanding is 
yes, all installations will be looked at.
    Senator Dorgan. And that is a change from 1995. Is that not 
correct?
    General James. Correct.
    Senator Dorgan. If all of your units are full participants, 
what role will you have in making recommendations to the 
Secretary? I think I understand what role the other service 
chiefs have, but what role will you have?
    General James. We are involved with the Air Force. We 
participate through the Air Force and then on to the Department 
of Defense (DOD). My deputy, Brigadier General David Brubaker, 
sits on the committee that represents the Air National Guard 
and makes our inputs.
    Senator Dorgan. So you will participate through the Air 
Force Chief.
    I mean, there is a difference between regular Air Force and 
Air Guard because in the regular Air Force, you can close a 
base and move your troops. That is not necessarily the case 
with the Guard. Is that right?
    General James. That is our challenge. We cannot cut 
Permanent Change of Station (PCS) orders and just move our 
folks. We have to come up with a program whereby we can re-roll 
or integrate these forces into possibly a facility that is 
close by that is an active duty facility. Under the Vanguard 
concept, we are looking at those types of formations and those 
types of units whereby we have integrated Air National Guard 
and active duty. That does not work in every case as you look 
at the demographics and how we are spread out. In some places, 
that lends itself very well, in the large airplane community, 
for example, along the east and west coast where we have 
facilities that have the air mobility assets. But when you look 
at the heartland and your State and other States where you have 
fighter units spread out throughout the United States, you have 
to look very carefully. There is potential because you do have 
a large tanker base north of you, but all of this has to be 
taken into consideration.
    One of the things we are doing is we are asking for inputs 
from the States through the adjutants general for how they 
would do it if they were forced to remission or move.
    Senator Dorgan. Finally, General Schultz, in the Guard you 
recruit not just a soldier but their family because it is a 
citizen soldier and their family plays a significant role in 
this. I listened closely to your answer about retention and 
recruitment. I think it is critical to take a hard look and a 
close look at that because often what we are getting from 
families after long deployments is word that they are concerned 
about that. So one would expect there to be some concern 
showing up in recruitment and retention. I am really pleased to 
hear your report that it is not, but I think that your 
suggestion that you need to follow that very closely is an 
important one at this point.
    General Schultz. We watch it very closely, Senator.
    Senator Dorgan. I hope that those men and women who serve 
under you understand the gratitude of this committee and that 
this country is grateful for their service.
    Mr. Chairman, thank you.
    Senator Stevens. Senator Domenici.
    Senator Domenici. Thank you, Mr. Chairman. I had a series 
of four questions. I will try to get them in. If I do not, I 
will submit them.

                                  IRAQ

    Let me ask all of you. It would seem to this Senator that 
you must have had to change the activity expected from some of 
your units and some of the preparation in order to be used in 
this war in Iraq. When you hear of Reserves and National Guard 
units over there, you frequently hear that they are doing 
things that the regular Air Force is not doing and the regular 
Army is not doing. But could you tell me, when you say we are 
sending the best equipped, best trained people, what are you 
sending them over there to do? What are they principally 
involved in doing in Iraq?
    General Blum. Senator, I have been to Afghanistan and Iraq 
three times. I will be going there again in the next 2 weeks. I 
have been for each and every rotation, and I can assure you 
that the first rotation was not a pretty picture. They did not 
go over there as well-equipped as we currently are doing. They 
were trained and they were ready, but they were not equipped, 
and that has been brought up by several of the other Senators. 
They are absolutely correct. Those issues have been corrected. 
The United States Army, General Pete Schoomaker has moved lots 
and lots of effort and money to making us the best equipped, 
best trained, best prepared force that has ever been deployed, 
and I mean that sincerely, bar none, in the history of this 
Nation. The group that is over there now, the 30th, the 39th, 
the 81st, and the 116th, the 278th, 256th, and the 42nd that 
are getting ready to go will be the best equipped and trained 
and superbly ready force we have ever sent.
    What they do is what the combatant commander needs them to 
do on a given day because this is not a training exercise. This 
is a war where an enemy has a vote, and unfortunately, he votes 
often and differently each time, and we have to make those 
adjustments.
    The performance of the citizen soldier and airmen that have 
been sent overseas has been nothing short of outstanding, 
superb. They have not failed in anything they have been asked 
to do. They can perform at the same rate or better than their 
active duty counterparts because of their civilian-acquired 
skills and some of their maturity and education levels are a 
little bit higher.
    Senator Domenici. General, let me interrupt. I understand 
your answer and I appreciate it.
    It seems to me when you talk about the success rate at 
keeping these people in that somebody like me wonders are they 
staying in expecting to be overseas or are a lot of them 
expecting to be part of a mission that does not take them 
overseas?
    General Blum. Sir, in the last 3 years no one has come into 
the National Guard because they think they are coming in 
strictly for a college education or military vocational 
training. They know they are going to have to answer the call 
to colors. They know they are going to be serving, defending 
this Nation either here at home or abroad, and maybe both. In 
fact, some of the people on the panel have done all three. They 
are staying with us because they feel what they are doing is 
vitally important to the survival of this Nation and our way of 
life and our liberties. I thank God every night that we have 
young citizens in this country that are willing to do that. 
When you remember that we are now in our 30th year of no draft, 
all volunteer, all recruited force and being tested for the 
first time in the crucible of war, this young generation is 
standing up to that test and getting high marks.
    Senator Domenici. Thank you very much.
    I want to just say I had three questions and I am just 
going to outline them. One has to do with a lot of families in 
rural areas. New Mexico is a very rural State. The families do 
not know their benefits, do not know what they are supposed to 
get, do not know what they are entitled to, and they are not in 
Albuquerque. They are off in some little rural area. Could 
there be some kind of centralized office that could provide 
Guard and Reserve families with information regarding what they 
are entitled to, or is that being done in your opinion?
    General Blum. Sir, we have over 400 centers called Family 
Assistance Centers where any member of the Army National Guard, 
Air National Guard, or any of the other services, whether 
reserve or active, can contact that unit armory and speak with 
a trained representative who can tell them all of their 
benefits and direct them almost as an ombudsman to solve their 
problems. That is what they are there for. They are funded and 
they are established and they are trained to take care of the 
families of soldiers, sailors, airmen, and marines who happen 
to live in a ZIP code where there is no major military 
installation to help them.
    Senator Domenici. So if we are receiving complaints about 
that, what we ought to do is have them check where their 
closest center is, and if there are not any, we ought to 
complain to you.
    General Blum. Absolutely. In your case, sir, I would direct 
them right to see General Montoya and have him direct them to 
the local closest Army National Guard or readiness facility 
that could support their efforts.

                             BLENDED UNITS

    Senator Domenici. My last one has to do with blended units. 
We understand that the National Guard unit in California and an 
active duty Air Force squadron in Nevada recently formed what 
they called a blended wing for the operation of Predator 
unattended aerial vehicles (UAV). How is this concept working? 
And do you see an increased role for the Guard in operating 
UAV's for the border? And do you and the Air Force plan to 
expand the number of blended wings? If so, for what purpose?
    General Blum. I personally think it is the way of the 
future. I think it makes sense for the American taxpayer to 
leverage the Department of Defense's capabilities by getting 
the synergy of the active, the Reserve, and the Guard 
components. That unit that you talk about is an Air Force 
Reserve unit, an active Air Force unit, and two Air National 
Guard units that make up that unit. We call that an integrated 
unit because it is fully integrated. All three components 
comprise that unit and I think that makes great sense as we 
move into the future and we use our Guard and Reserve as an 
operational force, not a strategic Reserve.
    Senator Domenici. Could I have one more, Mr. Chairman?
    Senator Stevens. Yes, sir.
    Senator Domenici. In New Mexico, it seems like a 
restructuring is taking place. The National Guard leadership is 
developing a plan and an organization to convert much of what 
we have got there from air defense to infantry military police 
and other units. Is this in line with what you want, and do 
these kind of missions reflect a larger plan for building the 
National Guard for the future, reflecting perhaps a change of 
needs?
    General Blum. Senator, I applaud those efforts being taken 
by the joint force headquarters in New Mexico. It is exactly 
the right thing to do. They are divesting themselves of units 
that are no longer needed for current and future threats and 
moving it to areas to develop capabilities that that State will 
need and our Nation will need from its National Guard forces in 
New Mexico. General Montoya is doing exactly, in my judgment, 
the right thing at the right time.
    Senator Domenici. Thank you. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, gentlemen. I have only one 
question and that is this. When we were in Iraq, we pursued to 
a great extent the question of the dumps of ammunition and 
ordnance that exist all over that country. We were told there 
are from 1,000 to 7,000 of those dumps in that country and that 
the current deployment is not sufficient to guard them. They 
represent a massive amount of weapons of destruction. We have 
been looking for weapons of mass destruction. This is a massive 
amount of weapons of destruction. It appears that some of them 
were taken out, tied together, and blew up an Abrams tank and 
others have been used as mines in the roads.
    I do not want your response, but I would like you to go 
back to your offices and take a look at that and see what would 
it take to send over a force designed for one purpose and that 
is to gather up that ordnance, either destroy it or drop it in 
the ocean or do something with it because it is going to be 
consistently used to harm our American personnel if we do not 
do something about it. We are asking the Department to look at 
it too, and I intend to go further on it before the year is 
over. But I do think it is going to take a special force of 
people that would be trained to know how to deal with that 
ordnance and to move it somewhere, at least get it to where we 
can guard it. Currently very few of those dumps are guarded. So 
I appreciate your response if you would get it to me.

                     ADDITIONAL COMMITTEE QUESTIONS

    I also have some questions I will submit for the record, as 
did several members of this committee.
    I want to thank you all again and tell you what a wonderful 
job we know your people are doing. I have said before Senator 
Inouye and I were supposed to be part of the greatest 
generation. We spawned a greater generation. These young people 
are just fantastic people. I have never met anybody like those 
people who are over there, and that includes the ones that are 
in the hospital. They are just fantastic. Thank you all very 
much, gentlemen.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General H. Steven Blum
             Question Submitted by Senator Daniel K. Inouye
    Question. One of my constituents, Atlantis Cyberspace, Inc. has 
developed what seems to be an extremely flexible Immersive Group 
Simulation system capable of providing superb training opportunities 
for Reserve component forces. Their basic solution provides four 
virtual reality pods, a live virtual camera system, a mission control 
instructor-operator station, training scenarios based on situations and 
graphics developed for ``America's Army'', a full runtime license, and 
set-up and installation. That basic system can be easily expanded from 
four to up to 32 pods and has additional options including expanded 
After Action Review stations, wireless or customized weapons, and force 
feedback vests that record opposing force hits. This existing 
flexibility allows realistic training for a range of needs: from small 
special operations teams up to platoon-sized conventional units. The 
scenarios can be modified to train specific tactics, techniques and 
procedures or to conduct mission rehearsals, in fact I understand that 
Atlantis Cyberspace has recently been asked to submit a proposal for a 
modification of their basic system to allow tactical convoy training in 
a virtual environment. The pods can be linked from different locations 
to allow individuals to train together while physically separated and 
the system is sufficiently compact to allow its deployment in austere 
locations or small training spaces.
    Atlantis Cyberspace has had some initial contact with the National 
Guard, but I am interested in your assessment of the training 
opportunities offered by their Immersive Group Simulation. Could you 
please have the appropriate members of the Bureau look at the system 
and provide me your thoughts on the utility of the system?
    Answer. We are aware of the system and have had contact with 
Cyberspace but have not as yet completed a full assessment of its 
applicability to Army National Guard Training. Once a complete 
assessment is completed, we will forward a copy of the review to you.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy
                           homeland security
    Question. General Blum, The past has shown that there are times 
when it is necessary to have access to military equipment and personnel 
to perform certain functions in a state and local setting. We have made 
provisions in previous years to allow National Guard members to perform 
certain missions such as counter-drug and weapons of mass destruction 
civil support in a separate status that would not violate posse 
comitatus. Do you feel that domestic operational use of National 
Guardsmen in a title 32 status would aid in providing the necessary 
flexibility for our states to respond to domestic emergencies such as 
unprovoked terrorist attacks?
    Answer. Providing clear authority for the National Guard to perform 
operations--in addition to training--under Title 32 would significantly 
strengthen the flexibility for addressing domestic missions. As you 
state, the counter-drug activities and weapons of mass destruction/
civil support team operations have been quite successful. I would also 
add that the airport security mission and the recent mission in support 
of the G8 conference and similar major events have also demonstrated 
the wisdom of having National Guardsmen perform operational type 
missions while remaining under the command and control of states. One 
of the major benefits, as you point out, is the resulting ability of 
National Guardsmen to assist in both federal and state law enforcement 
free from the restrictions of posse comitatus.
    Also, important, is the great speed and agility inherent in Title 
32 operations. Because National Guard troops are already under the 
command of their state Adjutants General they can very rapidly be 
called to duty and, likewise, can easily be released from duty. No 
cumbersome federal mobilization and deployment process is needed.
    For this reason, I would urge that any amendment of Title 32 to 
provide operational authority do so in such a manner as to minimize the 
number and types of administrative prerequisites which might slow down 
the process and thereby destroy the speed and flexibility which are 
among the most important characteristics of Title 32 operations in the 
first place.
                                 ______
                                 
       Questions Submitted to Lieutenant General Roger C. Schultz
              Questions Submitted by Senator Conrad Burns
                           homeland security
    Question. What is your plan for the procurement of more M777, 
Lightweight 155-millimeter howitzers (LW155) for the Army National 
Guard?
    Answer. Money previously programmed to field all six battalions in 
the Army National Guard has been reprogrammed to fund the Army's 
Stryker brigades and leaving the Army National Guard with an unfunded 
requirement of four battalions--two-thirds--of the Army National 
Guard's total requirement for LW155 corps battalions. A battalion set 
of LW155 costs $35 million, which includes howitzers equipped with the 
digitization package, initial spares, new equipment training and LW155 
unique associated items of equipment and test sets.
    Question. I am interested in your plans for the expansion of the 
force structure of unmanned aircraft into the Army National Guard; can 
you provide me with a plan showing which systems will be brought into 
Army National Guard units and a timeline for that implementation?
    Answer. It is my intention to build modernized force structure 
which mirrors the modular design of the Active Army. These designs will 
be implemented between now and fiscal year 2010 and follow, as nearly 
as can be projected, the return of units from Peace Keeping or GWOT 
missions. When the plan is completely implemented the Army National 
Guard (ARNG) will have 34 fully equipped and trained Shadow 200 
Tactical Unmanned Aerial Vehicle (TUAV) Platoons. In order to meet this 
timeline the activities of a number of organizations to include the 
state National Guards; the operations, personnel, acquisition, force 
structure and training staff elements of both HQDA and NGB as well as 
manufacturers must be coordinated. At present, two TUAV platoons (from 
the Pennsylvania and Maryland Guards) comprised of 22 soldiers are 
training at Fort Huachuca as part of a Mobilize-Train-Deploy scenario. 
These units will leave equipment fielded to them in the theater of 
operations as they will be followed by platoons from the Minnesota 
ARNG. The 116th Brigade which is headquartered in Idaho shares force 
structure with the Oregon and Montana Army Guards and will convert to 
the modular design in fiscal year 2006.
    Question. What is your plan to decrease the stress on certain 
specialties such as Military Police and Civil Affairs due to high 
mobilization rates within the Guard?
    Answer. Current operations and future operations continue to 
require increasing numbers of military police units. This requirement 
is not likely to decrease in the near future. In order to meet on-going 
requirements, the Army National Guard committed to build 144 new 
military policy units, in addition to the 118 military police units the 
Guard presently has, between now and September 2009. The Army National 
Guard provisionally organized 16 military police units to fill the 
immediate need for additional military police for law and order mission 
inside the Continental United States, Hawaii, and military 
installations in Germany, but some of these provisional units will 
return to their original structure when missions complete. In addition, 
the Army National Guard accelerated the activation of two military 
police combat support companies. The Active component and the Army 
Reserve own all Civil Affairs functions.
                                 ______
                                 
      Questions Submitted to Lieutenant General Daniel James, III
              Questions Submitted by Senator Conrad Burns
                            litening ii pods
    Question. What are your requirements for the Litening II Pods for 
the Air National Guard?
    Answer. The LITENING family of targeting pods has evolved from the 
original LITENING II to ER (Extended Range) and now to AT (Advanced 
Technology). The LITENING AT pod is equipped with a 512k FLIR, Laser 
Spot Track (LST), and the capability to target J-Series Weapons. The 
Northrop Grumman LITENING AT targeting pod (TGP) is comparable to 
Lockheed Martin's Sniper XR.
    The total targeting pod requirement for the Air National Guard is 
266 pods that includes 203 for Block 25/30/32/42 F-16s and 54 for the 
A-10. This breaks down to 8 TGPs per squadron plus spares. The ANG has 
87 LITENING TGPs in the inventory, with 25 LITENING ATs on order, 12 
Sniper XRs on order, and 70 Sniper XRs to be received from the active 
duty Air Force. The remaining requirement is 63 TGPs at a unit cost of 
$1.3 million per pod for a total price of $81.9 million.
                               f-16 fleet
    Question. Is the Air Force adequately funded to provide these pods 
to the F-16?
    Answer. No. The United States Air Force currently has 470 LANTIRN 
Targeting Pods (TGP) in its inventory, which has a single mode Forward 
Looking Infra-Red (FLIR) and does not have a TV mode, Laser Spot Search 
and Track (LSS/LST), Laser Marker (LM), or the ability to generate J-
series weapons. The total documented requirement for the Combat Air 
Forces (CAF) is 679 3rd Generation TGPs. The United States Air Force 
has budgeted for 200 Sniper XR targeting pods, with 56 on contract. The 
United States Air Force, Air National Guard, and AFRC have a total of 
134 LITENING pods in their inventories. This leaves the CAF 345 TGPs 
short of our documented requirements.
    The United States Air Force and Air National Guard combined forces 
in February 2000 to develop and procure the Advanced Targeting Pod 
(ATP). Lockheed Martin's Sniper XR pod won an open competition for the 
ATP contract, and the Air National Guard is supposed to receive 70 of 
the first 176 Snipers that are procured. Sniper is over a year and a 
half late, and the Air National Guard is still waiting to receive the 
first TGP from the United States Air Force. LITENING has helped satisfy 
ANG requirements in the interim.
                        litening targeting pods
    Question. What will be the impact if these Litening targeting pods 
are not adequately funded?
    Answer. The Air National Guard has been sharing LITENING Targeting 
Pods (TGP) between units since 1998. At the present time, we only have 
enough pods for units to get a minimum of 3 months worth of training 
before they deploy to theater. When a unit returns home, they typically 
go 3-6 months without any TGP training capability. Funding the 
remaining 63 LITENING pods and receiving 70 Sniper pods from the United 
States Air Force will allow the Air National Guard to permanently base 
8 pods plus spares at each unit. This will keep the Air National Guard 
from constantly moving TGPs, provide better training continuity, and 
establish unit ``ownership'' of pods that will improve their overall 
maintainability.
                           unmanned aircrafts
    Question. I am interested in your plans for the expansion of the 
force structure of unmanned aircraft into the Air National Guard; can 
you provide me with a plan showing which systems will be brought into 
Air Guard units and a timeline for that implementation?
    Answer. We are currently working with Air Combat Command, the lead 
command for unmanned aircraft, to develop a plan to support and 
integrate Air National Guard units into unmanned aircraft operations 
and maintenance. To date, the ANG has been processing, exploiting, and 
disseminating intelligence from Predator, Global Hawk, and U-2 missions 
over Iraq and Afghanistan. In particular, the 152 Intel Squadron (NV 
ANG) was the sole exploiter of Global Hawk imagery during OPERATION 
IRAQI FREEDOM and OPERATION ENDURING FREEDOM. We are currently 
expanding our exploitation capability by robusting our current 
intelligence units [117 Intel Sq (AL ANG), 123 Intel Sq (AR ANG), and 
152 Intel Sq (NV ANG)] and standing up additional units in California, 
Georgia, Hawaii, Kansas, Maryland, Texas, Utah, and Virginia.
                     tactical and strategic airlift
    Question. Are you finding that your tactical and strategic airlift 
capabilities adequate?
    Answer. ANG internal tactical (theater) and strategic capabilities 
are more than adequate to meet Air National Guard training, non-
deployed mobility and exercise support needs. The issue is that ANG 
resources are part of a larger, Air Force/National Defense set of 
requirements determined by the Air Force and the Joint Staff. Whether 
overall capacity is sufficient to meet national strategy and 
warfighting needs is currently under study. The issue is beyond the 
capacity of the ANG to answer.
    Question. Is tactical and strategic airlift funded adequately in 
the fiscal year 2005 budget?
    Answer. There are shortfalls in funding both tactical and strategic 
airlift in the fiscal year 2005 budget. On the tactical side, 
additional unbudgeted C-130J aircraft are required to meet the 
previously agreed total force acquisition profile and funding is 
lacking for combatant commander and AMC mandated (but not funded) night 
vision goggle capability and aircraft defensive systems. The strategic 
airlift mission area is under funded in fiscal year 2005 in the amount 
of $1.7 million for the cost of C-5 simulator installation at Memphis, 
TN as part of the ongoing 164th Airlift Wing conversion from C-141 to 
C-5 aircraft. There is a critical shortfall of $63 million in fiscal 
year 2005 to cover the cost of required support equipment required for 
the incoming C-5s at Memphis and at the subsequently converting 167th 
Airlift Wing at Martinsburg, WV. This equipment is not being flowed 
from AMC with the aircraft and is acquisition lead-time away.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF, 
            ARMY RESERVE
    Senator Stevens. Our next panel will be the Reserve chiefs, 
Lieutenant General James Helmly, Vice Admiral John Cotton, 
Lieutenant General Dennis McCarthy, and Lieutenant General 
James Sherrard. If you would please join us, gentlemen.
    General McCarthy, can you tell us who those people are? One 
of them is your son I understand. Captain, it is nice to have 
you join your father. We appreciate it very much.
    General McCarthy. The young captain back there is Captain 
Michael McCarthy who is on active duty with the Marine Chemical 
Biological Incident Response Force (CBIRF) unit here in 
Washington who wanted to come and see a hearing today. Thank 
you for asking me that, sir.
    Senator Stevens. It is not very educational today, but that 
is fine.
    General Helmly, are those people behind you here for 
introduction?
    General Helmly. Yes, sir. This is Staff Sergeant James 
Gwiazda and Sergeant Paul Hutton, both members of the 299th 
Engineer Bridge Company of Fort Belvoir, Virginia, which fought 
the road to Baghdad and bridged the Euphrates River for the 3rd 
Infantry Division in its decisive attack on Baghdad.
    Senator Stevens. Well, we are proud to have you with us, 
gentlemen. Thank you very much.
    All of your statements will be printed in the record as if 
read. We appreciate your summarizing whatever you wish to say 
before us today. There is a debate going on on the floor now 
unfortunately, but General Helmly, let us start with you 
please, sir.
    General Helmly. Mr. Chairman and members of this 
distinguished subcommittee, thank you so much for the 
opportunity and indeed the privilege to testify on behalf of 
the 211,000 soldiers, 12,000 civilian employees, and indeed the 
families, as we noted here today, of the Army Reserve, an 
integral component of the world's greatest army, an army at war 
for a Nation at war.
    I am Ron Helmly and I am an American soldier in your Army 
and very, very proud of it, Mr. Chairman. I am joined this 
morning, as we noted, by Staff Sergeant James Gwiazda and 
Sergeant Paul Hutton, both of the 299th Engineer Bridge 
Company.
    Today, as we speak, nearly 60,000 Army Reserve soldiers are 
on active duty in Iraq, Kuwait, Afghanistan, here in the 
continental United States, and elsewhere around the world as 
part of our Nation's global war on terrorism, serving 
courageously and proudly. They are joined by another 151,000 
Army Reserve soldiers currently training and preparing for 
mobilization or, indeed, resting and refitting after being 
demobilized and redeployed.
    Since September 11, 2001, more than 100,000 Army Reserve 
soldiers have served on active duty as a part of this war. 
Tragically, 31 Army Reserve soldiers have made the ultimate 
sacrifice, 4 in just the last week, in service to our Nation to 
keep their fellow citizens and their families and neighbors 
safe and free. We are forever and deeply in their debt and 
honor their memories by our actions here today.
    Your invitation to testify comes at a time of profound and 
unprecedented change and challenge in the dynamics of our 
Nation's security environment. A critical issue that should be 
recognized is that this is the first extended duration war our 
Nation has fought with an all-volunteer force. January marked 
the 30th anniversary of the all-volunteer force. This immense 
policy change in our Nation has brought the Army Reserve and 
the armed forces an unheard of and unprecedented quality of 
those who populate our ranks. Yet, the all-volunteer force also 
brings expectations and sensitivities that we must confront 
with regard to how we support our people and how we train them 
and how and when we employ those people.
    To meet the demands of our Nation and the needs of our Army 
and joint force team, we must change the way we man the Army 
Reserve. We must change the way we organize, train, and prepare 
the force. This is a period of deep change from the old to the 
new, but we must forge this change while simultaneously 
continuing the fight in the current war. We are not afforded 
the luxury of hanging a sign outside our Army Reserve command 
headquarters in Atlanta that says ``closed for remodeling.'' 
The culture must change from one that expects 1 weekend a 
month, 2 weeks in the summer, to one that understands I am 
first of all an American soldier. Though not on daily active 
duty, before and after a call to active duty, I am expected to 
live to demonstrate Army values. I must prepare for 
mobilization as if I knew the hour and, indeed, the day that it 
would come.
    Thank you, Mr. Chairman. I look forward to your questions.
    Senator Stevens. Thank you, General.
    [The statement follows:]
        Prepared Statement of Lieutenant General James R. Helmly
                              introduction
    Mr. Chairman and members of this distinguished subcommittee, thank 
you for the opportunity and the privilege to testify on behalf of the 
211,000 Soldiers, 12,000 civilian employees, and the families of the 
United States Army Reserve, an integral component of the world's 
greatest Army; an Army at war for a nation at war. I'm Ron Helmly, and 
I'm an American Soldier in your Army, and proud of it.
    Today as we speak, nearly 60,000 Army Reserve Soldiers are on 
active duty in Iraq, Kuwait, Afghanistan, in the continental United 
States, and elsewhere around the world as part of America's global war 
on terrorism, serving courageously and proudly. They are joined by 
another 151,000 Army Reserve Soldiers training and preparing for 
mobilization or resting and refitting after being demobilized. These 
modern-day patriots are your neighbors who live in your communities, 
work in your factories, teach your children, deliver your babies, your 
mail, and share your everyday lives. They have willingly answered the 
call to duty to perform missions they have trained for, and to honor 
their commitment as part of a responsive and relevant force, an 
essential element and indispensable component of the world's finest 
land force, the United States Army.
    The strength and added value we bring to that partnership is drawn 
from the people who serve in our formations. With nearly 25 percent of 
its Soldiers female, and more than 40 percent minority, the Army 
Reserve is the most ethnically and gender-diverse force of all the 
armed services. Overall, 92 percent of our force holds high school 
diplomas. Our force consists of individuals who are community and 
industry leaders, highly trained and educated professionals, experts in 
their chosen fields who give of their time and expertise to serve our 
nation.
    Since September 11, 2001, more than 100,000 Army Reserve Soldiers 
have served on active duty as part of the global war on terrorism. 
Tragically, 21 Army Reserve Soldiers have made the ultimate sacrifice 
in service to our nation to keep their fellow citizens and their 
families and neighbors safe and free. We are deeply in their debt and 
honor their memories by our actions here today.
                             the challenge
    Your invitation to testify comes at a time of profound and 
unprecedented change and challenge in the dynamics of our nation's 
security environment. Since September 11, 2001, we have been embroiled 
in a war with wily, determined enemies, who are intent on destroying 
our very way of life. In this global war on terrorism, we are 
confronting regional powers; facing the potential use of weapons of 
terror and mass destruction at home and abroad; and struggling with the 
challenges of how to secure our homeland while preserving our precious 
rights and freedoms. From the start, we have understood that this will 
be no brief campaign or a short war. It will be an enduring global war, 
a protracted war, a long struggle that lacks clear, well-defined 
borders. Have no doubt, it is a war. It challenges our national will 
and our perseverance. It tries our patience and our moral fiber. It is 
a war different, just as all previous wars have been different. Unlike 
previous wars the Army fought here on our own soil, where we in the 
armed services must be continually ready to carry out our mission when 
and where the nation calls.
    As we engage these enemies we recognize that carrying out current 
missions is not by itself sufficient. The very forces that cause this 
war to be different have propelled the world into a period of 
unprecedented change and volatility. We live in a much-changed world 
and we must change to confront it. We must simultaneously confront 
today's challenges while preparing for tomorrow's. The Army will 
maintain its non-negotiable contract to fight and win the nation's wars 
as we change to become more strategically responsive and dominant at 
every point across the spectrum of military operations. The confluence 
of these dual challenges, transforming while fighting and winning, and 
preparing for future wars, is the crux of our challenge--transforming 
while at war.
    Last year was my first opportunity to address this subcommittee as 
the Chief, Army Reserve. I told you then that I was humbled and sobered 
by that responsibility. That feeling remains and indeed has grown more 
profound. The Army Reserve is an organization that daily demonstrates 
its ability to be a full and equal partner, along with the Active 
component of the Army and the Army National Guard, in being the most 
responsive dominant land force the world has seen. Together with the 
Marine Corps, Navy, Air Force, and Coast Guard, the Army Reserve of 
your Army fights as part of the joint team: the sum of the parts is 
much greater--and that's the power we bring to the battlefield today.
                          all-volunteer force
    A critical issue that should be recognized is that this is the 
first extended duration war our nation has fought with an all-volunteer 
force. January marked the 30th anniversary of the all-volunteer force. 
This tremendous policy change in our Nation has brought the Army 
Reserve, and the Armed Forces, an unheard of quality of people. Yet the 
all-volunteer force also brings expectations and sensitivities that we 
must confront with regard to how we support our people, and how we 
train them, and how and when we employ those people.
    Title 10 of the United States Code directs the Army Reserve to 
provide units and Soldiers to the Army, whenever and wherever required. 
Since 1973, the Active and Reserve components have met this challenge 
with a force of volunteers, men and women who have freely chosen to 
serve their nation. Perhaps more than any other policy decision, this 
momentous move from a conscript force to a force, Active and Reserve, 
manned solely by volunteers has been responsible for shaping today's 
armed forces, the most professional and capable military the world has 
seen. Working through this sea change in how we lead our force has 
highlighted differing challenges that we simply must recognize and 
address if we are to maintain this immensely capable force.
    During a recent conference celebrating 30 years of the All-
Volunteer Force (AVF) policy, former Secretary of Defense Melvin Laird 
discussed its genesis. He explained that while from the start, it was 
understood that the policy would apply to the Total Force, in reality, 
after the AVF was established, the focus tended to be almost 
exclusively on manning the Active component--understandable since it 
was the tip of the spear. But as a result, manning the Reserve 
components became, in effect, an accidental by-product of manning the 
Active component. This lack of a deliberate focus has hindered the 
development of force-manning policies that recognize the unique nature 
of Reserve service. As a result, the ``one weekend a month and two 
weeks in the summer'' paradigm was created. For almost three decades, 
that paradigm has remained largely intact. The world has witnessed 
major change since we started relying on an all-volunteer force. And 
yet we, in the Army Reserve, allowed the continuance of expectations 
for our most critical element--our people--our volunteers--for a world 
that no longer existed.
    To meet the demands of our nation and the needs of our Army and 
joint force team, we must change the way we man the Army Reserve, we 
must change the way we organize, train, and prepare the force, and to 
accomplish this change, the culture must change. This is a period of 
change from the old to the new. Forging a new paradigm is akin to the 
depth of change the Department of Defense endured when transitioning 
from a conscript force to an all-volunteer force. But we must forge 
this change while simultaneously continuing the fight in the current 
war. We are not afforded the luxury of hanging a sign outside the U.S. 
Army Reserve Command headquarters that says, ``Closed for Remodeling.'' 
The culture must change from one that expects ``one weekend a month, 
two weeks in the summer'' to one that understands ``I am, first of all, 
a Soldier, though not on daily active duty, before and after a call to 
active duty I am expected to live Army values; I am expected to prepare 
for mobilization as if I knew the day and the hour that it would come. 
I use my civilian skills and all that I am to perform my military 
duties. I understand that I must prepare to be called to active duty 
for various periods of time during my military career while 
simultaneously advancing my civilian career.''
    The Army Reserve is part of a public institution founded in law. 
Our mission and our responsibility come from this law. I would like to 
note that the law does not say for big wars, little wars, short wars or 
medium wars, it says whenever our Army and our armed services and our 
nation require us, we are to provide trained units and qualified 
individuals. We must change to continue fulfilling the mandate of that 
law while simultaneously perfecting and strengthening the quality force 
we have today.
                            accomplishments
    The past year has been a full one for your Army Reserve, marked by 
great efforts and remarkable achievements. Among the most significant 
have been:
At War--Army Reserve Soldiers Called to Active Duty in 2003
    In 2003, the Army Reserve called to active duty and deployed nearly 
70,000 Soldiers, more than 30 percent of the Army Reserve's 205,000 
Selected Reserve end strength, to Afghanistan, Iraq, Kuwait, and 
theaters around the world in support of Operations Enduring Freedom, 
Iraqi Freedom, Noble Eagle, and other contingency operations.
377th Theater Support Command Operates Logistics on the Battlefield
    The seamless integration of the Army's Active and Reserve 
components was epitomized by the Army Reserve's 377th Theater Support 
Command during Operation Iraqi Freedom (OIF). The 377th was redeployed 
to OIF after performing as the senior logistics headquarters during 
Operation Enduring Freedom. Once redeployed, the 377th TSC 
(headquartered in New Orleans) supported OIF, and reported directly to 
the Combined Forces Land Component Command.
    The joint and coalition flavor that the 377th brought to the fight 
is a historic first. From the early hours onward, the 377th supported 
combat operations from Kuwait throughout the entire battle space into 
Iraq. The headquarters commanded over 43,500 Soldiers during the 
buildup of forces and subsequent combat phase of OIF, and consisted of 
8 general officer commands and 8 area support groups. The 377th TSC 
helped shape the theater logistical footprint and was responsible for 
supporting the reception, staging, onward movement, and integration of 
all coalition forces, in addition to many other logistical support 
operations.
    Of particular note were the 377th's accomplishments in seaport of 
debarkation operations in Kuwait. This included the largest wartime 
combined/joint logistics over the shore operation in over 50 years, at 
the Kuwait Naval Base. These operations involved over 150 ships, 31,000 
personnel, 4,900 wheeled/tracked vehicles, over 6,000 ammunition and 
general containers, over 29,000 ammunition and general pallets, and 
over 2,500 other pieces of cargo. The base was operated by units of 
377th and the Army Reserve's 143rd Transportation Command 
(headquartered in Orlando).
Three Consolidated and Streamlined Support Commands Established
            Army Reserve Personnel Command (AR-PERSCOM) Merged with 
                    Human Resources Command (HRC)
    Effective October 2, 2003, the St. Louis, Missouri-based Army 
Reserve Personnel Command inactivated and merged with the Total Army 
Personnel Command to form the U.S. Army Human Resources Command (HRC). 
The HRC envisions becoming the nation's premier human resources 
provider. The HRC mission is to execute the full spectrum of human 
resources programs, services, and systems to support the readiness and 
well-being of Army personnel worldwide.
    The HRC executes Army personnel policies and procedures under the 
direction of the Department of the Army G-1. It integrates, manages, 
monitors, and coordinates military personnel systems to develop and 
optimize utilization of the Army's human resources in peace and war. 
HRC is the activity within the Department of the Army responsible for 
managing the Individual Ready Reserve (IRR) and Standby Reserve. The 
HRC will also plan for and integrate civilian personnel management and 
processes to attain a fully integrated HR focus.
            Army Reserve Engineers Integrated with DA ACSIM
    Effective October 1, 2003, the Army Reserve Engineers, formerly 
known as the Office of the Chief, Army Reserve (OCAR) Engineer Staff 
and the U.S. Army Reserve Command (USARC) Engineer Staff, transferred 
to the Army's Assistant Chief of Staff for Installation Management 
(ACSIM) and Headquarters, Installation Management Agency (IMA).
    The former OCAR Engineer Staff (Arlington, VA) was integrated as a 
separate division within the Department of the Army, ACSIM, as the 
ACSIM-Army Reserve Division (ACSIM-ARD). The former USARC Engineer 
Staff (Atlanta, GA) was integrated as a separate division within the 
HQ, IMA, as the IMA-Army Reserve Division (IMA-ARD). The IMA-ARD is 
split-stationed between Arlington, VA and Atlanta, GA.
    The ACSIM-ARD and IMA-ARD program, plan, and execute base 
operations support (e.g., environmental, maintenance and repair, and 
sustainment) and military construction functions on behalf of the Army 
Reserve and its more than 900 Army Reserve centers worldwide and two 
power projection platform installations (Fort Dix, NJ and Fort McCoy, 
WI).
            Army Reserve Chief Information Office (CIO) Merged with DA 
                    CIO/G-6
    At a June 25, 2003 signing ceremony, the Department of the Army 
CIO/G-6 and I formalized a memorandum of agreement that integrates the 
Army Reserve, CIO into the Department of the Army CIO/G-6.
    The Army Reserve counts communication and signal technology as one 
of its core capabilities--an enduring skill-rich capability across the 
spectrum of operations. With this integration, the Army Reserve 
demonstrates a commitment to both the transformation of the Army and to 
a common/single Army enterprise. With this integration, the Army 
Reserve Enterprise Integration Office will continue to be responsible 
for C\4\/IT planning, programming, budgeting, and execution support for 
all related Army Reserve appropriations. The Department of the Army 
CIO/G-6 will provide resource guidance and policy oversight, ensuring 
that Army Reserve C\4\/IT requirements are integrated and validated as 
part of broader Army requirements.
FEDS-HEAL Program Expanded and Improved
    The Army Reserve Surgeon's office worked with the Veteran's 
Administration to expand and improve the Federal Strategic Health 
Alliance (FEDS-HEAL) program. This initiative includes the addition of 
consolidated medical and dental records review, centralized appointment 
scheduling, dental treatment, vision examinations and eyeglass and lens 
insert procurement, and support to Soldier readiness processing 
activities.
    The year began with a concerted effort to enhance Soldier readiness 
in support of Operation Iraqi Freedom. This resulted in 85,000 records 
being reviewed by the FEDS-HEAL Program Office, which subsequently 
initiated and completed 48,000 physical examinations, 31,000 dental 
examinations, 3,200 dental treatment services, 71,000 immunizations 
(not including Anthrax), 22,500 Anthrax immunizations, and 1,000 vision 
examinations. The effort has been sustained via routine SRP support 
across the nation. The effect has been to increase readiness and 
minimize processing time and the frequency of non-deployable Soldiers 
being called to active duty.
    In addition, the effectiveness of FEDS-HEAL was enhanced by the 
program's extension to the Army National Guard, Air Force Reserve, six 
Active component dental treatment facilities, and the occupational 
health programs of the Army National Guard and Reserve.
                         growing contributions
    Prior to Operations Desert Shield and Desert Storm, Army Reserve 
Soldiers provided minimal support to military missions. That all 
changed with the first Gulf War, when almost 95,000 Army Reserve 
members were called to active duty--and they not only responded but 
performed that duty well, contributing over 14 million duty days of 
support. Since that war, the Army Reserve provided between 1 million 
and 4 million duty days annually to total force missions until the 
terrorist attacks of September 11, 2001. Once again the Army Reserve 
has responded quickly and continuously with over 95,000 members serving 
on active duty and providing nearly 16 million duty days of support to 
the Active forces in fiscal year 2003.
    The increased personnel tempo became steady-state even before 
September 11th as our Reserve Soldiers took their places among the 
rotational forces that are still keeping the peace in Eastern Europe. 
Our military police, medical, civil affairs, and public affairs 
Soldiers continue to provide their skills and capabilities in 
Operations Joint Endeavor and Joint Guardian in Bosnia and Kosovo.
    In the wake of the events of September 11th, came the global war on 
terrorism, Operation Noble Eagle in the United States, and the 
subsequent campaign, Operation Enduring Freedom in Afghanistan and 
Kuwait. Civil affairs units made up of Army Reserve Soldiers who 
possess civilian-acquired and sustained skills in the fields of 
engineering, city planning, and education were deployed to the region 
to lead in reestablishing a free, functioning society. Numerous new 
schools were built and medical aid provided to the people of 
Afghanistan. These Soldiers represent the goodwill and interests of the 
American people with every classroom they build and every skill they 
teach, every functioning social capability they help create, and every 
contact they make with the native population. And your Army Reserve 
Soldiers are doing an incredible job.
    In Operation Iraqi Freedom our troops have liberated Iraq and 
brought down Saddam Hussein. Today they remain, boots on the ground, 
helping restore the fabric of Iraqi society and its infrastructure and 
return self-determination to the people of Iraq who are free for the 
first time in more than 30 years.
    No one expects this mission to be completed soon or the war on 
terrorism to be won quickly. Both will try our patience and test our 
resolve as a nation and as an Army. Both will require new 
organizational and institutional paradigms and expectations if we are 
to prevail in our present endeavors and prosper in future ones. The 
world will remain a dangerous and unstable place for the foreseeable 
future. We must so organize ourselves and our efforts that we have the 
institutional endurance and robustness to accomplish our missions 
effectively, efficiently, and definitively.
                       the imperative for change
    Despite the clear relevance and strength demonstrated by these 
examples, we, the Army as an institution, are not without our 
challenges. First and foremost, we, the Army Reserve, must evolve as an 
institution to accommodate the changes in our environment. The 
division-oriented, set-piece battles of the past now share the stage 
with conflicts in which smaller interchangeable units will be combined 
in formations tailored to meet specific threats and situations and to 
offer the combatant commander the capabilities he needs to contain and 
defeat the enemy, and prevail upon the shifting, asymmetrical 
battlefields of the twenty-first century.
                         army reserve response
    The Army Reserve is moving to meet that challenge, preparing 
changes to training, readiness and policies, practices, and procedures. 
We are restructuring how we train and prepare the force by establishing 
a Trainee, Transient, Holdee, and Student Account, much like the Active 
Army, to manage our force more effectively. We are preparing plans to 
support the continuum of service concept recently proposed by the 
Office of the Secretary of Defense, which would allow ease of movement 
between Army components as dictated not only by the needs of the Army, 
but also by what is best for the Soldier developmentally and 
educationally. We are excited by the potential of such transition 
proposals.
Federal Reserve Restructuring Initiative (FRRI)
    Our initiatives concerning the management of individuals and units 
in the Army Reserve are the catalyst of the evolving Army Reserve--The 
Federal Reserve Restructuring Initiative. Six imperatives are necessary 
in order for the Army Reserve to change to a 21st century force. These 
imperatives are: re-engineer the call to active duty process; transform 
Army Reserve command and control; ensure ready units; implement human 
resources life cycle management; build a rotational base in our force; 
and re-engineer individual Soldier capabilities.
Call to Active Duty Reform
    Changing our industrial-age, Cold-War era call-to-active-duty and 
mobilization process remains a critical component to realizing the 
capabilities and potential of our highly skilled, loyal and sacrificing 
Soldiers. The nation's existing process is designed to support a 
traditional, linear, gradual build-up of large numbers of forces and 
equipment and expansion of the industrial base over time. It follows a 
construct of war plans for various threat-based scenarios. It was 
designed for a world that no longer exists. Today, multiple, 
operational requirements, unclear, uncertain, and dynamic alliances, 
and the need for agile, swift, and decisive combat power, forward 
presence in more responsive ways, and smaller-scale contingency 
operations, demand a fundamentally different approach to the design, 
use, and rotation of the Army Reserve forces. Rather than a ``force in 
reserve,'' the Army Reserve has become and serves more as a 
complementary force of discrete specialized, skill-rich capabilities 
and a building block for teams and integrated units of capabilities, 
all essential to generating and sustaining forces. The process of 
accessing and employing these forces must be overhauled completely to 
become more efficient, flexible, and responsive to the nation's needs, 
yet sensitive to, and supportive of the Soldier, the family and the 
civilian employer. To do this we require a more decentralized, agile, 
and responsive process that accommodates the mission requirement while 
simultaneously providing greater predictability for soldier, family, 
and employer.
    Changing the way we employ Soldiers starts with changing the way we 
prepare for calls to active duty. The current process is to alert a 
unit for calls to active duty, conduct administrative readiness 
preparations at home station, and then send the unit to the 
mobilization station for further administrative and logistical 
preparedness processing and to train for deployment. This alert-train-
deploy process, while successful in Desert Shield/Desert Storm, today 
inhibits responsiveness. By changing to a train-mob-deploy model, and 
dealing with administrative and logistical requirements prior to active 
duty, we will reduce the time needed to bring units to a campaign 
quality level needed for operations. This will require us to resource 
more training events at home station through the use of devices, 
simulators and simulations. As you would expect, this shift in 
paradigms will increase pre-call-to-active-duty OPTEMPO beyond the 
current statutory level and will require greater effort and resources 
to achieve. We are confident that the increased costs will pay 
significant dividends in terms of readiness and deployability.
Realigning Force Command and Control
    Our evolutionary force structure journey actually began 10 years 
ago and is accelerating rapidly today. In 1993 we reorganized to 
produce a smaller, more efficient, and more effective structure. Our 
overall strength was reduced by 114,000 Soldiers, or 36 percent, 
leaving us with a 205,000 Soldier statutory end strength today. We 
continue our journey from a Cold-War Army Reserve force to our current, 
fully engaged Army Reserve, to a changed, even more responsive and 
capable future Army Reserve force that will include a rotational 
capability. In the 1990s, we cut the number of our Army Reserve 
commands by more than half and re-invested those resources into 
capabilities such as medical and garrison support units as well as 
Joint Reserve units. We reduced the number of our training formations 
by 41 percent and streamlined our training divisions to better meet the 
needs of the Army and its Soldiers. Our journey continues today as we 
mature plans for further realignments and force structure initiatives. 
Between fiscal year 2005 and fiscal year 2008, we will reduce our force 
structure by 35,000 spaces, reinvesting those into remaining units in 
order to man them at 100 percent. Simultaneously, we will redesign the 
remaining force into more capable modular organizations and reduce the 
number of general officer functional commands and the number of general 
officer command and control headquarters subordinate to the Army 
Reserve Command.
    The Army Reserve is the nation's repository of experience, 
expertise, and vision regarding Soldier and unit calls to active duty. 
We do have forces capable of mobilizing in 24 hours and moving to their 
active duty stations within 48 hours, as we demonstrated in response to 
September 11th. This norm of quick and precise calls to active duty 
ability will become institutionalized in the processes and systems of 
the future and give our forces the ability to marshal Army Reserve 
Soldiers rapidly and smoothly.
Trainees, Transients, Holdees, and Students (TTHS) Account
    The most immediately effective methods for improving Army Reserve 
unit readiness is to harvest the personnel authorizations (spaces) 
associated with those units whose historical missions have been largely 
overtaken by events and whose consequent relevance to war plans and 
missions has been significantly reduced or eliminated all together. 
These spaces can then be used as a holding account that increases unit 
readiness by removing unready Soldiers from troop program unit spaces. 
Currently, unready Soldiers are carried on the rolls for a variety of 
reasons and reported as unavailable to fill force authorized positions. 
With the creation of the TTHS account, these unready Soldiers will be 
assigned to the TTHS account where they will be trained and managed 
until they can be assigned to a unit in a duty-qualified status.
    This procedure can be accomplished within existing manpower and 
funding levels. This initiative will improve the quality of service for 
individual Soldiers and relieve unit commanders of a major 
administrative challenge thus enabling them to better focus on calls to 
active duty and readiness activities.
    The TTHS account will be used to manage vacancies and the 
assignment of qualified Soldiers to authorized positions, thus 
increasing retention with a positive Soldier-oriented life-cycle 
management program.
Individual Augmentee Program and Continuum of Service
    In today's operational milieu, there is a growing need to establish 
a capability-based pool of individual Soldiers with a range of 
specialties who are readily available, organized, and trained for calls 
to active duty and deployment as individual augmentees. In spite of 
numerous force structure initiatives designed to man early deploying 
Active Army and Reserve component units at the highest possible levels, 
a requirement remains for individual specialists for unforeseen, 
unplanned-for-contingencies, operations, and exercises. Therefore, I 
have directed the establishment of an Individual Augmentee Program 
within the Selected Reserve to meet these needs.
    The Individual Augmentee Program is intended to meet real-world 
combatant commander requirements as validated in the Worldwide 
Individual Augmentation System (WIAS). Additionally, this program will 
preclude the deployment of individual capabilities from Active or 
Reserve component units, adversely affecting their readiness, cohesion, 
and future employment effectiveness. This program will allow Soldiers 
to participate at several levels of commitment, and supports the Office 
of the Secretary of Defense proposal for a continuum of service that 
enables service members to move more easily between their services' 
components during their careers.
Rotating the Force
    While changing industrial-age mobilization, personnel, training, 
and development policies is necessary, restructuring our force so that 
we can implement predictable and sustainable rotations based upon depth 
in capability is also necessary. We are committed to achieving a 
capability ratio that will manage Army Reserve deployments to once 
every four or five years. Predictable and sustainable utilization is a 
key factor in maintaining Soldier, family, and civilian employer 
support. One of the goals of transforming our force is to change 
policies that are harmful to Soldiers and families. Predictable 
rotation schedules will allow the Army Reserve to continue to be a long 
term source of skill-rich capabilities for small scale contingency 
conflicts and follow-on operations. Properly executed, predictable 
rotations will provide our units with operational experience; provide a 
sense of fulfillment for our Soldiers; impart a sense of order for our 
Soldiers, and even out the work load across the force. The recent 
changes to the Operation Enduring Freedom and Operation Iraqi Freedom 
rotational schedules are an important step in establishing those 
rotational capabilities.
Rebalancing the Force
    There has been considerable concern raised about what is viewed as 
excessive reliance on the nation's Reserve components both for small-
scale operations such as the Balkans rotations and for long-term 
contingency operations such as Operations Enduring Freedom and Iraqi 
Freedom. While only 33 percent of Army Reserve troop strength is 
currently called to active duty, and while that level of usage does not 
seem extreme, raw numbers alone do not tell the whole story. Some 
units, notably, military police and truck transportation units are in 
fact over-extended, and it is true that some types of units that have 
been used more in the war on terrorism than others. Military police, 
civil affairs, military intelligence, transportation and biological 
detection and surveillance capabilities are the highest in utilization. 
We are committed to eliminating these pockets of specialty over-stress 
by increasing the number of some units in both the Active component and 
the Army Reserve and Army National Guard.
    The Department of Defense is currently deeply involved in 
determining how to rebalance the Active-Reserve component force mix to 
mitigate the effects of over-use of particular specialties. Currently, 
313 Standard Requirement Codes (types of units) are found exclusively 
in the Army Reserve. The Army Reserve has been able to meet the 
challenges with this structure thus far, but clearly the structure 
requires change and perhaps augmentation to meet the continuing demand 
for these skill-rich capabilities that are more practically sustained 
in a Reserve component force.
Recruiting and Retention
     Recruiting and retention is an area of the highest importance to 
the Army Reserve and a volunteer force. Our responsibilities require 
the best Soldiers America can provide. In this regard, we are most 
appreciative of the help your subcommittee has provided us. We would be 
remiss if we did not thank you for the attention you have paid to our 
recruiting needs in recent legislation. With your help we have met our 
recruiting mission for four straight years from 2000 to 2003. In fiscal 
year 2004, however, we are 182 accessions short of expected year-to-
date mission out of a projected 10,156 accessions. While this is cause 
for some concern, I am not alarmed over this because we are currently 
at 103 percent strength.
    Although generally successful in overall mission numbers, we 
continue to experience difficulty in attracting and retaining qualified 
individuals in certain critical wartime specialties. Your continued 
support on behalf of recruiting and retention incentives, allowing for 
innovative readiness training and the funding of continuing health and 
educational opportunities will help us with this difficult task.
    The Army Reserve, in partnership with the United States Army 
Accessions Command, has conducted a thorough review of Army Reserve 
recruiting. This review has helped us forge a stronger relationship 
with the Accessions Command and has streamlined our processes to 
support the symbiotic relationship between recruiting and retention. To 
that end, we will seek to ensure that all Army Reserve Soldiers are 
involved in recruiting and retention activities--we all are a part of 
the Army's accessions efforts. We are removing mission distracters 
allowing the Accessions Command to focus on their core competency of 
recruiting non-prior service applicants; we are focusing on life cycle 
personnel management for all categories of Army Reserve Soldiers and 
our retention program seeks to reduce attrition, thereby improving 
readiness and reducing recruiting missions.
    During 2003, the responsibility for the entire prior service 
mission transferred from the Accessions Command to the Army Reserve. 
Tenets of this transfer included: establishment of career crosswalk 
opportunities between recruiters and retention transition NCOs; 
localized recruiting, retention and transition support at Army Reserve 
units, and increased commander awareness and involvement in recruiting 
and retention efforts.
    To support recruiting and retention, the Army Reserve relies on 
non-prior service and prior service enlistment bonuses, the Montgomery 
GI Bill Kicker, and the Student Loan Repayment Program in combinations 
that attract Soldiers to fill critical MOS and priority unit shortages. 
The Army Reserve must be able to provide a variety of enlistment and 
retention incentives, for both officer and enlisted personnel, in order 
to attract and retain quality Soldiers. Fully funded incentive programs 
must be available to ensure success in attaining recruiting goals and 
maintaining critical shortages and skills.
    As for the retention of this all-volunteer force, during the mid-
eighties, at the height of the Cold War, the Army Reserve averaged a 
36-38 percent officer and enlisted attrition at a time when we were 
never used. Today, after 8 continuous years of calls to active duty and 
use since 1997, we are averaging 24-26 percent attrition. 
Interestingly, the retention rates appear to be higher in those units 
that get called to active duty than in those that are not called. Our 
Soldiers feel the pressure, they understand the sacrifice, and they 
recognize their contributions to the common good and their fellow 
citizens. They are proud and they are determined. I am profoundly 
impressed by their performance, their commitment, and their dedication 
every day.
    Historically, our retention program has been a success. Faced with 
an enlisted attrition rate of 37.5 percent at the end of fiscal year 
1997, we adopted a corporate approach to retaining quality. Retention 
management was an internal staff responsibility before fiscal year 
1998. In a mostly mechanical approach to personnel management, strength 
managers simply calculated gains and losses and maintained volumes of 
statistical data. Unfortunately, this approach did nothing to focus 
commanders on their responsibility of retaining their most precious 
resource--our Soldiers.
    In response, the Army Reserve developed the Commanders Retention 
Program to correct this shortcoming. A crucial tenet of this program 
places responsibility and accountability for retention with commanders 
at every level of the organization. Commanders now have a direct 
mission to retain their Soldiers and must develop annual retention 
plans. Additionally, first line leaders must ensure all Soldiers are 
sponsored, receive delivery on promises made to them, and are provided 
quality training. In this way, the Commanders Retention Program ensures 
accountability because it establishes methods and standards and 
provides a means to measure and evaluate every commander's performance.
    Since the introduction of the Commanders Retention Program, the 
Army Reserve has reduced enlisted troop program unit attrition by 
nearly 12 percentage points. The enlisted attrition rate in fiscal year 
2003 was 25.5 percent.
    The attrition rate for fiscal year 2004 is projected to increase to 
30.4 percent, due to an increase in the Expiration of Term of Service 
(ETS) population, expected retirements as well as recalls to active 
duty. The exact impact of demobilization of troops rotating out of 
theater having served in OIF1 and OEF3 remains to be seen. The next 
several months will tell the tale as stop-loss provisions are lifted 90 
days after our troops are released from active duty.
    Overall, the Army Reserve successfully accomplished its fiscal year 
2003 recruiting mission while achieving the Department of the Army and 
Department of Defense quality marks. Beginning fiscal year 2004, the 
Army Reserve transitioned the U.S. Army Recruiting Command (USAREC) 
from a contract recruiting mission to a ship mission as well as began a 
three-year phased implementation of the Delayed Entry Program (DEP) 
similar to the Active Army. To support these efforts the Army Reserve 
recruiting mission will increase over the next three years and will 
stabilize by fiscal year 2007. The purpose of these two initiatives is 
to better utilize our training seat resources and to reduce overall 
unit attrition. The accomplishment of the recruiting mission will 
demand a large investment in time on the part of our commanders, our 
retention NCOs, and our recruiters as they are personally involved in 
attracting the young people in their communities to their units.
    However, the same environmental pressures that make non-prior 
service recruiting and retention difficult also affect prior service 
accessions. With the defense drawdown we have seen a corresponding 
decrease in the available prior service market in the Individual Ready 
Reserve. This affects Army training costs, due to the increased 
reliance on the non-prior service market, and an overall loss of 
knowledge and experience when Soldiers are not transitioned to the Army 
Reserve. Consequently, the Army Reserve's future ability to recruit and 
retain quality Soldiers will continue to be critically dependent on 
maintaining competitive compensation and benefits.
    The Army Reserve is currently experiencing a shortfall of 4,200 
company grade officers. Retention goals focus commanders and first line 
leaders on junior officers. The establishment of a sound leader 
development program is a cornerstone of Army Reserve transformation. 
Providing young leaders the opportunity for school training and 
practiced leadership will retain these officers. A transformed 
assignment policy will enhance promotion and leader development. 
Increased Army Reserve involvement in transitioning officers from 
active duty directly into Army Reserve units will keep young officers 
interested in continuing their Army career. Allowing managed 
flexibility during their transition to civilian life will be a win for 
the Army and the officer.
    Special attention needs to be placed on the recruiting budget, for 
advertising, to meet our requirements in the next several years. Young 
people of today need to be made aware of the unique opportunities 
available in the different military components. The best way to get 
this message out is to advertise through the mass media. Funding our 
critical advertising needs is imperative if we are to be honestly 
expected to meet our recruiting goals. Your continued support of our 
efforts to recruit and retain quality Soldiers is essential if we are 
to be successful.
Family Programs
    A functional family readiness program is important in peace and 
critical in war. Family programs provide invaluable family assistance 
during peacetime and calls to active duty, to include training for 
family program directors and volunteers in support of family readiness 
activities. These volunteers and contract employees provide information 
referral and outreach to family members and deployed Soldiers. Within 
this system are 25 contractors serving in family program director 
positions whose duties include aiding in promoting families' awareness 
of benefits and entitlements, orienting family members to Army Reserve 
systems, programs, and way of life.
    In preparation for calls to active duty deployment, these 
volunteers and staff provide an extensive briefing for both families as 
well as Soldiers. These family services include briefings by members of 
the Chaplains Corps who explain what happens to spouses or families 
upon separation. We also provide briefings when the service member 
returns and coach the family members to expect changes upon the 
Soldier's return to home.
    The average Army Reserve soldier is older and more likely to be 
married than the average active component soldier. While all families 
face hardships when their soldier is called to the colors, Army Reserve 
families have additional challenges as they generally do not live near 
an installation that can provide services. While historically we have 
relied extensively on volunteers, experience has shown we must increase 
the amount of full time staff available for families. We will soon have 
25 additional family readiness group assistants positioned in locations 
where they can assist geographically isolated families of mobilized 
soldiers. We also have begun the process of accreditation to ensure the 
program delivers a consistent level of service to families. We continue 
to work on obtaining more resources for the program.
    During Desert Shield/Desert Storm Army Reserve family readiness 
programs were sparse. Today, these programs are extensive, and they are 
providing a support network for our families. We have been able to meet 
the needs of our deployed Army Reserve Soldiers and will continue to do 
so. We are anticipating challenges in the future.
Information Technology
            Network Service/Data Center
    The Army Reserve is redesigning its information technology 
infrastructure to support the global war on terrorism and greatly 
increase the survivability of our information technology infrastructure 
in the event of a cyber or physical attack. This redesigned 
infrastructure will establish a network service/data center that 
supports the continental United States. With this redesign, the Army 
Reserve would have the technological capability to sustain existing 
Army systems or field new Army systems to meet readiness requirements. 
The redesign will also enhance the timely dissemination of information 
supporting command and control of areas of mobilization, training, and 
overall data exchange.
            Force Protection
    The Force Protection program within the Army Reserve is designed to 
provide security and preparedness to meet the full spectrum of threats 
facing Army Reserve facilities and stand-alone facilities worldwide. 
The program is an integrated set of five security activities: physical 
security, anti-terrorism, law enforcement, information operations, and 
installation preparedness.
    The timely and accurate flow of threat information is the 
foundation of the overall Force Protection program within the Army 
Reserve. Vulnerability and risk assessments coupled with current threat 
information provides a solid crisis management planning platform for 
the Army Reserve stand alone facilities and installations.
    The Army Reserve Force Protection program enables commanders to 
prioritize facilities and focus resources using a proven decision 
making methodology. The Army Reserve Force Protection program is being 
used to dramatically repair and upgrade facilities, train leaders and 
integrate security programs to ensure fully capable units are available 
to support combatant commanders in the Global War on Terrorism.
    Installation Preparedness concentrates on detailed planning, 
integrated training and for the coordinated response of first 
responders such as fire, police and emergency services to incidents 
involving weapons of mass destruction or industrial accidents and 
disasters on or near Army Reserve facilities and installations.
    The Army Reserve is challenged with its existing military and 
civilian manpower structure. To sustain the current Force Protection 
program and meet the demands of emerging requirements, we must expand 
contract requirements for physical security, anti-terrorism 
vulnerability and risk assessments, force program leader training and 
exercise planning for the entire Army Reserve.
    Currently, the Army Reserve meets installation access control 
requirements, but sustainment of access control combined with the 
additional stand alone facility level security requirements associated 
with the global war on terrorism has become a challenge.
    Funding to support these critical security programs will allow the 
Army Reserve to continue to repair facilities, train leaders, and 
integrate security programs to ensure fully capable units are available 
to support combatant commanders in the global war on terrorism.
Equipment Procurement and Modernization
    Increasing demands placed on the Army Reserve highlight the 
importance of equipment that is mission-essential. In addition, the 
increased use of Reserve forces in operational missions and the global 
war on terrorism has highlighted the importance of having compatible 
and modern equipment. In order for our Soldiers to be able to 
seamlessly integrate on the battlefield, our equipment must be 
operationally and technically compatible. Without complete 
interoperability, the ability of the Army Reserve to accomplish its 
combat support and combat service support missions would be diminished. 
The need to quickly and efficiently deploy Army Reserve units 
invalidates the old Cold War planning that Army Reserve units will have 
sufficient mobilization time to replace non-interoperable equipment or 
fill shortfalls deliberately accepted as ``necessary risk.'' Retaining 
older, less effective equipment or filling the Army Reserve's 
authorized levels of equipment only partially, leads to delays as a 
limited pool of Army Reserve equipment is transferred between 
deploying, redeploying and non-deploying units and Army Reserve 
Soldiers are trained or retrained to operate more modern equipment, 
they did not have access to during drills and annual training. The 
National Guard and Reserve Equipment Appropriation (NGREA) has been a 
significant and essential tool to improve the Army Reserve through 
force modernization.
    Meeting these challenges requires not only that the Army Reserve be 
issued modern, interoperable equipment, but that the resources to 
maintain the readiness of this equipment also be provided. Sufficient 
funding needs to be provided to allow the Army Reserve to reach higher 
standards of readiness than currently maintained as an element of risk 
accepted by the Army under constrained budgets. Until the Army Reserve 
can be fully equipped with modern items, sustaining the combat and 
deployment readiness of the equipment currently on hand is essential. 
This requires full funding of operations and maintenance requirements 
and continuing support of the Army's depot maintenance program, which 
is vital to maintaining the readiness of Army Reserve equipment, while 
extending service life, reducing life cycle costs and improving safety 
for Army Reserve Soldiers.
    Combat support and combat service support transformation is a vital 
link to the Army Transformation Plan. The Army Reserve is the main 
provider of this capability for the Army and the Army must continue to 
modernize the Reserve components along a timeline that ensures the 
Reserve components remain interoperable and compatible with the Active 
component. The Army Reserve is continuing to support the Army's 
Transformation through the assignment of equipment from Army Reserve 
units to Army prepositioned stocks (APS) and stay-behind equipment 
(SBE) in Iraq and Afghanistan.
    Equipment modernization of the Army Reserve is indispensable in 
meeting the goals of the Army's Transformation Campaign Plan. Full 
integration into the Army's modernization plan to implement force 
interoperability enables our units to deliver required combat service 
and combat service support ensuring our Army's operational success.
Facility Revitalization
    The Army Reserve installation community proudly sustains two of the 
Army's major installations and 12 regional support commands. These 
regional commands function as ``virtual installations'' with facilities 
in 1,160 communities across all 50 states, United States territories, 
and in Europe.
    Our primary facilities, Army Reserve centers, are prominent symbols 
of The Army on Main Street America. They often create the very first 
impressions of the entire Army and present a permanent billboard for 
all Americans to see. Unfortunately, most Army Reserve facilities 
consist of 1950's era structures that remain virtually the same as when 
they were constructed. They are sorely in need of modernization or, as 
in most cases, replacement.
    Army Reserve Soldiers train in widely dispersed training centers 
and support facilities worldwide, whose 40 million square feet of space 
equates to more square footage than Forts Hood, Sill and Belvoir 
combined. Our facilities experience the same type of challenges active 
Army posts do. The impacts of poor facility conditions are even more 
acute for our Soldiers. Overcrowded, inadequate and poorly maintained 
facilities seriously degrade our ability to train and sustain units as 
well as sapping Soldier morale and esprit de corps.
                                summary
    In today's national security environment, the Army Reserve has many 
challenges--we accept these without hesitation. These challenges find 
expression in our reliance on Reserve component forces in contingency 
operations. Historically our nation has placed great reliance on 
Reserve components of Soldiers, Marines, Sailors, and Airmen to expand 
the armed forces for operations during time of war. As BG David 
Fastabend notes in his unpublished white paper, Serving a Nation at 
War; a Campaign-Quality Army with a Joint and Expeditionary Mindset, 
``Although the fundamental nature of war is constant, its methods and 
techniques change chameleon-like to match the strategic context and 
capabilities at hand.'' We must also change to accommodate the twenty-
first century strategic context and operational reality. This global 
war on terrorism, as our President has described, is a long-term 
campaign of inestimable duration, fought in many different places 
around the world. The issues we have brought to you today--changing how 
we man, train, prepare, maintain, and resource our force recognizes the 
commander-in-chief's intent to prepare for future wars of unknown 
duration in places we have yet to fight and against enemies who 
threaten our freedoms and security.
    We are grateful to the Congress and the Nation for supporting the 
Army Reserve and our most precious resource, our Soldiers--the sons and 
daughters of America.
    Thank you.
STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVAL 
            RESERVE
    Senator Stevens. Admiral, I think this is your first 
appearance before our committee. We welcome you and would be 
happy to have your statement, sir.
    Admiral Cotton. Thank you, sir. I appreciate the 
opportunity to testify before the committee.
    There are many heros in the room today and many heros 
overseas. I would like to call to everyone's attention the 
brave actions here in the United States just a few weeks ago at 
the Baltimore Reserve Center where on a Saturday afternoon in a 
big storm 26 reservists went out in a mike boat and in a matter 
of minutes rescued 21 civilians, some of them near death, all 
of them would certainly have perished if these reservists had 
not rescued them. I am proud to say that in 10 days we will 
have a ceremony at the Reserve Center and appropriately 
recognize all of them with awards. I think what that 
demonstrates is not only are we fighting overseas, but we have 
capability amongst our Reserve centers, our Guard armories here 
in this country which will provide the backbone for homeland 
security both now and in the future.
    The Naval Reserve is very busy. We have about 2,700 folks 
recalled overseas, over 500 cargo handlers and 500 Seabees are 
in action today in theater. We also have another 20,000 naval 
reservists on orders just this week providing operational 
support, as well as undergoing training to support the fleet.
    We have fully integrated with the Navy. The Chief of Naval 
Operations and I work together to make sure that everything we 
do is in synergy to increase warfighting wholeness. In 
particular, the very much appreciated NGREA account is taken by 
Navy, and we look where we can apply it to Reserve equipment so 
that we can increase that warfighting wholeness both for 
current readiness and future readiness.
    One other word I would like to mention is alignment. In the 
last 6 months in particular, we have aligned our headquarters 
and key individuals to create a synchronization or an increased 
synergy between the Navy and its Naval Reserve, which is very 
important in this global war on terrorism. There is currently a 
zero-based review going on of every Naval Reserve unit and 
billet, and then once we lay this down over the next 2 years, 
we will properly resource and program this force along with 
Navy in the pillars of SeaPower 21.
    I thank you for your attention, your time. I look forward 
to your questions, sir.
    Senator Stevens. Thank you. We did notice that heroic 
action of your people and I think they do deserve recognition. 
Let us know if we can help in any way on that.
    Admiral Cotton. Yes, sir.
    [The statement follows:]
           Prepared Statement of Vice Admiral John G. Cotton
                                opening
    Mr. Chairman and members of this subcommittee, thank you for the 
opportunity to speak with you today about some of the important changes 
that are happening in the Navy and its Reserve, and to give you a 
report on our accomplishments and current state of readiness.
    As we look back, we see clearly that the tragic attack on our 
country on September 11, 2001, and the operations that followed, 
prompted significant changes for the Armed Forces, including the Guard 
and Reserve. Members of the National Guard and the Reserve have been 
called upon more in this global war on terrorism than at any other time 
since World War II. The Chief of Naval Operations (CNO) has said, 
``Change to make us better is completely necessary . . . to make our 
Navy even better and to build the 21st century Navy, and the Reserve is 
a key part of our growth and our future.''
    We are meeting the CNO's challenge head on, changing our culture 
and the shape of the force, moving away from an obsolete Cold War 
construct to one that provides tailorable, flexible capability in 
support of 21st century warfighting. Active-Reserve Integration is 
about more than gaining business efficiencies--it is about capitalizing 
on the skills, dedication and patriotism of the citizen-Sailors that 
make up our force. The Navy's Reserve will be structured, equipped and 
trained to complement the capabilities inherent in SeaPower 21, and 
will leverage technology to take advantage of skills and abilities 
carried by our Sailors on the coasts and in the heartland of America.
    Integration is a journey, and we are sharing this voyage with our 
active component shipmates. The CNO and senior fleet leadership have 
taken ownership of their Reserve, from recruiting and training, to 
equipment and readiness. The fleet is identifying the capabilities it 
will require the Navy's Reserve to provide, an input that the active 
and reserve components together will use to design and shape the force. 
This new sense of ownership will build closer day-to-day operational 
relationships and allow for the seamless connection of total force 
capabilities in the right place, and at the right time.
    To enable recapitalization of the Navy, CNO has directed that 
efficiencies be realized in all areas of operations, and in both Active 
and Reserve components. The Navy is fully integrating its Reserve into 
the new Fleet Response Plan (FRP) through both unit level and 
individual augmentation during day-to-day operational support, while 
maintaining the ability to mobilize reservists and equipment to support 
expanded surge operations around the globe. The fundamental construct 
of FRP is a surge-ready fleet, able to sail to any troubled spot in the 
world, swiftly defeat the enemy, and then reconstitute in minimum time. 
Therefore, the Navy and its Reserve will continually be in a surge 
status requiring minimum time to reset. Experienced and trained Reserve 
personnel are ideally suited for this surge capability. The basic 24 
drill days per year and 14 days of annual training are provided at 20 
percent of the cost of full time personnel, and they leverage prior 
Navy investment in training and maintain a continuum of service. Most 
reservists have both fleet experience and critical civilian skills to 
contribute to this concept of efficient utilization, and will fit 
perfectly into the unique surge mission requirements of the Navy's 
Reserve as envisioned in SeaPower 21.
    The Navy's Reserve has always been and will continue to be an 
important element of the Navy's Total Force. In the Chief of Naval 
Operations' own words, ``. . . with the Navy's Reserve playing such a 
vital role in our day to day operations, it is imperative that we 
continue to properly assess and fund reserve personnel and readiness 
requirements now and in the future.'' The Navy's Reserve contributes 
daily to support fleet operations and provides critical surge and 
sustainment capabilities to meet real world contingencies. However, to 
remain relevant, reservists must be even more accessible, flexible and 
adaptable to better support fleet operations both at home and abroad. 
Every structural change being considered for the future is intended to 
ensure that the Navy's Reserve remains an important element of the Navy 
Team. Providing a more tightly integrated force creates the opportunity 
for Reservists to train, deploy and operate alongside their active 
counterparts using current doctrine, concepts and tactics, as well as 
the most modern equipment in the Navy's inventory.
    The Navy is evolving, and its Reserve is in step with the changes. 
For instance, Navy is aligning missions by capabilities and has created 
Fleet Forces Command to meld the fleets into a single, integrated 
force. The first change we made to support this alignment was to assign 
both the Commander, Naval Reserve Force (CNRF) in Washington, DC, and 
Commander, Naval Reserve Forces Command (CNRFC) in New Orleans, LA, 
``additional duty'' to Commander, Fleet Forces Command (CFFC) in 
Norfolk, VA. For the first time ever, one fleet commander acting for 
all other Navy commanders, is conducting a Zero Based Review (ZBR), 
where every Reserve unit and billet is being reviewed for capability 
relevance and alignment with fleet requirements, and then forwarded to 
CNO for inclusion in future budget deliberations and requests. The 
Navy's Reserve will continue to provide mission capable units and 
individuals to the Navy-Marine Corps team throughout the full range of 
operations, from peace to war, and will do so in a much more efficient 
and integrated manner. The Navy has taken charge of its Reserve Force 
to further enable it to provide predictable and effective support to 
the fleet, ready and fully integrated, in the most efficient manner 
possible.
                    navy reserve priorities for 2004
    The Reserve's priorities have been aligned with those established 
by CNO for the entire Navy.
Priority #1: Manpower
    Manpower is, and will remain, the Navy's number one priority. The 
Navy competes for the best people, and we are engaged on two fronts: 
recruiting the right people and improving retention. The focus is on 
capabilities and our recruiting objectives will be driven by fleet 
requirements. We need to attract and retain smart and savvy sailors to 
employ the advanced technologies that we will rely on in the network 
centric future.
    Navy leadership understands the consequences of sustained and 
repeated recalls on our reserve personnel, their families and 
employers. Our judicious use of individual and unit mobilizations has 
demonstrated the Navy's efficient, tailored and volunteer-based method 
of mobilization. Retention remains at an all-time high and post-
mobilization surveys of recalled personnel indicate strong job 
satisfaction. Our proud, patriotic citizen-Sailors have, and will 
continue, to answer the call in defense of freedom and liberty. CFFC's 
integration initiative will build on this success by increasing mission 
relevance, and ensuring that every reservist is delivering the 
capability and expertise required by the fleet and the Joint Force 
Commander.
    We are pleased to report that recruiting remained strong in 2003. 
Last year we achieved 106 percent of our enlisted recruiting goal. 
Largely due to record high retention rates in the active duty Navy, 40 
percent of these enlisted accessions were Non-Prior Service (NPS) 
personnel. While very qualified, many with advanced degrees, these NPS 
personnel require additional training before being assigned 
mobilizations billets. Officer recruiting, also challenged by high 
retention in active duty warfare designated communities, finished at 91 
percent of the fiscal year goal. Our recruiters met goal last year for 
both officer and enlisted Full-Time Support personnel. The Navy's 
Reserve had an attrition rate of 17.8 percent in fiscal year 2003, and 
ended the year manned at 100.2 percent of authorized end strength. 
Although we are pleased with our results in these important manpower 
categories for last year, fiscal year 2004 brings similar challenges. 
We believe we can meet our recruiting goals in part because Reserve 
Recruiting became one of the first commands to fully align with their 
active duty counterpart. Commander, Naval Reserve Recruiting Command 
(CNRRC) in New Orleans, LA, became Commander, Naval Reserve Recruiting 
Region (CNRRR) and is now aligned with the Navy Recruiting Command 
(CNRC), in Millington, TN. We are very optimistic that prototype 
recruiting stations combining both active duty and full-time reserve 
recruiters opening this year will result in improved recruiting 
efficiencies. Furthermore, active duty commands are being directed to 
increase their efforts to keep trained and talented personnel leaving 
the active force on the Navy team by recruiting them directly into the 
Navy's Reserve. Keeping Navy veterans serving, especially those with 
critical skills and qualifications, is very important and has the 
support of the entire chain of command, both active and reserve.
    Navy Reserve end strength requested in the fiscal year 2005 
President's Budget is 83,400, a decrease of 2,500 from fiscal year 
2004. This decrease is due primarily to the rebalancing of Naval 
Coastal Warfare units into the active component, the decommissioning of 
a Fleet Hospital, and Medical program billet reductions due to force 
restructuring. We expect that the requested end strength in this budget 
is sufficient for the Navy's Reserve to meet fleet requirements. 
However, ongoing initiatives and total force capability analysis may 
result in modifications to this target in the future.
Priority #2: Current Readiness
    During Operation IRAQI FREEDOM, the Navy had eight carrier strike 
groups, six expeditionary strike groups, and nearly 100,000 Sailors and 
Marines deployed around the world in support of the Global War on 
Terrorism. The near term goal for the Navy's Reserve is to provide a 
force shaped by fleet requirements and driven by SeaPower 21. To 
achieve this goal, we will continue to align with the Navy, measure 
risk, present options and rapidly move ahead with assignment of units 
and personnel to match requirements with capabilities. These 
assessments will be driven by the question: What resources can we apply 
that will enhance effectiveness and efficiency, and will contribute to 
warfighting wholeness? If the analysis indicates that the number of 
reservists should be adjusted to meet current requirements and future 
capabilities, we will make that happen. If that means that some 
equipment must be retired or realigned to support the active force, 
then we will ensure that the Navy's Reserve is integrated with the 
fleet and trains on and operates the Navy's newest, most capable 
platforms and systems.
    Following the attack on U.S.S. Cole, the Navy recognized the 
immediate need for increased force protection and added 6,619 new 
active component and 1,379 reserve component anti-terrorism and force 
protection billets. Current readiness was also enhanced in the fiscal 
year 2004 budget with funding to operate an additional frigate (FFG) in 
the Navy's Reserve Force, execute flying hours at 100 percent of 
requirement, and support ship maintenance to meet CNO's goal. Aviation 
depot maintenance funding was increased to ensure that 100 percent of 
CNO engine and airframe maintenance goals are achieved. In fiscal year 
2004, base support funding has been consolidated Navy-wide under 
Commander, Naval Installations to eliminate redundancies, generate 
economies of scale, and provide enhanced readiness support to shore 
activities, both Active and Reserve. It is expected that further 
efficiencies will be realized by combining base support for active and 
reserve personnel where overlaps and excess capabilities exist.
    The very much appreciated National Guard and Reserve Equipment 
appropriation for fiscal year 2004 provided readiness support 
modifications, upgrades and procurement of items for expeditionary 
warfare units, trainers and simulators to improve the availability of 
readiness training, as well to acquire eight Swiss F-5 aircraft to 
replace aging Reserve adversary training assets. The appropriation also 
included funds to complete the last two upgrades to Reserve F/A-18As to 
``A-Plus,'' providing precision strike capability and placing them on 
par with fleet F/A-18Cs. Funds were first applied to improve current 
readiness and then to enhance future readiness, and were coordinated 
with Navy warfare and resource sponsors.
Priority #3: Future Readiness
    Improved accessibility and integration are the cornerstones of the 
Navy Reserve's contribution to future readiness. For example, full 
integration will ensure that Navy Reservists in aviation Fleet Response 
Units (FRU) will be able to quickly activate and support global 
operations under the CNO's Fleet Response Plan (FRP). Our vision is a 
reserve force that is better prepared and more capable for both unit 
and individual mobilization requirements. Co-locating our reserve 
personnel and hardware with their supported fleet units streamlines the 
activation process enabling individuals to train alongside, and be more 
familiar, with the units they will augment. Co-location enables FRU 
aircrews to train and operate state-of-the-art equipment, as well as 
leverage active force tactics and doctrine. Reserve experience and 
availability can also be used to provide onsite fleet support. 
Concurrently, retaining and strengthening the Squadron Augment Unit 
(SAU) concept continues the vital contribution that our experienced 
reserve instructor and maintenance cadre provides to the Fleet 
Replacement Squadrons (FRS). As an aside, every pilot flying combat 
missions in OPERATION ENDURING FREEDOM/OPERATION IRAQI FREEDOM was 
trained by dedicated and professional Navy Reserve aviators providing 
airwing adversary, Fleet exercise and training command support.
    Under the guidance of Commander, Fleet Forces Command, the Navy has 
begun an initiative that will lead to a more integrated total force in 
which Navy Reserve capabilities are tied directly to active units in 
support of SeaPower 21 mission capabilities. The active component is 
currently engaged to clearly articulate requirements for the Navy's 
Reserve. CFFC's reserve integration cell will recommend the future 
Reserve force structure necessary to meet these fleet capability 
requirements. Coordination has already begun with a complete zero-based 
review of Navy Reserve capabilities. Active duty commands have been 
tasked to identify their Reserve support requirements and to describe 
potential new capabilities they need from their Reservists to more 
readily meet their mission requirements.
    To fully realize SeaPower 21, the Navy and its Reserve will align, 
organize, integrate and transform around the four warfighting pillars 
of Sea Strike, Sea Shield, Sea Base and FORCEnet. SeaPower 21 embodies 
a number of maritime capabilities that are in the domain of expertise 
the Navy brings to the Joint Force. To provide sufficient operational 
range and depth to many of these capabilities, and to efficiently and 
effectively meet its requirements as part of the Joint Force, Navy must 
leverage its investment in the extraordinary capabilities, critical 
skills, innovative nature, and entrepreneurial spirit of its reserve 
personnel.
    We support the Secretary of Defense's goal of rebalancing the 
active-reserve component force mix to eliminate the need for 
involuntary mobilization, especially during the first 15 days of an 
operation. Our fiscal year 2005 budget submission reflects the 
additional active-reserve rebalancing changes needed for the Navy to 
meet this goal.
    At present, no Homeland Defense/Homeland Security (HLD/HLS) mission 
has been assigned to the Navy's Reserve, but the Assistant Secretary of 
Defense for Reserve Affairs and the Assistant Secretary of Defense for 
Homeland Defense are conducting a study to determine the appropriate 
role of reserve components in these critical areas. Upon completion of 
the study, new and existing naval capabilities present in the Navy's 
Reserve could be assigned HLD/HLS missions. These might include Harbor 
Defense, Port Security, Maritime Surveillance and Tracking, AT/FP 
roles, Joint Fires Network Units and maintenance of shipping channels. 
As we move forward, evolving missions will continue to influence our 
force shaping and integration initiatives, with the endstate being a 
more combat-capable Total Force.
Priority #4: Quality of Service
    Quality of Service is the combination of quality of life and 
quality of work. It is about achieving balance, personal and 
professional. The Navy will continue to strive to make available the 
best facilities and equipment to train, deploy and fight, and our 
Reservists will benefit from ongoing integration and alignment efforts. 
Ensuring that our Navy's Reservists can rely on predictability, 
periodicity, pay and benefits, will greatly assist each Sailor to 
achieve that balance.
  --Predictability.--Every Sailor in the Navy's Reserve wants to make a 
        difference and needs to know with reasonable advance notice, 
        when and where they will train or perform operational support, 
        whether mobilized, on active duty orders or on routine drills. 
        As part of a fully integrated force, Reservists will train or 
        perform meaningful work that provides or enhances capabilities 
        required by the fleet. Additionally, individual reservists will 
        be able to anticipate drills and periods of active duty through 
        processes that will track and match necessary skills to 
        appropriate billets or orders.
  --Periodicity.--Individual reservists' availability varies during the 
        year and with each employer. These periods of availability can 
        be leveraged to enable each Sailor to provide meaningful fleet 
        support. ``Flexible drilling'' is encouraged to allow 
        reservists to combine traditional drill weekends to work for a 
        week once a quarter, two weeks every six months, or even for 
        several weeks once a year to satisfy participation 
        requirements. If a unit or individual is called to mobilize, 
        reservists should receive as much notice as is possible, with a 
        target of 30 days, to help minimize potential employer or 
        family conflicts.
  --Pay and Benefits.--Reservists should be assured that their benefits 
        will appropriately address their individual and family needs, 
        whether serving at home or abroad. Development of a single pay 
        and benefits system continues to be a priority to standardize 
        the administration of both active and reserve personnel in all 
        services.
    Continuous professional improvement is important to every Sailor, 
active and reserve. Accordingly, the Navy's Reserve is a full partner 
with the Navy in the Sea Warrior initiative, enabling an individual to 
easily access and monitor their career progression and future options. 
Navy Reservists have full access to both the Navy-Marine Corps Intranet 
(NMCI) as well as the Navy Knowledge Online (NKO) web portal, which 
connects every Sailor, active, reserve or retired, and families, to 
information that will significantly aid in their overall education, 
growth and development.
Priority #5: Alignment
    The Navy will continue to take an active role in optimizing the 
balance of active and reserve forces to support our National Military 
Strategy (NMS) and win the Global War on Terror (GWOT). We recognize 
that this balance is dynamic and we continuously review our force 
structure and capability in order to improve integration and alignment. 
Integration provides the Navy's Reserve a path to current equipment, 
concepts and tactics, thereby increasing combat readiness and 
warfighting wholeness. Through integration, the Navy's Reserve will 
become a more capable and agile force with increased warfighting 
capability and a much-improved ability to meet fleet requirements.
    In support of alignment and efficiency, we recently consolidated 
three Navy Reserve staffs in New Orleans into a single Echelon III 
staff to function as the provider of reserve capabilities to Fleet 
Forces Command. Commander, Naval Air Forces Reserve (CNAFR) has been 
assigned as Vice Commander Naval Reserve Forces Command, further 
aligning reserve capabilities under a single structure to work with the 
active component to fully align and integrate the Navy's Reserve. CNAFR 
has also been assigned additional duty to Commander, Naval Air Forces 
(CNAF) in San Diego, CA, to align active and reserve aviation 
capabilities.
    We are embedding key Full-Time Support staff in headquarters, fleet 
and type commands. We have developed strategic linkages between Reserve 
Forces Command and Fleet Forces Command with tangible results, and 
continue to build new bridges throughout the Navy. This was done to 
more closely align reserve and active forces and to improve combat 
effectiveness and efficiency. These actions will strengthen ties 
between the Navy's active and reserve forces and are the first steps in 
an overall initiative that seeks to define, and subsequently forge a 
cohesive ``total force'' team that can more effectively satisfy the 
Navy's operational requirements. We will continue to identify and 
propose practical ways to better integrate reservists and equipment 
with the fleet, and have taken steps to accelerate and solidify our 
integration efforts. We are also participating in a new officer 
exchange program with other Guard and Reserve components, starting with 
the Army National Guard. This initiative will lead to full integration 
at National Guard State Headquarters Command Units to support Northern 
Command's Homeland Security initiatives.
                            accomplishments
    Today's strategic environment requires naval forces that can 
rapidly deliver decisive combat power through a rotational, surge 
capable force. Operations ENDURING FREEDOM and IRAQI FREEDOM 
demonstrated not only the tactical value of this operational concept, 
but also the potent warfighting capabilities of a flexible, responsive 
maritime force, operating either independently or as part of a broader 
Joint Force. The Navy's Reserve played a significant role in the surge 
to war.
    On September 17th, 2001, the first mobilization orders were sent to 
the force. Since that day, 4,537 officers and 18,436 enlisted personnel 
have been mobilized, providing operational support to either their 
supported commands or to Combatant Commanders around the world. With 
respect to OPERATION IRAQI FREEDOM, 12,046 Navy Reservists served their 
country in Navy and joint commands. While some units and equipment were 
mobilized in support of OPERATION IRAQI FREEDOM, we have been able to 
maximize individual mobilizations to support requirements submitted by 
Combatant Commanders, validated by the CNO's staff, and ordered to 
active duty by the Chief of Naval Personnel. For example, 362 drilling 
reservists were mobilized to augment the staff of Commander, U.S. Fifth 
Fleet, the Naval Component Commander for Commander, U.S. Central 
Command and other subordinate commands. These Navy Reservists supported 
this active duty staff in the development of the OPERATION IRAQI 
FREEDOM air plan. Since January 2003, 478 Navy Reservists attached to 
Navy Cargo Handling Battalions across the United States were mobilized 
to facilitate the movement of cargo from bases in the United States and 
overseas to the Central Command area of operation theater in support of 
Operation IRAQI FREEDOM.
    A group of Navy Reservists from Fort Worth, TX, made history on the 
decks of U.S.S. Theodore Roosevelt (CVN 71). For the first time since 
the Korean War, an entire Navy Reserve tactical aviation squadron 
deployed aboard an aircraft carrier when the ``Hunters'' of Strike 
Fighter Squadron 201 were ordered to active duty. Completing a short 
notice workup, the squadron fully integrated with the active airwing, 
completed 224 combat sorties, delivered 125 tons of ordnance in combat, 
and impressed everyone with their experience, dedication and 
capabilities.
    When 800 active duty medical personnel from the National Naval 
Medical Center (NNMC), Bethesda, MD embarked in USNS COMFORT in March 
2003 and another 498 NNMC medical personnel deployed as part of 
Casualty Receiving and Trauma Ship's team members, 548 Navy Reservists 
were recalled to support the National Naval Medical Center. Civilian 
trauma and orthopedic surgeons were mobilized to treat the wounds of 
those Sailors and Marines who required more specialized care.
    843 Naval Reservists have been activated to support Marine Forces 
during the war, including 592 enlisted corpsmen assigned to provide 
critical battlefield medical support to front-line Marine units. 134 
Navy Reserve corpsmen have recently been recalled to support the 
Marines' rotation in conjunction with Operation IRAQI FREEDOM II. Of 
these, 24 Reservists are volunteers for their second year of 
activation, while the remainder have just begun their first activation 
under the current partial mobilization authority.
    Another success story was the mobilization of the ``Firehawks'' of 
Helicopter Combat Support Special Squadron Five (HCS-5) based at Naval 
Air Station North Island, CA, and their subsequent deployment to Iraq, 
where they continue to support CENTCOM operations. In March 2003, 
seventy percent of this squadron's Selected Reservists were recalled to 
active duty in preparation for Operation IRAQI FREEDOM. This squadron 
is composed solely of drilling Reservists and Full-Time Support 
personnel, and is one of two squadrons in the Navy dedicated to Naval 
Special Warfare support and combat search and rescue. The Firehawks fly 
the latest model of the HH-60H Seahawk helicopter and their average 
pilot has more than 12 years of experience flying, and most have over 
2,500 military flight hours. Although the majority of their flights in 
the Iraqi theater have supported special operations ground force 
missions, the squadron has other warfighting capabilities. The 
Firehawks have participated in operations in urban areas and have 
assisted with medical and casualty operations. As of the 5th of March, 
2004, the squadron had flown 916 sorties and logged 1,738 flight hours.
    Navy Reservists from the Redwolves of HCS-4 based at Norfolk Naval 
Base will soon deploy to relieve the combat veterans of HCS-5. This 
critical capability embedded in the Navy's Reserve has proved to be 
invaluable in the support of special operations and the development of 
new tactics in the hostile urban warfare environment. It is a 
predictable and periodic capability that was ready when called upon; 
just what the vision of future reserve contributions will be. They have 
trained with the special warfare units and now deploy with them to 
combat.
    Recently, over five hundred members of the Navy Reserve 
Expeditionary Logistics Support Force have been mobilized in support of 
OPERATION IRAQI FREEDOM II, and it is anticipated that over five 
hundred Seabees will be mobilized as well. Their combat service support 
capabilities are in demand to help relieve the U.S. Army and coalition 
forces in Iraq.
                                summary
    Before I close, I would like to thank this committee for the 
support you have provided the Navy's Reserve and all of the Guard and 
Reserve components. Last year's budget included several positive 
benefits that will help us recruit and retain our talented personnel to 
better support the Navy and joint commands. As you can see, this is a 
very exciting period for the Navy and its Reserve. The CNO has 
challenged every Sailor to review current ways of doing business and 
find solutions to improve effectiveness and find efficiencies. The 
Navy's Reserve has accepted the challenge and promises the members of 
this committee that we will continue to do just that--examine all 
facets of our operation to support the fleet and accelerate our Navy's 
advantage.
STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            COMMANDER, MARINE FORCES RESERVE
    Senator Stevens. General McCarthy.
    General McCarthy. Thank you, Mr. Chairman, Senator Inouye. 
It is a great honor to represent the men and women of the 
Marine Corps Reserve and the sailors who serve with us today.
    I am proud to report to you that the past investments that 
this committee and indeed the entire Congress has made in the 
Marine Corps Reserve have paid real dividends in the global war 
on terrorism. Since my testimony last year, the Marine Forces 
Reserve has been engaged in both combat and the stability 
operations and in just about every other activity that the 
United States Marine Corps has been engaged in. We have also 
prepared for future operations, and today we have Marine Forces 
Reserve units in Iraq, in Afghanistan, and in the Horn of 
Africa and elsewhere around the world.
    I am also pleased to report to you that while all this has 
been going on, we have continued to meet our recruiting goals. 
We have, in fact, slightly exceeded our retention goals and the 
trends, in terms of sustaining this force, are very positive. 
Like everyone, that is something that we watch very, very 
closely because it is not something that we can fix after we 
get behind on it. But I believe that the current trends are, as 
I say, very positive and I believe that we will be able to 
sustain this capability over the long haul.
    I look forward to responding to your specific questions. 
Thank you, sir.
    Senator Stevens. Thank you very much.
    [The statement follows:]
      Prepared Statement of Lieutenant General Dennis M. McCarthy
                              introduction
    Chairman Stevens, Senator Inouye and distinguished Members of the 
Committee, it is my privilege to report on the status and the future 
direction of your Marine Corps Reserve as a contributor to the Total 
Force. On behalf of Marines and their families, I want to thank the 
Committee for its continued support. Your efforts reveal not only a 
commitment for ensuring the common defense, but also a genuine concern 
for the welfare of our Marines and their families.
                    your marine corps reserve today
    As the last few years have demonstrated, the Marine Corps Reserve 
is a full partner in our Total Force. Marine Corps Reserve units 
participated in all aspects Operation IRAQI FREEDOM, providing air, 
ground, and combat service support as well as a large number of 
individual augmentees to Marine and joint staffs. Reserve units 
continue to fill critical roles in our nation's defense during the 
Global War on Terrorism--whether deployed in Iraq, Afghanistan, the 
Georgian Republic, Djibouti, Kuwait, and Guantanamo Bay, Cuba or on 
standby at U.S. bases to quickly respond to Homeland Security crises.
    The Marine Corps has completed 27,389 Reserve activations, in 
response to both internal and joint operational requirements. Of the 
27,389 Marines mobilized since 9/11, 1,426 (or 5.2 percent) have been 
mobilized more than once. For Operations ENDURING FREEDOM V and IRAQI 
FREEDOM II Phase II, of the approximately 6,300 eligible for 
activation, 3,422 Reserve Marines have already been mobilized at least 
once since 9/11. Marine Forces Reserve has maximized the use of 
Individual Ready Reserve volunteers, 4,570 have been activated to meet 
these requirements, primarily in the areas of staff augmentation, such 
as linguists, intelligence specialists, and for force protection 
requirements.
    During the peak of Operation ENDURING FREEDOM and Operation IRAQI 
FREEDOM, the Marine Corps had 21,316 Reserve Marines on Active duty. 
Marine Forces Reserve proved once again that it was ready, willing and 
able to accomplish its primary mission of augmenting and reinforcing 
the active component by seamlessly integrating into the I Marine 
Expeditionary Force. As an example of the level of support Reserve 
Marines provided, 6th Engineer Support Battalion, the second largest 
battalion in the Marine Corps mobilized 1,972 of its 2,172 Marines from 
11 separate sites. The unit is comprised of 10 companies spread among 
12 Reserve centers across the United States. During the war, the 
battalion distributed 8 million gallons of fuel, produced and 
distributed over 3.1 million gallons of water and provided material 
handling support for numerous convoys. In addition, the unit built the 
longest Hose Reel Fuel line system (80 miles), the largest tactical 
fuel farm and the longest Improved Ribbon Bridge in Marine Corps' 
history.
    The Fourth Marine Division was equally engaged. Two infantry 
battalions, 2nd Battalion, 23rd Marines and 2nd Battalion, 25th Marines 
were directly engaged in ground combat, as was 4th Light Armored 
Reconnaissance Battalion, 4th Assault Amphibian Battalion, and other 
combat support and combat service support outfits. Reserve officers and 
staff noncommissioned officers effectively trained their units for 
combat and led them successfully in battle.
    Marine Reserve KC-130Ts proved their worth. Using the most modern 
night vision equipment, they participated in 3rd Marine Aircraft Wing's 
assault support effort, landing on highways and dirt strips to resupply 
Forward Arming and Refueling Points that supported the I Marine 
Expeditionary Force's 500-kilometer drive from Basra to Baghdad and on 
to Tikrit.
    The seamless integration of reserve units is a credit to the Marine 
Corps commitment to Total Force. A strong Inspector-Instructor system, 
providing a top notch staff of Active duty and Active Reserve personnel 
at each site, and a demanding Mobilization and Operational Readiness 
Deployment Test program ensure Marine Corps Reserve units achieve the 
highest level of pre-mobilization readiness. Marine Corps Reserve units 
train to a high readiness standard, eliminating the need for post-
mobilization certification. For Operation IRAQI FREEDOM the Marine 
Corps Reserve executed a rapid and efficient mobilization. While some 
of our Reserve units deployed in as little as six days from 
notification, on the whole our units averaged 23 days from notification 
to deployment. None of our units missed their deployment window. In 
fact, many of our units were notified, activated, and ready to deploy 
faster than strategic lift was available.
    The ability of the Marine Reserve to rapidly mobilize and integrate 
into the active component in response to the Marine Corps' operational 
requirements is a tribute to the dedication, professionalism and 
warrior spirit of every member of the Marine team--both Active and 
Reserve.
                        recruiting and retention
    The Marine Corps Reserve has achieved historically high retention 
rates in fiscal year 2003 and, the retention rate for the Marine Corps 
Reserve remains favorable with a 7 to 10 percent increase over 
retention rates in the near-term past. Marine Forces Reserve will not 
be complacent about these positive trends. I will carefully and 
continuously monitor the data on both recruiting and retention, and 
will make every effort to stay ahead of any problems. These are areas 
in which we cannot wait until we are in trouble to initiate corrective 
measures. Every Marine Corps leader knows the role of leadership, 
training and family readiness programs in the recruiting and retention 
of our Marines.
    With the accession of 6,174 non-prior service Marines and 2,663 
prior service Marines, the Marine Corps Reserve met and exceeded, 
respectively, current recruiting goals. Current Military Occupational 
Specialty match rates are exceeding the goal of 75 percent with an 
enlisted Military Occupational Specialty match rate of 87.4 percent and 
officer match rate of 75.8 percent.
    As of February 29, 2004, our end-strength was 40,235, which is 635 
above our authorized end-strength but within the allowable 2 percent 
variation. Officer recruiting and retention remains our most 
challenging concern. This is due to the low attrition rate for company 
grade officers from the active force. The Marine Corps recruits Reserve 
officers almost exclusively from the ranks of those who have first 
served an active duty tour as a Marine officer. We are exploring 
methods to increase the participation of company grade officers in the 
Selected Marine Corps Reserve through increased recruiting, increased 
command emphasis on Reserve opportunities and participation, and 
Reserve officer accession programs for qualified enlisted Marines. 
Further, the Marine Corps supports the legislative proposal to allow 
bonuses for officers in the Selected Marine Corps Reserve who fill a 
critical skill or shortage. We currently have a shortage of Reserve 
company grade officers; this bonus could complement other efforts we 
are making to increase their participation.
                       marines and their families
    Our future success will rely firmly on the Marine Corps' most 
valuable asset--our Marines and their families.
Operational Tempo Relief
    In addition to supporting Operations NOBLE EAGLE, ENDURING FREEDOM 
and IRAQI FREEDOM, Reserve Marines provided operational tempo relief to 
the active component. Notably, 96 Reserve Marines volunteered to 
participate in the West African Training Cruise-04, a biannual 6th 
Fleet sponsored exercise in West Africa (a first for the Marine Corps 
Reserve). During the months of October and November 2003, the Marines 
deployed to West Africa from various Reserve Training Centers 
throughout the United States via Air Force strategic lift. There they 
boarded the High Speed Vessel Swift and sailed Africa's West Coast 
conducting training exercises with military forces from South Africa, 
Cameroon, Ghana, Gambia, and Senegal.
    Marine Forces Reserve also provided the majority of Marine Corps' 
support to the nation's counter-drug effort, participating in numerous 
missions in support of Joint Task Force 6, Joint Interagency Task 
Force-East and Joint Interagency Task Force-West. Individual Marines 
and Marine units supported law enforcement agencies conducting missions 
along the U.S. Southwest border and in several domestic ``hot spots'' 
that have been designated as high intensity drug trafficking areas.
    Similarly, 335 Reserve Marines volunteered to deploy to South 
America to participate in UNITAS 45-04. Sponsored by Commander, Naval 
Forces Southern Command, UNITAS is an annual naval and amphibious 
exercise that takes place throughout South America. This will be the 
second UNITAS sourced primarily from the Selected Marine Corps Reserve. 
This year the Selected Marine Corps Reserve Marines of Marine Forces 
UNITAS will conduct a 13-week training program at Camp Lejeune, North 
Carolina and subsequently embark on the U.S.S. Tortuga. From the 
Tortuga the Marines will disembark to conduct bilateral training with 
our allies in the Caribbean and the Pacific. In Peru, Marine Forces 
UNITAS 45-04 conduct a multi-national amphibious exercise that includes 
forces from Argentina, Bolivia, Chile, Ecuador, Mexico, Panama, Peru 
and Uruguay.
Mobilization Support
    Mobilization readiness is our number one priority and the men and 
women in the Marine Corps Reserve have responded enthusiastically to 
the call to duty. Approximately 98 percent of Marines reported when 
mobilized. One of the keys to this success is the support given to the 
Marines and their family members prior to, during and after activation.
    Programs such as Marine Corps Community Service One Source provide 
Marines and their families with around-the-clock information and 
referral service for subjects such as parenting, childcare, education, 
finances, legal issues, elder care, health, wellness, deployment, 
crisis support and relocation via toll-free telephone and Internet 
access. Marine Corps Community Service One Source familiarizes our 
activated Reserve Marines and their families not located near major 
military installations to the requirements and procedures associated 
with military programs such as TRICARE.
TRICARE
    Marine Forces Reserve recognizes family readiness as an essential 
part of mobilization preparedness. Upon activation, Reserve families 
must make significant adjustments in lifestyle. Civilian jobs and/or 
educational commitments must be correctly managed: proper notifications 
provided to employers to ensure legal protections, continued good 
Marine-employer relations and an eventual smooth return. The TRICARE 
Prime-Remote provisions have made health care issues less challenging, 
with families no longer required to shift providers in order to use 
TRICARE benefits.
    Since 9/11, Congress has gone to great lengths to improve TRICARE 
benefits available to the Guard and Reserve. Reserve members are now 
eligible for dental care under the TRICARE Dental Program for a minimal 
monthly fee. Mobilized Reserves are granted additional transitional 
benefits once their activation is complete. In an effort to increase 
awareness of the new benefits, Reserve members are now receiving more 
information regarding the changes through an aggressive education and 
marketing plan. And finally, the newest, temporary changes include 
provisional benefits to Marines and their family members 90 days prior 
to their activation date and up to 180 after deactivation and extending 
TRICARE coverage to members and their families who are either 
unemployed or employed but not eligible for employer-provided health 
coverage. The new reserve health program, being temporary, offers us 
the ability to assess the impact of these benefits after the trial 
period. We will review the effects of these programs on reservists and 
their families as they transition to and from active duty and look at 
the overall effect on retention and readiness.
Family Support
    At each of our Reserve Training Centers, the Key Volunteer Network 
Program serves as the link between the deployed command and the 
families, providing unit spouses with official communication, 
information and referrals. This creates a sense of community within the 
unit. Additionally, the Lifestyle Insights, Networking, Knowledge and 
Skills Program is a spouse-to-spouse orientation service offered to new 
Marine spouses to acquaint them with the military lifestyle and the 
Marine Corps, including the challenges brought about by deployments. 
Online and CD-ROM versions of the Lifestyle Insights, Networking, 
Knowledge and Skills Program make this valuable tool more readily 
accessible to working spouses of Reserve Marines not located near 
Marine Corps installations. The Peacetime/Wartime Support Team and the 
support structure within the Inspector and Instructor staff provide 
families of deployed Marines with assistance in developing proactive, 
prevention-oriented steps such as family care plans, powers of 
attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. Our deployed commanding 
officers have confirmed the importance of this family readiness support 
while they were away and as part of their homecoming.
    The Department of Defense has proposed an impressive package of 
legislative initiatives that will help us to effectively employ the 
Marine Corps Reserve. Of particular note are provisions which support a 
``continuum of service,'' a concept that makes it easier for an 
individual service-member to move on and off of active duty depending 
on his or her availability and willingness to serve.
                      preparation for oif ii/oef v
    I am most pleased to report that every Reserve Marine deployed 
during Operation IRAQI FREEDOM and Operation ENDURING FREEDOM and those 
currently deployed into harm's way are fully equipped with the most 
modern Individual Combat Equipment available. Reserve Marines deployed 
in Iraq and Afghanistan are wearing the latest in individual ballistic 
body armor protection, the Improved First Aid Kit, and the new digital 
pattern Marine Corps Combat Utility Uniform. Additional individual 
equipment programs nearing production and distribution to our units 
include the new Lightweight Helmet, the Improved Load Bearing Equipment 
pack system, and the All Purpose Environmental Clothing System third-
generation Gore-Tex.
    Operationally, since I last testified, over 40,000 pieces of 
Reserve combat unit equipment including individual and crew-served 
weapons, night vision devices, radios, computers, vehicles, and 
engineer equipment have been deployed, engaged in theater, redeployed 
back through our Marine Corps installations, processed through the 
maintenance cycle, and returned to Reserve Training Centers. This 
equipment is poised to resource and future contingencies.
           national guard and reserve equipment appropriation
    The $44.6 million provided by fiscal year 2004 National Guard and 
Reserve Equipment Appropriation will provide the Reserve Force with the 
systems needed to improve mission capability and readiness now and into 
the future. Important communications systems such as the Secure Mobile 
Anti-Jam Reliable Tactical Terminal, the Enhanced Position Location 
Reporting System and Iridium Satellite phones will greatly enhance our 
ability to communicate on the battlefield and, most importantly, to 
integrate with the active component. National Guard and Reserve 
Equipment Appropriation funding has allowed the Marine Corps Reserve to 
procure mission-critical night vision devices such as the AN/PVS-17B/C 
Mini Night Vision Sight (used with individual weapon systems) and the 
AN/PAS-13 Thermal Weapon Sight (used with crew-served weapons). These 
sights increase our capability to fight at night and during reduced-
visibility conditions. This year's National Guard and Reserve Equipment 
Appropriation also funded the Electronic Warfare Suite (AFC-230) for 47 
percent of our AH-1W Super Cobra attack helicopters. We require 20 
additional Electronic Warfare Suites to protect the remainder of our 
AH-1W fleet. However, I want to assure you that every aircraft, both 
rotary- and fixed-wing, deploying to Iraq and Afghanistan will have the 
latest in Aircraft Survivability Equipment installed either prior to 
departure, enroute while embarked aboard amphibious shipping, or 
shortly after arrival in-theater. A contractor ``tiger team'' is 
scheduled to arrive in Afghanistan tomorrow, April 8, from Iraq to 
upgrade our UH-1N utility and AH-1W attack helicopters.
                  ground element equipment priorities
    The increasing age of our equipment is also a challenge within the 
Reserve ground component. I am pleased to report that we are meeting 
these challenges in several areas. Of our 3,448 aging High Mobility 
Multipurpose Wheeled Vehicle, Basic and A1 variants, Marine Forces 
Reserve has so far replaced 1,162 with the High Mobility Multipurpose 
Wheeled Vehicle A2 variant. Of our 1,233 Five-Ton truck fleet, 604 have 
been replaced with the Medium Tactical Vehicle Replacement truck. Both 
new vehicle systems embrace the latest sustainability and 
maintainability technological improvements available to the Marine 
Corps.
    We continue to receive over 300 new High Mobility Multipurpose 
Wheeled Vehicle A2s each year and project complete replacement of our 
fleet by fiscal year 2009. We are scheduled to receive an additional 
301 Medium Tactical Vehicle Replacement trucks between now and November 
2004 with the remaining balance scheduled to be delivered by the end of 
fiscal year 2005.
    Efforts to improve our communications capabilities have focused on 
increased fielding of several tactical single-channel radio programs 
including the PRC-117 satellite radios, PRC-150 high frequency radios 
and PRC-148 squad radios. Previous National Guard and Reserve Equipment 
Appropriation funding allowed Marine Forces Reserve to buy state-of-
the-art battery chargers, power adapters for single-channel radios, and 
power inverters, providing a range of alternative power options 
comparable to active component units.
    As I mentioned earlier, mobilization readiness is my number one 
priority. In order to continue seamless integration into the active 
component, my ground component priorities are the sustained improvement 
of individual Marine protective equipment and overall equipment 
readiness. With your continued support, Marine Forces Reserve will 
deploy Marines with the best available individual and unit equipment 
needed to accomplish their mission and return home safely.
                 aviation element equipment priorities
    Maintaining current readiness levels will require continued support 
as our equipment continues to age at a pace exceeding replacement. 
Within Reserve aviation, the average age of our youngest platform is 
the UC-35 at 6 years, followed by the AH-1W Cobra at 11 years, the CH-
53E at 16 years, the KC-130T at 18 years, the F/A-18A at 20 years, and 
the F-5 at 31 years. Our oldest platforms--platforms that have exceeded 
programmed service life--include the UH-1N at 31 years (20-year service 
life) and the CH-46E at 37 years (20-year service life with ``safety, 
reliability, and maintainability'' extension to 30 years). Maintaining 
these aging legacy platforms requires increased financial and manpower 
investment with each passing year due to obsolescent parts and higher 
rates of equipment failure. For example, for every hour the CH-46E is 
airborne, an average of 25.2 maintenance man-hours are required. 
Continued support for airframe and avionics upgrades--pending the 
arrival of the next generation of aircraft--reduces maintenance man-
hours and increases the availability and capabilities of our aircraft.
    We are thankful for and remain confident in the readiness of the 
Marine Corps Reserve, and we seek your continued support in the fiscal 
year 2005 President's Budget. Your continued support is critical in our 
ability to maintain readiness and mission capability to support 
operations in support of the Global War on Terrorism.
                             infrastructure
    Marine Forces Reserve is and will continue to be a community-based 
force. This is a fundamental strength of Marine Forces Reserve. Our 
long-range strategy is to maintain that fundamental strength by 
maintaining our connection with communities in the most cost effective 
way. We do not want to be located exclusively in just several large 
metropolitan areas or consolidated into a few isolated enclaves.
    We seek every opportunity to divest Marine Corps-owned 
infrastructure and to locate our units in Joint Reserve Centers. Marine 
Forces Reserve units are located at 187 sites in 48 states, the 
District of Columbia, and Puerto Rico; 33 sites are owned or leased by 
the Marine Corps Reserve, 154 are either tenant or joint sites. Fifty-
three percent of the Reserve centers we occupy are more than 30 years 
old, and of these, 37 are over 50 years old.
    Investment in infrastructure has been a bill-payer for pressing 
requirements and near-term readiness for most of the last decade. The 
transition to Facilities Sustainment, Restoration and Modernization 
funding has enabled us to more accurately capture our requirements and 
budget accordingly. Similar to the active component, we do not expect 
to be able to bring our facilities to acceptable levels of readiness 
before fiscal year 2013. In fiscal year 2003 we funded seven Whole 
Center Repairs in a step forward to meeting the fiscal year 2013 goal. 
This will reduce the facilities currently rated below acceptable levels 
to 58 percent. While the fiscal year 2005 Presidential Budget provides 
a nearly 39 percent increase in our sustainment budget, we still face a 
backlog in restoration and modernization across the Future Years 
Defense Program of over $30 million. The majority of this backlog 
requires Military Construction funding due to the deterioration of our 
facilities, but it also includes Operations and Maintenance-funded 
whole center repair projects and site improvements at Reserve Training 
Centers in Texas, New York, Florida, and Washington. Maintaining 
facilities adequately is critical to providing quality-training centers 
that support the readiness of our Marines. Replacing inadequate 
facilities is also part of our overall infrastructure program. The 
yearly Presidential Budget average for new military construction of 
$8.67 million for the previous six fiscal years has allowed us to 
address our most pressing requirements.
    Past vulnerability assessments identified $33.6 million in projects 
to resolve anti-terrorism/force protection deficiencies at the 41 sites 
that we own or at which we have responsibility for site maintenance. We 
have expended $8.3 million the last two years to reduce these 
vulnerabilities. The age of our infrastructure means that much of it 
was built well before anti-terrorism/force protection was a major 
consideration in design and construction. These facilities will require 
anti-terrorism/force protection resolution through structural 
improvements, relocation, replacement or the acquisition of additional 
stand-off distance. All these expensive solutions will be prioritized 
and achieved over the long-term to provide the necessary level of force 
protection for all our sites. We continue to improve the anti-
terrorism/force protection posture at our Reserve Training Centers and 
are acting proactively to resolve the issues and deficiencies.
                    modernization and transformation
Command, Control, Communications, and Computers
    With your help, we have made great strides in Command, Control, 
Communications, and Computers equipment readiness during the past year. 
Marine Forces Reserve's Command, Control, Communications, and Computers 
readiness increased noticeably, due to the fiscal year 2003 National 
Guard and Reserve Equipment Appropriation. As I speak to you today, a 
detachment of our 4th Air Naval Gunfire Liaison Company is in Iraq, 
outfitted with high frequency and satellite radio equipment almost 
completely procured with the fiscal year 2003 National Guard and 
Reserve Equipment Appropriation funds. This marks the first time in the 
past year and a half a Reserve Air Naval Gunfire Liaison Company unit 
performed its mission without provisioning radio equipment from its 
gaining force commander.
    There are a few areas that I would like to bring to your attention 
in which you may again assist us. Because of the increased reliance on 
Marine Forces Reserve's military police and civil affairs capabilities, 
we have validated an additional requirements for 200 handheld radios. 
Critical new requirements have emerged for our civil affairs groups' 
coordination and command-and-control capabilities such as the 
additional validated need for 100 AN/PRC-148 handheld radios and 50 
single channel/satellite AN/PRC-117 radios to meet the unexpected 
growth in civil affairs capabilities.
Digital Data Servers
    Progress has been made in fielding new equipment to bridge the gap 
between active component units and their Reserve counterparts. However, 
there are areas of improvement in which you can help speed the closure 
of the gap.
    Prior to completion of Marine Forces Reserve fielding, 24 Digital 
Data Server suites were reallocated to support training requirements 
for Operation IRAQI FREEDOM.
Enhanced Data Relay
    Today, battalion-level units in the Total Force are unable to 
receive robust data communications beyond line-of-sight. Regimental-
level units rely on satellite and multi-channel radios to maintain 
reliable secure data communications to senior and parallel headquarters 
across the battlefield. The data link down to battalion-level units is 
the Enhanced Position and Location Reporting System, but it has a range 
limited by line-of-sight. The range limitation does not allow the 
secure data communications to be extended from the Regimental level to 
distant or fast moving battalion-level and below units. The Marine 
Corps Command-and-control on-the-move Network Digital Over-the-Horizon 
Relay initiative is an attempt to extend data networks beyond line-of-
site. This initiative uses satellite and ground radio relays mounted on 
High Mobility Multipurpose Wheeled Vehicles in three variants. It also 
allows units to use standard radios to connect to tactical data 
networks. Though in the early stages of development, the Marine Corps 
Reserve's tactical Command, Control, Communications, and Computers 
effectiveness as well as that of the active component could be 
significantly enhanced with funding and fielding of the Command-and-
control on-the-move Network Digital Over-the-Horizon Relay initiative.
Navy-Marine Corps Intranet
    With the delay of Marine Forces Reserve's transition to the Navy-
Marine Corps Intranet, many Marine Reserve units have not received up-
to-date hardware to replace their aging computers. At least 12 percent 
of our computers are incapable of running the Marine Corps-approved 
operating systems, creating compatibility and reliability issues. 
Marine Forces Reserve is advance-fielding Navy-Marine Corps Intranet 
deployable computers to units deploying for operations to mitigate this 
problem. While this is a quick fix, it does not solve the primary issue 
of aging computers in the Force. Presently, Marine Forces Reserve is 
only funded for approximately 8,000 Navy-Marine Corps Intranet 
computers. Unfortunately this leaves 6,000 required Navy-Marine Corps 
Intranet computers, in the form of user seats. Without the funding to 
replace our aging computers, Marine Forces Reserve will have to contend 
with critical long-term computer compatibility and reliability issues.
AN/PRC-150
    The fiscal year 2004 National Guard and Reserve Equipment 
Appropriation significantly mitigated our high frequency radio 
readiness issues with the purchase of man-packed AN/PRC-150 radios to 
replace the obsolescent AN/PRC-104s. However, the acquisition objective 
for AN/PRC-150 radios will grow as more of the 20-year-old AN/PRC-104s 
become unserviceable. We appreciate your continued support for the 
funding of the AN/PRC-150s which will keep potential high frequency 
radio readiness issues at bay.
    As the transformation of our Force continues, there will be a 
greater need for newer tactical Command, Control, Communications, and 
Computers equipment to fill voids in satellite communications and data 
communications areas. Requirements for the Lightweight Multi-band 
Satellite Terminal will increase to provide the same wideband satellite 
communications capability resident in the active component's major 
communications units. Tactical data network requirements will continue 
to grow and so will the need for a continued refreshing of computer 
technology in the Force. During the next year, requirements for 
additional Lightweight Multi-band Satellite Terminals and tactical data 
network equipment will be identified for funding.
    In the past few minutes, I pointed out several challenges in 
Command, Control, Communications, and Computers readiness for Marine 
Forces Reserve. However, I want to emphasize that while challenges 
remain, your support in providing a path for us to replace and sustain 
our Command, Control, Communications, and Computers equipment has 
placed your Marine Reserve in a much better Command, Control, 
Communications, and Computers posture than a year ago.
                               conclusion
    The Marine Corps Reserve is ready, willing and able to answer our 
Nation's call to duty in the Global War on Terrorism, as has been so 
well demonstrated by the mobilization and integration of Reserves into 
the active component. Our greatest asset is our outstanding young men 
and women in uniform. The Marine Corps appreciates your continued 
support and collaboration in making the Marine Corps and its Reserve 
the Department of Defense model for Total Force integration and 
expeditionary capability.
STATEMENT OF LIEUTENANT GENERAL JAMES E. SHERRARD, III, 
            CHIEF, AIR FORCE RESERVE
    Senator Stevens. General Sherrard, I believe this is your 
last visit with us. We thank you for your dedication to the Air 
Force Reserve and for being with us in the past years. We wish 
you well. We would be pleased to have your statement.
    General Sherrard. Thank you, Senator. Thank you very much. 
On behalf of the almost 79,000 military and civilian members of 
the Air Force Reserve, it is indeed my honor and privilege to 
be here to speak on their behalf before this distinguished 
committee.
    I would tell you, sir, that we have had more than 28,000 
Air Force Reservists mobilized since September 11th and 
currently have over 5,600 serving today. They have served with 
distinction and we are awfully proud of that. We believe that 
their capabilities which they provide to our Air Force are 
essential and they are truly a result of our priorities that we 
have established over the years and continue to carry our top 
three priorities, the first being people, the second being 
readiness, and the third being modernization.

                        RECRUITING AND RETENTION

    Under the people priority, recruiting and retention are 
essential for us. On the recruiting side, as I have testified 
before this committee previously, we continue to be challenged 
by the smaller number of members that are separating from the 
active force. So, therefore, we must place our focus more on 
the non-prior service members. We are finding that we can 
recruit those members. It certainly takes a longer time for our 
recruiting force, but the major challenge is the longer period 
it takes for them to gain the experience level that is 
necessary for them to do the things that we ask of them. Our 
history has always shown us that the high technological needs 
of our service demands an experienced force, and we certainly 
need to do that.

                               RETENTION

    On the retention side, again as I have testified 
previously, I continue to stress the need for us to be able to 
retain our members, particularly those who have reached the 
point of 20 satisfactory years of service and realizing that 
the experience level is exactly the one we want to make sure 
that we do not let leave our fold, and if we can retain the 
members to their maximum military service separation date or 
high year tenure date for our enlisted members, then we have a 
much better and more capable force.

                  FAIR REPRESENTATION AND COMPENSATION

    The third piece of the people side of the house is equal 
and equitable or fair representation and compensation and 
making certain that when our members are activated, they in 
fact are receiving the benefits that do not put them at a 
disadvantage to those that they are serving with.

                               READINESS

    On the readiness side, we take great pride in the Air Force 
that there is one tier of readiness. The active Air Force 
creates the standard. We in the Air Force Reserve Command train 
to that standard and the active force evaluates it, and that 
has been the key to our success that when our members show up 
in theater, they are ready to go as a full combat-ready force 
ready to meet the challenges that come their way.

                             MODERNIZATION

    And under modernization, I must tell you and echo what my 
colleagues have said. We thank you so much for the NGREA 
dollars that have been provided to us. They have allowed us to 
modernize and maintain our fleet in a form that makes them 
relevant and most assuredly capable. We need to continue to 
pursue that, making certain that we give our members the very 
best equipment possible to do the job, making certain that it 
is relevant and interoperable with not only the active force 
but with our coalition partners.
    We need to continue to watch very carefully the 
modernization side and work very diligently, as was mentioned 
by the first panel, to look at integrating our units better 
operationally. We in the Air Force Reserve Command have been 
using the associate concept since 1968. It has served us well 
and there are certainly different ways of utilizing that 
particular endeavor and we are seeking and doing those today, 
whether it be in the Airborne Warning Air Control System (E-3A) 
(AWACS) mission in the Specialized Undergraduate Pilot Training 
(SUPT) program and we continue looking in the fighter associate 
and other arenas.
    I look forward to your questions, sir.
    Senator Stevens. Thank you very much.
    [The statement follows:]
    Prepared Statement of Lieutenant General James E. Sherrard, III
    Mr. Chairman, and distinguished members of the Committee, I would 
like to offer my sincere thanks for this opportunity, my last, to 
testify before you. As of September 30, 2003, United States Air Force 
Reserve (USAFR) has a total of 8,135 people mobilized under Partial 
Mobilization Authority. These individuals are continuing to perform 
missions involving: Security, Intelligence, Flight Operations for 
Combat Air Patrols (CAPs), Communications, Air Refueling Operations, 
Strategic and Tactical Airlift Operations, Aero Medical, Maintenance, 
Civil Engineering and Logistics. The Partial Mobilization for the 
Global War on Terrorism (GWOT) is the longest sustained, large-scale 
mobilization in the history of the Air Force. AFR mobilizations peaked 
at 15,332 on April 16, 2003 during OIF with a cumulative 28,239 
mobilizations sourced in every contingency supporting GWOT since 
September 11, 2001. Early GWOT operations driven by rapid onset events 
and continued duration posed new mobilization and re-mobilization 
challenges, which impacted OIF even though only a portion of the 
Reserve capability was tapped.
    In direct support of Operation ENDURING FREEDOM (OEF), Operation 
IRAQI FREEDOM (OIF), and the Global War on Terrorism (GWOT), Air Force 
Reservists have flown a multitude of combat missions into Afghanistan 
and Iraq. The 93rd Bomb Squadron is an example of one of the many units 
to successfully integrate with active duty forces during combat 
missions in OEF and OIF. Reserve crews, which comprise eight percent of 
the conventional crews, flew on 42 percent of all B-52 combat missions 
during four combat deployments in support of these operations. The 93rd 
Bomb Squadron performed many operations that were a first for B-52 
operations as well as demonstrating maximum flexibility as a war-
fighting unit. One of their B-52's was the first to employ Precision 
Strike Laser Guided Bomb self-designate capability using the LITENING 
II targeting pod. Reserve aircrews have also flown C-17 airland/airdrop 
missions into Afghanistan and Iraq delivering humanitarian aid and 
supplies for the warfighting effort. They also provided air refueling 
tanker crews and support personnel from the 434th Air Refueling Wing at 
Grissom ARB, Indiana (KC-135) and 349th Air Mobility Wing at Travis 
AFB, California (KC-10). Additionally, Air Force Reserve F-16 units 
have been involved in support of Operation NOBLE EAGLE (ONE) by flying 
combat air patrols over key American cities (301st Fighter Wing, JRB 
NAS Fort Worth, Texas, 482d Fighter Wing, Homestead ARB, Florida, and 
419th Fighter Wing, Hill AFB, Utah). These units were also deployed at 
various times in support of OEF and OIF operations.
                               recruiting
    The Air Force Reserve continued to address new challenges in 2003. 
Partial mobilization persists, though it's reducing day-by-day, but 
volunteerism continues to be a significant means of contribution. 
Dedicated members of the Air Force Reserve continue to meet validated 
operational requirements. Recruiting and retention of quality service 
members is taking top priority for the Air Force Reserve Command (AFRC) 
and competition for these members among other services, as well as 
within the civilian community has reached an all-time high.
    AFRC end strength for fiscal year 2003 was 98.8 percent of 
authorized end strength.
    Recruiting continues to pose other significant challenges as well. 
The pool of active duty separatees continue to shrink from its peak 
prior to force reduction over a decade ago, and a perceived likelihood 
of activation and deployment are being cited as significant reasons why 
separating members are declining to choose continuing military service 
in the Reserve. These issues further contribute to the civilian 
sector's ability to attract these members away from military service.
    The Air Force Reserve is developing a strategy to take advantage of 
an active duty Force Shaping initiative. Within this fiscal year, Air 
Force will offer active duty members the opportunity to use the Palace 
Chase program to change components. While the details are not fully 
approved, the Air Force Reserve may have an unprecedented opportunity 
to access prior service members in critical career skills.
    We are hopeful that we will be able to preserve the training and 
experience of some 16,000 personnel who may take advantage of the 
opportunity to serve under Palace Chase, but we must ensure the right 
force mix and the right faces to match our vacancies--it's not just a 
``numbers drill''.
    One consequence of the reduced success in attracting separating 
members from Active Duty is the need to make up this difference through 
attracting non-prior service members. While having enough Basic 
Military Training and Technical Training School quotas has long been an 
issue, the increased dependence on non-prior service accessions strains 
these requirements even further.
                               retention
    Though retention was enhanced through ``Stop-Loss'' in the previous 
two years, the eventual effects of this program may be felt in this 
fiscal year. Even though ``Stop-Loss'' was terminated in June 2003, the 
six-month manning policy provides an additional period of relief. 
Coupled with the policy to establish a separation date six months from 
the end of re-deployment, if there will be a subsequent impact on 
retention, it will be felt in this fiscal year.
    We continue to look for viable avenues to enhance retention of our 
reservists. The reserve enlisted bonus program is a major contributor 
to attract and retain both unit and individual mobilization augmentee 
members in those critical (Unit Type Code tasked) career fields. We 
successfully increased the prior service enlistment bonus amount to 
$8,000 this past year for a maximum six-year enlistment in accordance 
with related legislative authority granted in 2003. We continue to 
explore the feasibility of expanding the bonus program across AFRC as 
determined necessary; however, no decision has yet been made to 
implement. The Aviation Continuation Pay (ACP) continues to be offered 
as an incentive for active duty (AGRs).
    One of the most positive quality of life enhancements occurred when 
the Department of Defense reduced the required threshold for dependent 
eligibility for TRICARE Prime from 179 days of consecutive active duty 
to 31 days of duty. This threshold reduction allows for greater 
dependent health care for the vast majority of Reserve members serving 
on periods of active duty, and will greatly increase volunteerism 
across the force for a wide variety of requirements. Additionally, the 
2004 NDAA provides for three temporary improvements to the overall 
TRICARE system for Air Force Reserve members: access to heath care for 
inactive members and their dependents, provided they are eligible for 
unemployment compensation or not otherwise eligible for employer-
provided health care; earlier TRICARE eligibility for Air Force Reserve 
members with delayed effective-date activation orders; and finally, the 
period of time granted for transition health care coverage was expanded 
from 60 and 120 days up to 180 days for certain members separating from 
active duty. These vast improvements in the TRICARE program, though 
temporary, will continue to pay dividends in the quality of life 
characterization for our Air Force Reserve members, and ultimately 
serve as a critical readiness tool.
Space Operations
    Air Force Reserve Command (AFRC) provides over 1,100 trained space 
officer, enlisted, civilian, and contractor personnel at more than 15 
locations to acquire, plan, launch, task, operate, assess, and protect 
more than 28 weapon systems at 155 units worldwide for Air Force Space 
Command, United States Strategic Command, Headquarters Air Force, 
National Reconnaissance Office, and others. An annual budget of over 
$22 million funds AFRC space operations and requirements providing 
command, control, computers, communication, intelligence, surveillance, 
reconnaissance (C\4\ISR), navigation, weather, missile warning, network 
security and force protection support to warfighters around the globe.
  --Nine associate units at four locations operate Global Positioning 
        System (GPS), Space-Based Infrared System (SBIRS), Defense 
        Support Program (DSP), and Defense Meteorological Satellite 
        Program (DMSP) satellites; fully integrate with the Network 
        Operations and Security Center (NOSC) and Space AOC; conduct 
        test and space aggressor activities; and provide security 
        forces for land-based facilities.
  --Nearly 700 individual mobilization augmentees (IMAs) at more than 
        15 locations provide support in all areas of the ``cradle-to-
        grave'' life cycle of national space assets.
  --AFRC space personnel have been fully involved in planning and 
        executing military activities supporting Operations NOBLE 
        EAGLE, ENDURING FREEDOM, IRAQI FREEDOM, and NORTHERN and 
        SOUTHERN WATCH.
  --Reserve Associate Programs have been highly successful and are 
        projected for additional growth in the future. Associate unit 
        concepts being studied include space control, launch 
        operations, ICBM communications, and Space Operations School.
Associate Program
    The Air Force Reserve Command (AFRC) Associate Program meshes 
reserve units with active-duty units at bases throughout the United 
States. AFRC units use host aircraft and equipment for their training 
and work directly with their active duty counterparts. Associate 
mobility units fly C-141 Starlifter, C-5 Galaxy, and C-17 Globemaster 
III transports along with KC-10 Extender and KC-135 Stratotanker tanker 
aircraft. In the spring of 1996, AFRC began filling aircrew and 
maintenance support personnel positions in the 513th Air Control Group, 
an E-3 Sentry Airborne Air Control System unit.
    AFRC is continuing to expand the scope of the associate program 
into new mission areas. New units supporting Air Education and Training 
Command's undergraduate pilot training program are being managed by the 
340th Flying Training Group located at Randolph Air Force Base, Texas, 
and the 301st Fighter Squadron, F-16 associate instructor pilot program 
at Luke Air Force Base, AZ. AFRC has an associate fighter unit at Shaw 
Air Force Base, SC, associate pilots flying F-16s with the 
``Aggressor'' squadron at Nellis AFB, NV, and an associate flight test 
unit integrated with the Federal Aviation Administration.
    The flexibility of the Associate program allows for the effective 
and efficient use of highly trained AFRC aircrew members. Associate 
units also provide aircraft maintenance personnel to maintain the 
active duty aircraft ensuring the utilization of our air frames to the 
maximum extent.
    The 919th Special Operations Wing, Duke Field, FL, trains in one of 
the U.S. military's most unique missions--special operations. Wing 
aircraft include MC130E Combat Talon I aircraft equipped for use in 
night/adverse weather, low-level, deep-penetration tactical missions. 
These aircraft have also been modified to conduct air-to-air refueling 
with special operations helicopters. In February 2000, the 8th Special 
Operations Squadron (active duty) joined the 711th SOS at Duke Field as 
a reverse associate unit--meaning active duty personnel fly reserve-
owned aircraft. The 919th SOW manages all Talon I aircraft in the Air 
Force inventory. This is a first for Air Force Special Operations 
Command and the second time in Air Force history since the EC-121 
mission.
    The wing also flies the MC-130P Combat Shadow aircraft (5th SOS), 
which has been modified with new secure communications, self-contained 
inertial navigation, countermeasures systems and night vision goggle-
compatible lighting. The aircraft's primary mission is to conduct 
single-ship or formation in-flight refueling of special operations 
helicopters in a low to selected medium-threat environment. On October 
1, 1999, the 5th SOS moved to Eglin AFB to join the 9th SOS (active 
duty) as an associate Reserve unit. This marked another first in the 
special operations mission area. Finally, as mentioned above, the 
Associate program in the space operations arena is rapidly expanding.
    Associate units provide several benefits and enhancements to 
include the following: Force multiplier which increases surge 
capability for war time or contingencies; continuity as AFRC forces 
provide stability and a service option for departing active duty 
personnel; experience as Reservists tend to have more years of service 
and bring invaluable civilian experience and knowledge to the military; 
and efficiencies due to Reserve cost savings and sharing of weapon 
systems and equipment.
                             modernization
    Effective modernization of Air Force Reserve assets is a key issue 
to remaining a relevant and combat ready force. It has been and 
continues to be apparent that the Reserve Component is crucial to the 
defense of our great nation. The events of September 11th cemented the 
Total Force initiatives already in place and Air Force Reserve Command 
(AFRC) is working shoulder-to-shoulder with the Active Duty and Air 
National Guard components in the long battle to defeat terrorism. Even 
before 9/11, USAFR was an active participant in day-to-day AF 
operations. USAFR is no longer a force held in reserve solely for 
possible war or contingency actions--we are an Operational Reserve, at 
the tip of the spear. It is therefore imperative that we remain a 
relevant and combat ready force for the future.
    Our modernization strategy is sound but is dependent upon lead 
command funding. Lead command funding of AFRC modernization priorities 
continues to be one of our challenges. We continue to work with the 
Department of Defense and the Department of the Air Force to address 
our requirements. We greatly appreciate your support for the increase 
to the National Guard and Reserve Equipment Authorization (NGREA) 
funding in the fiscal year 2004 NDAA, as we strive to utilize the best 
technological advances available to us, to keep our people safe in 
current theaters of operations. Success in meeting our modernization 
goals depends on our cohesive and focused approach to accepting new 
mission areas, while ensuring the continued success of current mission 
areas and robust interaction with the lead commands, as well as, 
keeping Congress informed of USAFR initiatives.
                          fleet modernization
F-16 Fighting Falcon
    Air Combat Command and AFRC are upgrading the F-16 Block 25/30/32 
in all core combat areas by installing Global Positioning System (GPS) 
navigation system, Night Vision Imaging System (NVIS) and NVIS 
compatible aircraft lighting, Situational Awareness Data Link (SADL), 
Targeting Pod integration, GPS steered ``smart weapons'', an integrated 
Electronics Suite, Pylon Integrated Dispense System (PIDS), Digital 
Terrain System (DTS), and the ALE-50 (towed decoy system). The 
acquisition of the LITENING II targeting pod marked the greatest jump 
in combat capability for AFRC F-16s in years. At the conclusion of the 
Persian Gulf War, it became apparent that the ability to employ 
precision-guided munitions, specifically laser-guided bombs, would be a 
requirement for involvement in future conflicts. LITENING II Advanced 
Technology (AT), an upgrade to LITENING II, affords the capability to 
employ precisely targeted Laser Guided Bombs (LGBs) effectively in both 
day and night operations, any time at any place. This capability allows 
AFRC F-16s to fulfill any mission tasking requiring a self-designating, 
targeting-pod platform, providing needed relief for heavily tasked 
active-duty units. AFRC will complete the purchase of AT upgrade kits 
and finish pod purchases for the F-16 this fiscal year. These 
improvements have put AFRC F-16s at the leading edge of combat 
capability. The combination of these upgrades are unavailable in any 
other combat aircraft and make the Block 25/30/32 F-16 the most 
versatile combat asset available to a theater commander.
    Tremendous work has been done keeping the Block 25/30/32 F-16 
employable in today's complex and demanding combat environment. This 
success has been the result of far-sighted planning that has 
capitalized on emerging commercial and military technology to provide 
specific capabilities that were projected to be critical. That planning 
and vision must continue if the F-16 is to remain useable as the 
largest single community of aircraft in America's fighter force. Older 
model Block 25/30/32 F-16 aircraft require structural improvements to 
guarantee that they will last as long as they are needed. They also 
require data processor and wiring system upgrades in order to support 
employment of more sophisticated precision attack weapons. They must 
have improved pilot displays to integrate and present the large volumes 
of data now provided to the cockpit. Additional capabilities are needed 
to eliminate fratricide and allow weapons employment at increased 
range, day or night and in all weather conditions. They must also be 
equipped with significantly improved threat detection, threat 
identification, and threat engagement systems in order to meet the 
challenges of combat survival and employment for the next 20 years.
A/OA-10 Thunderbolt
    There are five major programs over the next five years to ensure 
the A/OA-10 remains a viable part of the total Air Force. The first is 
increasing its precision engagement capabilities. The A-10 was designed 
for the Cold War and is the most effective Close Air Support (CAS) 
anti-armor platform in the USAF, as demonstrated during Desert Storm, 
OEF and OIF. Unfortunately, its systems have not kept pace with modern 
tactics as was proven during Operation ALLIED FORCE. The AGM-65 
(Maverick) is the only precision-guided weapon carried on the A-10. 
Newer weapons are being added into the Air Force inventory regularly, 
but the current avionics and computer structure limits the deployment 
of these weapons on the A-10. An interim solution using Avionics 
Interface Modules to integrate LITENING II targeting pods was developed 
by the Air Reserve Component to bring added combat capability quickly 
to the battlefield. This capability must be integrated permanently to 
bring full precision strike abilities to the fight. The Precision 
Engagement and Suite 3 programs will further expand this combat 
capability and help correct limitations of aged systems. Two other 
programs, Embedded GPS and Integrated Flight and Fire Control Computer 
(IFFCC) will increase the navigation accuracy and the overall 
capability of the fire control computer, both increasing the weapon 
system's overall effectiveness.
    One of the A-10 challenges is resources for upgrade in the area of 
high threat survivability. The Avionics to EW Buss modification will 
enhance survivability by providing some automated flare dispensing. 
Previous efforts have focused on an accurate missile warning system and 
effective, modern flares; however a new preemptive covert flare system 
may increase survivability. The A-10 can leverage the work done on the 
F-16 Radar Warning Receiver and C-130 towed decoy development programs 
to achieve a cost-effective capability. In an effort to increase loiter 
time, we are installing fire suppressant foam in our Sergeant Fletcher 
external fuel tanks, allowing removal of current flight restrictions 
regarding use of the external tanks in combat scenarios. Next, critical 
systems on the engines are causing lost sorties and increased 
maintenance activity. Several design changes to the accessory gearbox 
will extend its useful life and reduce the existing maintenance expense 
associated with the high removal rate. However, the A/OA-10 has a 
thrust deficiency in its operational environment. As taskings evolved, 
commanders have had to reduce fuel loads, limit take-off times to early 
morning hours and refuse taskings that increase gross weights to 
unsupportable limits. AFRC A/OA-10s need upgraded structures and 
engines.
B-52 Stratofortress
    In the next five years, several major programs will be introduced 
to increase the capabilities of the B-52 aircraft. Included here are 
programs such as a Crash Survivable Flight Data Recorder and a Standard 
Flight Data Recorder, upgrades to the current Electro-Optical Viewing 
System, Chaff and Flare Improvements, and improvements to cockpit 
lighting and crew escape systems to allow use of Night Vision Goggles.
    Enhancements to the AFRC B-52 fleet currently under consideration 
are: Visual clearance of the target area in support of other 
conventional munitions employment; target coordinate updates to JDAM 
and WCMD, improving accuracy; and Bomb Damage Assessment of targets.
    In order to continue the viability of the B-52 well into the next 
decade, several improvements and modifications are necessary. Although 
the aircraft has been extensively modified since its entry into the 
fleet, the advent of precision guided munitions and the increased use 
of the B-52 in conventional and OOTW operation requires additional 
avionics modernization and changes to the weapons capabilities such as 
the Avionics Midlife Improvement (AMI), Conventional Enhancement 
Modification (CEM), and the Integrated Conventional Stores Management 
System (ICSMS). Effective precision strike capability was proven during 
OEF/OIF using LITENING II Targeting Pods. Permanent targeting pod 
integration is needed to retain this capability in the future. Changes 
in the threat environment are also driving modifications to the 
defensive suite including Electronic Counter Measures Improvement 
(ECMI). Modifications to enhance stand off jamming capability are also 
underway to bring the B-52 into the AEA arena. The B-52 in the AEA 
configuration will provide the United States Air Force with the 
capability to deny, deceive, and destroy the enemy.
    The B-52 was originally designed to strike targets across the globe 
from launch in the United States. This capability is being repeatedly 
demonstrated, but the need for real time targeting information and 
immediate reaction to strike location changes is needed. Multiple 
modifications are addressing these needs. Advanced weapons integration 
programs are needed for Joint Air to Surface Standoff Missile (JASSM), 
Joint Standoff Weapon (JSOF), and Miniature Air Launched Decoy (MALD) 
capability to be fully realized. These integrated advanced 
communications systems will enhance the B-52 capability to launch and 
modify target locations while airborne. Other communications 
improvements are Link 16 capability for intra-theater data link, the 
Global Air Traffic Management (GATM) Phase 1, an improved ARC-210, the 
KY-100 Secure Voice, and a GPS-TACAN Replacement System (TRS).
    As can be expected with an airframe of the age of the B-52, much 
must be done to enhance its reliability and replace older, less 
reliable or failing hardware. These include a Fuel Enrichment Valve 
Modification, Engine Oil System Package, and an Engine Accessories 
Upgrade, all to increase the longevity of the airframe.
MC-130H Talon
    In 2006, AFRC and Air Force Special Operations Command will face a 
significant decision point on whether on not to retire the Talon I. 
This largely depends on the determination of the upcoming SOF Tanker 
Requirement Study. Additionally, the MC-130H Talon II aircraft will be 
modified to air refuel helicopters. The Air Force CV-22 is being 
developed to replace the entire MH-53J Pave Low fleet, and the MC-130E 
Combat Talon I. Ultimately, supply/demand will impact willingness and 
ability to pay for costly upgrades along with unforeseeable expenses 
required to sustain an aging weapons system.
HC-130P/N Hercules
    Over the next five years, there will be primarily sustainability 
modifications to the weapons systems to allow it to maintain 
compatibility with the remainder of the C-130 fleet. In order to 
maintain currency with the active duty fleet, AFRC has accelerated the 
installation of the APN-241 radar as a replacement for the APN-59. All 
AFRC assets will be upgraded to provide Night Vision Imaging System 
(NVIS) mission capability for C-130 combat rescue aircraft. Necessary 
upgrades include defensive capability for the increasing infrared 
missile threat such as the Large Aircraft Infrared Countermeasures 
(LAIRCM) system.
HH-60G Pave Hawk
    Combat Search and Rescue (CSAR) Mission Area modernization strategy 
currently focuses on resolving critical weapon system capability 
shortfalls and deficiencies that pertain to the Combat Air Force's 
Combat Identification, Data Links, Night/All-Weather Capability, Threat 
Countermeasures, Sustainability, Expeditionary Operations, and Para 
rescue modernization focus. Since the CAF's CSAR forces have several 
critical capability shortfalls that impact their ability to effectively 
accomplish their primary mission tasks today, most CSAR modernization 
programs/initiatives are concentrated in the near-term. These are 
programs that:
  --Improve capability to pinpoint location and authenticate identity 
        of downed aircrew members/isolated personnel;
  --Provide line-of-sight and over-the-horizon high speed LPI/D data 
        link capabilities for improving battle space/situational 
        awareness;
  --Improve Command and Control capability to rapidly respond to 
        ``isolating'' incidents and efficiently/effectively task 
        limited assets;
  --Improve capability to conduct rescue/recovery operations at night, 
        in other low illumination conditions, and in all but the most 
        severe weather conditions;
  --Provide warning and countermeasure capabilities against RF/IR/EO/DE 
        threats; and
  --Enhance availability, reliability, maintainability, and 
        sustainability of aircraft weapon systems.
    Work continues on the Personnel Recovery Vehicle (PRV), a 
replacement for the ageing HH-60G helicopter sometime in the 2011 
timeframe.
C-130 Hercules
    AFRC has 127 C-130s including the E, H, J and N/P models. The 
Mobility Air Forces (MAF) currently operates the world's best theater 
airlift aircraft, the C-130, and it will continue in service through 
2020. In order to continue to meet the Air Force's combat delivery 
requirements through the next 17 years, aircraft not being replaced by 
the C-130J will become part of the C-130X Program. Phase 1, Avionics 
Modernization Program (AMP) program includes a comprehensive cockpit 
modernization by replacing aging, unreliable equipment and adding 
additional equipment necessary to meet Nav/Safety and GATM 
requirements. Together, C-130J and C-130X modernization initiatives 
reduce the number of aircraft variants from twenty to two core 
variants, which will significantly reduce the support footprint and 
increase the capability of the C-130 fleet. The modernization of our C-
130 forces strengthens our ability to ensure the success of our war 
fighting commanders and lays the foundation for tomorrow's readiness. 
Ongoing and future modernization efforts by AFRC include APN 241 Radar 
and Large Aircraft Infrared Countermeasures (LAIRCM) for our C-130H2/H3 
aircraft. Fiscal year 2004 funds provided for APN 241 radar. LAIRCM is 
required to protect the aircraft from current and future IR threats. 
The AN/AAQ-24 LAIRCM system uses a laser beam to defeat the missile and 
does not rely on hazardous and politically sensitive expendables that 
highlight the aircraft to additional threat.
WC/C-130J Hercules
    The current fleet is being replaced with new WC-130J models. This 
replacement allows for longer range and ensures weather reconnaissance 
capability well into the next decade. Once conversion is complete, the 
53rd Weather Reconnaissance Squadron will consist of 10 WC-130J's. 
Presently, there are six WC-130J models at Keesler AFB, MS undergoing 
Qualification Test and Evaluation (QT&E). The remaining four aircraft 
currently loaned to Lockheed Marietta, will be delivered to Keesler AFB 
in January 2005. Deliveries are based on the resolution of deficiencies 
identified during tests. This will impact the start of operational 
testing and the achievement of interim operational capability (IOC). 
Major deficiencies include: propellers (durability/supportability) and 
radar tilt and start up attenuation errors. AFRC continues to work with 
the manufacturer to resolve the QT&E documented deficiencies. The 815th 
ALS has 5 C-130Js at Keesler AFB. Conversion to eight PAA C-130J 
stretch aircraft is to be completed by fiscal year 2007.
C-5 Galaxy
    Over the next five years, there will be important decisions made 
that will change the complexion of the AFRC C-5 Fleet. Currently, there 
are primarily sustainability modifications to the weapons systems to 
allow it to continue as the backbone of the airlift community. Two 
major modifications will be performed on the engines to increase 
reliability and maintainability. Additionally, the C-5B fleet will 
receive the avionics modernization that replaces cockpit displays while 
upgrading critical navigational and communications equipment. AFRC C-
5As are not currently programmed to receive these modifications. The C-
5A fleet has no Defensive Avionics Systems, and this lack of capability 
has significantly hampered the ability of the C-5A to participate 
actively in the GWOT. If these aircraft are not upgraded, then they 
must be retired starting in fiscal year 2008.
C-141 Starlifter
    For the past 30 years, the C-141 has been the backbone of mobility 
for the United States military in peacetime and in conflict. In the 
very near future, the C-141 will be retired from the active-duty Air 
Force. However, Air Force Reserve Command continues the proud heritage 
of this mobility workhorse and will continue to fly the C-141 through 
fiscal year 2006. It is crucial that AFRC remains focused on flying 
this mission safely and proficiently until transition to new mission 
aircraft is completed.
KC-135E/R Stratotanker
    One of Air Force Reserve Command's most challenging modernization 
issues concerns our unit-equipped KC-135s. Seven of the nine air 
refueling squadrons are equipped with the KC-135R, while the remaining 
two squadrons are equipped with KC-135E's. The KC-135E, commonly 
referred to as the E-model, has engines that were recovered from 
retiring airliners. The remaining KC-135Es are being retired, and are 
being replaced by KC-135Rs. The last AFRC FC-135E will be retired in 4Q 
fiscal year 2005.
    The ability of the MAF to conduct the air refueling mission has 
been stressed in recent years. Although total force contributions have 
enabled success in previous air campaigns, shortfalls exist to meet the 
requirements of our National Military Strategy. AMC's Tanker 
Requirements Study-2005 (TRS-05) identifies a shortfall in the number 
of tanker aircraft and aircrews needed to meet global refueling 
requirements in the year 2005. There is currently a shortage of KC-135 
crews and maintenance personnel. Additionally, the number of KC-135 
aircraft available to perform the mission has decreased in recent years 
due to an increase in depot-possessed aircraft with a decrease in 
mission capable (MC) rates.
                               conclusion
    I would like to thank this committee and the Senate for your 
continuing support. I am proud to tell you that our Air Force Reserve 
Command continues to be a force of choice whenever an immediate and 
effective response is required to meet the challenges of today's world. 
For more than 30 years the Air Force has relied upon the Reserve 
components to meet worldwide commitments. The events of September 11, 
2001 and the Global War on Terrorism continue to highlight that 
reliance and have changed the way we think about and employ our forces. 
About one in three Air Force reservists has been mobilized at some 
point since that time. Transformation has proven to be an important 
aspect of the Air Force Reserve as we become more and more relevant in 
today's world.
    We are ready in peace or war, available for quick response, and 
able to stay the course when called upon. Although we are involved more 
now in the daily mission of the Air Force, the focus of the Air Force 
Reserve Command continues to be readiness--we train during periods of 
peace so that we are ready to perform our wartime missions wherever we 
are needed, whenever we are called.
    Like our active duty partners, the men and women of the Air Force 
Reserve are very busy. Trying to balance the demands of military 
service, family, and a civilian profession can be a demanding task, but 
ours is made easier by the support we receive from the American 
taxpayers, Congress, the Department of Defense and the Air Force.
    The Air Force Reserve Command made major Air and Space 
Expeditionary Force (AEF) contributions in fiscal year 2003. AFRC met 
virtually 100 percent of both aviation and support commitments, 
deployed over 23,350 (14,130 aviation and 9,220 support) mobilized and 
volunteer personnel to meet these commitments. The challenge for fiscal 
year 2004 will be to meet the continued AEF demands of the Global War 
On Terrorism primarily with volunteers if the number of mobilized 
personnel decreases.
    I would like to close by offering my sincere thanks to each member 
of this Committee for your continued support and interest in the well-
being and quality of life of each Air Force Reservist. The recent pay 
increases and added benefits of the last few years have helped us 
through a significant and unprecedented time of higher operations 
tempo, calling for each member of the Air Force Reserve to give 200 
percent to the mission while still keeping families and employers 
happy. This will be my final opportunity to represent these fine young 
men and women as the Chief of Air Force Reserve, and I leave, knowing 
that we are on the right path: a stronger, more focused, force. A force 
no longer in Reserve, but integrated into the very fiber of the Air 
Force; the tip of the spear.
    Each of you can be proud of what we've accomplished together on 
behalf of our great nation. Again, I offer my thanks to you and my 
sincerest best wishes for the future.

                               PERSONNEL

    Senator Stevens. Let me ask all of you this question if you 
would respond, and I think that would take my time in the first 
round anyway. The Washington Post recently had an article that 
stated that three-quarters of Army spouses believed the Army is 
likely to encounter personnel problems as soldiers and their 
families tire of the pace and leave for civilian lives. They 
quoted one expert that said 2005 is a make or break year as 
some soldiers who have already served in Iraq for a year are 
sent back for a second year.
    Is this going to be a problem in 2005 and should we do 
anything about so far as this budget is concerned? General 
Helmly.
    General Helmly. The article, if you remember, addressed the 
Active component, but I would tell you that your concerns are 
certainly applicable to the Reserve components, perhaps in some 
cases to a greater degree.
    We are vitally concerned. In our case I believe that the 
tale will be told during the period of about May through 
August. That cohort for us is about 78,000 soldiers in the Army 
Reserve who were mobilized for the initial attack in Iraqi 
Freedom. That group is the group that had the shortages that 
the previous panel addressed in body armor, shortages of 
equipment, in many cases had less than 10 days' notice that 
they were being mobilized. That same cohort had about 8,000 
Army Reserve soldiers who were demobilized only to have to be 
remobilized about a month and a half to 2 months later. So that 
is the group for us that has taken the greatest strain.
    As the previous panel noted, the current mobilization--we 
had to clean up, fix a lot of the equipment shortage problems. 
We are giving much more notice to our troops now, and the flow 
is much smoother and in a more predictable, practiced way. 
Still I am very concerned.
    As far as what this committee could do, we have sought help 
in terms of extending the targeted selected reenlistment bonus 
to Reserve component members. That is a $5,000 to $10,000 bonus 
that is widely accepted by the soldiers in theater because, of 
course, if they reenlist while they are in theater, then those 
$5,000 to $10,000 come virtually tax free. We seek your help in 
that.
    We have forwarded a list of other policy changes to the 
Department of Defense recently, seeking in many cases not 
additional funding, but policy changes to put us on, as General 
Sherrard noted, a more level footing with regard to Active 
component members on recruiting and retention. So that is my 
answer. I think that fiscal year 2005 will, indeed, be a year 
which will tell us how well we are able to sustain an 
operational force with an all-volunteer force while at war.
    Senator Stevens. Thank you. Admiral Cotton?

                            NAVAL RESERVISTS

    Admiral Cotton. Sir, since 9/11, we have had about 22,000 
naval reservists recalled to active duty, including--I see a 
gentleman right behind you--Bob Henke who honorably served in 
the gulf. That is about one-fourth of our force.
    I will also say that we have integrated many of our 
reservists into blended or associate type augment units where 
they can be utilized each month or surge for a few weeks to 
handle whatever OPTEMPO we need. So we have been able to hold 
down the total numbers.
    Our Chief of Naval Operations usually asks the question 
first, let us go to the active component to mobilize someone 
rather than always stress the Reserve component.
    I have to add that today all Admirals in the Navy, Active 
and Reserve, select Senior Executive Service, and our E-9, our 
master chief force and fleet leadership, are in Annapolis at 
the Naval Academy concluding a 3-day conference, the theme of 
which is human resources policy for the future.
    I also have to say that not only are we acting together as 
one Navy, we are also recruiting together as one Navy, using 
Reserve recruiters to recruit active, active to recruit 
reservists, and the real recruitment for the future I think is 
going to be at the active duty commanding officer when a young 
woman or a young man is leaving the service for whatever 
reason. We have to retain them in the Reserve component and 
develop a continuum of service where these individuals can come 
back in and re-serve their country. So the dynamic we are 
looking for is how do we keep them serving, coming back, and 
there will probably be some initiatives that we will come up 
with to ensure that.
    But overall, it is working well. Last month we recruited 
116 percent of our goal. So we are maintaining our end strength 
and doing well in the Navy, sir.
    Senator Stevens. General McCarthy.

                          MARINE CORPS RESERVE

    General McCarthy. Mr. Chairman, our situation is obviously 
different, dictated by our force structure. Seventy percent of 
the enlisted Marines in the Marine Corps Reserve are single, so 
we do not have quite the same level perhaps of spouse 
involvement that some of the other services do. But I think 
that the concern about family support and continued family 
support for service is one that is definitely going to be a 
factor as we go forward.
    I will tell you that the thing that I am probably most 
concerned with is our ability to continue to recruit people who 
complete their active service and in the past have affiliated 
with the Marine Corps Reserve. I think that family pressures 
that may induce them to conclude their active service may also 
influence their decision as to whether to affiliate and 
participate with the Marine Corps Reserve. So the next couple 
of years are going to be telling.
    In terms of what can be done, I think that a number of the 
initiatives that the Department has put forward this year 
regarding TRICARE are very positive. I think that anything the 
committee can do to strengthen the Montgomery GI bill would be 
a very strong plus. Forty percent of the young men and women in 
the Marine Corps Reserve are college students, so there is a 
very high interest in the Montgomery GI bill.
    I would second General Helmly and everybody on the panel's 
position with regard to equitable and the perception of 
equitable treatment. But we all have to be watching this the 
next year or 2 very carefully.
    Senator Stevens. Thank you very much.
    General Sherrard.

                                MANPOWER

    General Sherrard. Yes, sir. I echo the comments of my 
colleagues, and I would tell you that we are watching our 
manning, in particular, with great interest because of the fact 
of ``stop-loss'' in 2002 and then it being on for a portion of 
2003. The numbers in fact are slightly low in our world today, 
but I am confident that we will end with our end strength on 
target, as well as meeting our recruiting goals. The real 
challenge is going to be retaining those members that we have 
and, again, I am very proud to say that to date, those members 
that have been activated are being retained at a higher rate 
than the remainder of our force. But again, that is a small 
piece compared to the larger picture that we have. We have got 
to continue to pursue fair and equitable compensation. I really 
believe that is the key to success as well as our ability to 
retain the members after they have satisfactorily completed 
their 20 years of service which qualify them for retirement, 
but they still have in most cases 10 to 13 years remaining that 
they can serve in our force.
    The other caution that I would say is that while we all 
seek those same things, each of us has different requirements 
and we have to be very careful that we do not do something that 
impacts on another service adversely. But I do believe that 
fair and equitable compensation, as well as understanding and 
looking at issues such as General McCarthy talked about, 
equalizing the Montgomery GI bill benefits and things of that 
type, will all enhance our ability to draw the very best to 
serve in our forces.

                               RETENTION

    Senator Stevens. Well, last year we provided the National 
Guard and Reserve Equipment Account. I am thinking this year we 
ought to think about some kind of a National Guard and Reserve 
reenlistment account that you decide how to use it best to 
increase your retention, aimed at retention rather than 
recruiting. But think about that and let us know what you would 
like us to do. I think each one of you has different needs and 
clearly General McCarthy's are not the same as yours, but they 
still have to have some kind of retention capability. I think 
we ought to look to putting some of the money we have, either 
this year or in the supplemental at the first of the year, to 
work to assure that you have got that capability. Let us know, 
please. We would like to work with you.
    Senator Inouye.
    Senator Inouye. First of all, I agree with your plan.
    Senator Stevens. You probably thought of it and I said it.

                     ACTIVE AND RESERVE INTEGRATION

    Senator Inouye. BRAC is upon us again. General Sherrard, I 
have been advised that the Active and Reserve air forces are 
now working out an integration plan. Can you describe that to 
us?
    General Sherrard. Yes, sir. The integration plans that we 
are working are operational integration in terms of how we can 
best utilize the assets that we in the Air Force will have. As 
was mentioned by the first panel, one of the key ones that has 
truly integrated all three components serving at the same time 
within an organization is the Predator mission that we have at 
Nellis. But as I mentioned, we have been doing associate 
business in the large aircraft, the C-5, 141, the C-17, KC-10 
business for a long time. We also have associate units in the 
fighter business, as well as AWACS special operations and then 
as I mentioned also in our undergraduate pilot training 
program. I would tell you operationally we integrate and serve 
our force very well based on the fact that, as I said earlier, 
there is one standard to which we all train to.
    We still will have the administrative control circumstances 
that we have to take care of based on the law that mandates 
what a commander is responsible for and that has been given to 
each of us, as well as ensuring that we have promotion 
opportunities and a structure which will allow progression up 
through the ranks so that we, in fact, do not stymie someone 
simply because there is no place for them to go.
    But we will continue to look at operational integration and 
the best utilization of the limited assets we will have 
utilizing the highly experienced members that we bring to the 
force.
    Senator Inouye. Is that plan applicable to the other 
Reserve components, General?
    General Helmly. Senator, it is. First of all, regarding 
BRAC, there is a single office in the Army that is overseeing 
Army planning. We have representatives there. We are a part of 
that. The chief of that office, a Senior Executive Service 
employee, briefs me regularly regarding our integrated efforts 
there.
    I am in favor of additional joint basing and cooperation 
with the various State National Guards, because to the extent 
that we partner in that effort, we reduce the cost and 
investments in facilities and we are allowed to reinvest those 
dollars in operations training and such initiatives as the 
chairman spoke to for recruiting and retention.
    Regarding operational integration, we have similar 
formations as the Air Force Reserve. We call them multi-
component organizations. Those organizations are serving us 
very well in the logistic support and medical support areas of 
the Army.

                         JOINT RESERVE CENTERS

    Admiral Cotton. Yes, sir. I would like to add that the 
Naval Reserve is a full participant in the Navy BRAC process 
and all cross-functional teams, and so we will work through our 
Chief of Naval Operations for the BRAC process.
    I would also like to add that as I mentioned before, in 
Desert Storm we got it. We started integrating more. Today 
every naval aviator that goes into combat has been trained by a 
naval reservist. It starts in the beginning, continues in 
intermediate and in advanced training. Every carrier group that 
gets trained in a joint task force exercise, the folks doing 
the training are naval reservists. These predictable and 
periodic missions that are easy to schedule are perfect for the 
skill sets that our senior and experienced reservists bring. So 
we have integrated and we are going to continue to do that and 
combine where it makes sense.
    I would like to echo what we have all said here. For the 
future, when we build Reserve centers, they should be joint 
centers. They should be joint operational support centers. They 
should mirror what we have already done with the intel 
community, with the very successful JRIC's, the joint Reserve 
intel centers. There are 27 of them around the country. But if 
we are going to build a facility, we need to have a SCIF. We 
need to have a secure area, a T-1 line so that we can 
communicate from wherever the center is via Secret Internet 
Protocol Network (SIPRNET), via secured link to the supported 
commands. And we find if you have these kind of links, you do 
not need to move someone into theater. You can do the work from 
Continental United States (CONUS) and support the warfighter 
and not have to have a footprint in theater.
    Senator Inouye. General McCarthy.
    General McCarthy. Senator Inouye, I repeat everything 
everybody else has said, especially with regard to joint 
centers. The one point I would make is that I know it is true 
for the Marine Corps Reserve, and I think it is true for most 
everyone else. We are a locally based force and while I am 100 
percent in favor of consolidating into joint centers, I think 
we need to keep our local footprint. We need to keep those 
joint centers in the communities where we exist today. That is 
where we draw people from. That is where we represent a Marine 
Corps presence. So I am opposed to the idea of clustering the 
Reserve components in just a few large installations as 
sometimes gets suggested.
    Senator Inouye. The chairman and I served in the ancient 
war. There were many differences. For example, in the regimen I 
served, 4 percent of the officers and enlisted had dependents. 
Ninety percent of us were 18, 19, 20 and unattached. I think 
that was about what it was in all the United States Army. I 
think 10 percent with dependents and 90 percent without. Today 
I believe the Army has something close to 75 percent with 
dependents. In addition, the fact that you have embedded 
journalists in just about every unit brings live action into 
every home which was not available in my time.
    Although the number of those with uniforms number just 
about 1 percent of the total population, it has become a 
national concern, a national interest. Therefore, recruiting 
and retention becomes a major concern to us. It may not be with 
us today, but with all of this happening now, we should listen 
to the chairman very carefully to come up with some program 
that will further encourage our young men and women to consider 
the military as a career because otherwise Congress and the 
administration will be called upon to use that D word. I can 
just see the concern in the populace when the D word comes up. 
So whatever you can do to enhance the recruiting and retention 
of our forces I think would be well received by this Nation of 
ours.
    Thank you very much.
    Senator Stevens. Thank you, Senator.
    Once again, you are thinking along the same lines I was 
thinking about in terms of the draft. Senator Goldwater and I 
conspired to do away with the draft. I do not know if you know 
that. We certainly do not want to see it come back. I think the 
concept of the volunteer Army has proved itself not only in the 
gulf war but in this engagement for sure.
    You were in the room when I asked the National Guard 
Generals about looking at the problem of those ammunition dumps 
in Iraq. I would welcome your review of that and attention. We 
took occasion to be briefed by the intelligence community just 
recently and I think it is something that is going to come to a 
head here fairly soon as far as Congress is concerned.
    Last year Senator Feinstein asked for some specific money 
for that purpose and we included that purpose in with the 
HUMVEE upgrading and other things that really absorbed the 
money before that subject could be totally reviewed. And I have 
apologized to her for that because I think that some of us did 
not understand the scope of it. I certainly did not. But when 
you are dealing with 1,000 to 7,000 dumps of ordnance that is 
still usable, as far as we are informed, that is a massive 
problem for the world, not just for us.
    So I would welcome your review and your suggestions on what 
we might be capable of doing in the near future. I think it may 
well be a problem for the United Nations and for the world to 
tackle, but clearly it is one of the largest problems I have 
ever looked at.
    Thank you very much for your testimony.

                          SUBCOMMITTEE RECESS

    We will reconvene on Wednesday, April 21 to hear testimony 
concerning missile defense.
    Thank you very much and good luck to all of the people 
under your command.
    [Whereupon, at 11:40 a.m., Wednesday, April 7, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 21.]
</pre></body></html>
